<html>
<title> - H.R. 554, PALEONTOLOGICAL RESOURCES PRESERVATION ACT; H.R. 986, EIGHTMILE WILD AND SCENIC RIVER ACT; H.R. 1100, CARL SANDBURG HOME NATIONAL HISTORIC SITE BOUNDARY REVISION ACT OF 2007; AND H.R. 1285, SNOQUALMIE PASS LAND CONVEYANCE ACT.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   H.R. 554, PALEONTOLOGICAL RESOURCES PRESERVATION ACT; H.R. 986, 
  EIGHTMILE WILD AND SCENIC RIVER ACT; H.R. 1100, CARL SANDBURG HOME 
 NATIONAL HISTORIC SITE BOUNDARY REVISION ACT OF 2007; AND H.R. 1285, 
                 SNOQUALMIE PASS LAND CONVEYANCE ACT.

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, April 17, 2007

                               __________

                           Serial No. 110-14

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

34-821 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001







                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Rick Renzi, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Raul M. Grijalva, Arizona            Henry E. Brown, Jr., South 
Madeleine Z. Bordallo, Guam              Carolina
Jim Costa, California                Luis G. Fortuno, Puerto Rico
Dan Boren, Oklahoma                  Cathy McMorris Rodgers, Washington
John P. Sarbanes, Maryland           Bobby Jindal, Louisiana
George Miller, California            Louie Gohmert, Texas
Edward J. Markey, Massachusetts      Tom Cole, Oklahoma
Peter A. DeFazio, Oregon             Rob Bishop, Utah
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Patrick J. Kennedy, Rhode Island     Dean Heller, Nevada
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Rick Renzi, Arizona
Dan Boren, Oklahoma                  Stevan Pearce, New Mexico
John P. Sarbanes, Maryland           Henry E. Brown, Jr., South 
Peter A. DeFazio, Oregon                 Carolina
Maurice D. Hinchey, New York         Louie Gohmert, Texas
Ron Kind, Wisconsin                  Tom Cole, Oklahoma
Lois Capps, California               Dean Heller, Nevada
Jay Inslee, Washington               Bill Sali, Idaho
Mark Udall, Colorado                 Doug Lamborn, Colorado
Stephanie Herseth Sandlin, South     Don Young, Alaska, ex officio
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                








                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, April 17, 2007..........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3
    Shuler, Hon. Heath, a Representative in Congress from the 
      State of North Carolina....................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Caviezel, Chris L., Chairman, Board of Commissioners, King 
      and Kittitas Counties (WA) Fire District 51................    58
        Prepared statement on H.R. 1285..........................    59
    Courtney, Hon. Joe, a U.S. Representative in Congress from 
      the State of Connecticut...................................     8
        Prepared statement on H.R. 986...........................    10
    Frohling, Nathan M., Director, Lower Connecticut River 
      Program, Eightmile Project, The Nature Conservancy.........    48
        Prepared statement on H.R. 986...........................    49
    Hastings, Hon. Doc, a U.S. Representative in Congress from 
      the State of Washington....................................    11
        Prepared statement on H.R. 1285..........................    12
    Larson, Peter L., President, Black Hills Institute of 
      Geological Research, Inc...................................    30
        Prepared statement on H.R. 554...........................    32
    Masica, Sue, Chief of Staff, National Park Service...........    15
        Prepared statement on H.R. 554...........................    17
        Prepared statement on H.R. 986,..........................    19
        Prepared statement on H.R. 1100..........................    20
    McGovern, Hon. James P., a U.S. Representative in Congress 
      from the State of Massachusetts............................     6
        Prepared statement on H.R. 554...........................     8
    McGrady, Charles, Member, Board of Commissioners, Henderson 
      County, North Carolina.....................................    55
        Prepared statement on H.R. 1100..........................    56
    Norbury, Fred, Associate Deputy Chief, National Forest 
      Systems, U.S. Forest Service...............................    21
        Prepared statement on H.R. 554 and H.R. 1285.............    22
    Vlamis, Ted J., Chairman, Government Affairs Committee, 
      Society of Vertebrate Paleontology.........................    39
        Prepared statement on H.R. 554...........................    41


   LEGISLATIVE HEARING ON H.R. 554: TO PROVIDE FOR THE PROTECTION OF 
  PALEONTOLOGICAL RESOURCES ON FEDERAL LANDS, AND FOR OTHER PURPOSES. 
 (PALEONTOLOGICAL RESOURCES PRESERVATION ACT); H.R. 986, TO AMEND THE 
    WILD AND SCENIC RIVERS ACT TO DESIGNATE CERTAIN SEGMENTS OF THE 
   EIGHTMILE RIVER IN THE STATE OF CONNECTICUT AS COMPONENTS OF THE 
    NATIONAL WILD AND SCENIC RIVERS SYSTEM, AND FOR OTHER PURPOSES. 
    (EIGHTMILE WILD AND SCENIC RIVER ACT); H.R. 1100, TO REVISE THE 
BOUNDARY OF THE CARL SANDBURG HOME NATIONAL HISTORIC SITE IN THE STATE 
OF NORTH CAROLINA, AND FOR OTHER PURPOSES. (CARL SANDBURG HOME NATIONAL 
HISTORIC SITE BOUNDARY REVISION ACT OF 2007); AND H.R. 1285, TO PROVIDE 
   FOR THE CONVEYANCE OF A PARCEL OF NATIONAL FOREST SYSTEM LAND IN 
 KITTITAS COUNTY, WASHINGTON, TO FACILITATE THE CONSTRUCTION OF A NEW 
FIRE AND RESCUE STATION, AND FOR OTHER PURPOSES. (SNOQUALMIE PASS LAND 
                            CONVEYANCE ACT).

                              ----------                              


                        Tuesday, April 17, 2007

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:06 a.m. in 
Room 1334, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Heller, Inslee, 
Sali, Herseth Sandlin, and Shuler.

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call the Subcommittee on National 
Parks, Forests and Public Lands to order. To open this hearing. 
I want to thank our witnesses and the panelists for their 
patience, and I am pleased to welcome my colleagues and our 
distinguished panels to today's Subcommittee hearing. In 
particular we want to thank those witnesses who have traveled 
to Washington to join us.
    Today we are meeting to consider four measures, H.R. 554, 
H.R. 986, H.R. 1100, and H.R. 1285.
    Our first bill, H.R. 554, was sponsored by our colleague, 
Representative Jim McGovern. The bill would implement the 
recommendations of a report--commissioned by Congress and 
completed by the Secretary of the Interior--regarding the need 
for standardized management provisions governing fossils found 
on public lands. Uniform rules for archeological and cultural 
resources located on public lands have already been 
established, and we look forward to hearing from our witnesses 
today regarding the need for a similar step with regard to 
fossils.
    Our next bill, H.R. 986, would designate 25.3 miles of the 
Eightmile River and its tributaries in Connecticut as a 
national scenic river. The bill was introduced by 
Representative Joe Courtney, and would protect portions of the 
river that have been found to have outstandingly remarkable 
values including an intact watershed with natural flow, very 
high water quality, unusual regional geological features and 
large numbers of rare plants and animals. The river would be 
managed under a partnership agreement as envisioned in Section 
10[e] of the Wild and Scenic Rivers Act.
    The next bill, H.R. 1100, is sponsored by our new 
Subcommittee colleague, Representative Shuler. The bill would 
authorize the expansion of the Carl Sandburg Home National 
Historic Site in Representative Shuler's district, consistent 
with a recommendation contained in the general management plan 
for the site. We look forward to learning more about the 
historic site, and the two-time Pulitzer prize winning author 
and poet who once lived there.
    The final bill we will consider today is H.R. 1285, 
sponsored by Representative Doc Hastings. The bill would 
authorize a conveyance of three acres of National Forest System 
lands in the Mt. Baker-Snoqualmie National Forest and 
facilitate the construction of a new fire and rescue station. I 
welcome our witnesses from the local fire and rescue squads to 
describe the need for a new fire and rescue station in this 
community. I also look forward to hearing from the Forest 
Service about the best way to move forward in making land 
available for this purpose, be it administratively or 
legislatively.
    Once again we look forward to our witnesses' insights and 
thank them for their efforts. I would now recognize Mr. Bishop 
for any opening statements he may have.
    [The prepared statement of Chairman Grijalva follows:]

          Statement of The Honorable Raul Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    I am pleased to welcome my colleagues and our distinguished 
panelists to today's subcommittee hearing. In particular, we want to 
thank those witnesses who have traveled to Washington to join us. Today 
we are meeting to consider four measures: H.R. 554, H.R. 986, H.R. 
1100, and H.R. 1285.
    Our first bill, H.R. 554, is sponsored by our colleague from 
Massachusetts, Representative Jim McGovern. The bill would implement 
the recommendations of a report--commissioned by the Congress and 
completed by the Secretary of the Interior--regarding the need for 
standardized management provisions governing fossils found on public 
lands. Uniform rules for archeological and cultural resources located 
on public lands have already been established and we look forward to 
hearing from our witnesses today regarding the need for a similar step 
with regard to fossils.
    Our next bill, H.R. 986, would designate 25.3 miles of the 
Eightmile River and its tributaries in Connecticut as a national scenic 
river. The bill was introduced by Representative Joe Courtney and would 
protect portions of a river that have been found to have 
``outstandingly remarkable'' values including an intact watershed with 
a natural flow, very high water quality, unusual regional geological 
features, and large numbers of rare plants and animals. The river would 
be managed under a partnership agreement as envisioned in section 10(e) 
of the Wild and Scenic Rivers Act.
    The next bill, H.R. 1100, is sponsored by our new subcommittee 
colleague, Representative Heath Shuler. The bill would authorize the 
expansion of the Carl Sandburg Home National Historic Site, in 
Representative Shuler's district, consistent with a recommendation 
contained in the general management plan for the site. We look forward 
to learning more about this historic site and the two-time Pulitzer 
Prize winning author and poet who once lived there.
    The final bill we will consider today is H.R. 1285, sponsored by 
Representative Doc Hastings. The bill would authorize a conveyance of 
three acres of National Forest System lands in the Mt. Baker-Snoqualmie 
(``snow-qual-mee'') National Forest to facilitate the construction of a 
new fire and rescue station. I welcome our witness from the local fire 
and rescue squad to describe the need for a new fire and rescue station 
in his community. I also look forward to hearing from the Forest 
Service about the best way to move forward in making land available for 
this purpose, be it administratively or legislatively.
    Once again, we look forward to our witness's insights and thank 
them for their efforts. I would now recognize Mr. Bishop for any 
opening statement he may have.
                                 ______
                                 

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. I appreciate this 
opportunity. I apologize for being late. You would think if 
Mussolini could make the trains in Italy run on time House 
Administration could do the same thing with the elevators in 
Longworth but that is probably too much to hope for.
    I would like to welcome today's witnesses including my two 
colleagues from my short tenure on the Rules Committee, 
Representative Hastings of Washington and Representative 
McGovern from Massachusetts, and also a new member to Congress, 
Mr. Courtney from Connecticut, as well as our colleague who has 
a bill here today but he is a member of the committee.
    Mr. Hastings' bill, H.R. 1285, appears to be a sensible 
conveyance of forest lands to volunteer fire departments so it 
can continue to serve their community. H.R. 986 by Mr. Courtney 
designates segments and tributaries of the Eightmile River as 
additions to the National Wild and Scenic River System. I note 
that the Wild and Scenic River Act of 1968 allows the Federal 
Government to acquire private property along designated rivers 
and prevents certain developments on private property. I am 
going to be eager to hear from Mr. Courtney and other witnesses 
how private property will be affected by H.R. 986.
    H.R. 1100 introduced by Mr. Shuler would authorize the 
expansion of the Carl Sandburg National Historic Site by 115 
acres. This unit already has 260 acres. I am interested to 
learn the compelling reasons for this large addition as well as 
the costs that would be attributed to the taxpayers. I note 
that Mr. Shuler's predecessor who chaired the Interior 
Appropriations Subcommittee did not advocate this addition.
    Finally, I am very concerned with the unintended 
consequences that may be incurred with H.R. 554, introduced by 
Mr. McGovern. I am intrigued how someone from a state with very 
little Federal land ownership and few fossils has chosen to 
take the lead on a bill that creates civil and criminal 
penalties as well as assets forfeiture for folks who are 
collecting fossils on Federal lands. Also the Senate companion 
bill as introduced by the junior Senator from Hawaii, whose 
state is entirely volcanic and very few fossils included.
    My state has 67 percent owned by the Federal Government, 
has an abundance of fossils. Thousands of my constituents 
collect rocks, gems and fossils from Federal lands, and I have 
heard from them about this particular bill. I believe their 
position will be presented today by Peter Larson, who is the 
founder and the President of the Black Hills Institute of 
Geological Research in South Dakota, and I look forward to 
hearing Mr. Larson's testimony and thank Representative Herseth 
Sandlin for inviting him here today.
    Mr. Grijalva. Thank you, Mr. Bishop, and as I noted earlier 
our colleague on the Subcommittee, Representative Shuler, is 
the author of H.R. 1100. I would recognize him now for any 
remarks he may have on this legislation that he is promoting.

    STATEMENT OF THE HON. HEATH SHULER, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Shuler. Thank you, Mr. Chairman. Mr. Chairman, I 
appreciate the opportunity to discuss the Carl Sandburg Home 
National Historic Site. I am also honored to have Henderson 
County Commissioner Chuck McGrady with me who will testify 
about the importance of the Carl Sandburg Home National 
Historic Site.
    Carl Sandburg was one of America's most celebrated and 
accomplished literary minds. Although he possessed only an 
eighth grade education, Carl Sandburg worked to become a two-
time Pulitzer Prize winner with his biography of Abraham 
Lincoln and later for his ``Complete Poems.'' Carl Sandburg was 
a native of Galesburg, Illinois but spent 22 years of his 
professional career in Flat Rock, North Carolina, in Henderson 
County. Carl Sandburg's home in Flat Rock includes Connemara 
Farms, lush pastures, five miles of wooded hiking trails, 
gardens, apple orchards and several small lakes and ponds.
    It is currently preserved as a National Historic Site by 
the National Park Service. The Carl Sandburg Home National 
Historic Site attracts over 26,000 visitors a year who come to 
enjoy one of western North Carolina's most scenic and beautiful 
natural areas. I have introduced H.R. 1100 to allow for the 
protection of this pristine and historical, valuable space from 
the pressures of overdevelopment on the land that is contiguous 
to the Carl Sandburg Historic Site.
    I will offer an amendment to add maps to this site at 
Thursday's markup. This bill authorizes the Secretary of 
Interior to acquire from willing sellers by donation or 
purchase with donated or appropriated funds up to 115 acres of 
land neighboring the Carl Sandburg National Historic Site for 
the inclusion in this site.
    The bill also directs the Secretary to revise the boundary 
of the historic site to reflect any acquisition of new land and 
further directs the Secretary to administer acquisitions of 
land as part of the historic site. The land being considered 
under this authorization runs to the south and west of the 
National Historic Site and encompasses the side of the Big 
Glassy Mountain, the focal point of the Carl Sandburg home 
viewshed.
    The goal of this authorization is to give the park and its 
patrons the ability to preserve the surrounding landscape, a 
vital element to the park itself. All parcels of land in 
question are privately owned, and each of the landowners have 
given consent for their property to be included in the 
authorization boundary. The surrounding community is 
enthusiastic about the proposed authorization as is the State.
    North Carolina Department of Resources have already 
acquired 22 acres of this land with the help of the 
Conservation Trust of North Carolina and shows the willingness 
to be included into the authorization boundary as well. It is 
critically important that we work to preserve our National 
Historic Site for future generations. I sincerely appreciate 
the opportunity to discuss the importance of the Carl Sandburg 
Home National Historic Site and welcome any questions or 
comments. I yield back my time.
    [The prepared statement of Mr. Shuler follows:]

 Statement of The Honorable Heath Shuler, a Representative in Congress 
                    from the State of North Carolina

    Mr. Chairman, I appreciate the opportunity to discuss the Carl 
Sandburg Home National Historical Site.
    I am also honored to have Henderson County Commissioner Chuck 
McGrady with me, who will testify to this committee about the 
importance of the Carl Sandburg Home National Historic Site.
    Carl Sandburg was one of America's most celebrated and accomplished 
literary minds.
    Although he possessed only an 8th grade education, Carl Sandburg 
worked to become a 2-time Pulitzer Prize-winner--first for his 
biography of Abraham Lincoln, and later for his ``Complete Poems''.
    Carl Sandburg was a native of Galesburg, Illinois, but spent 22 
years of his professional career in Flat Rock, North Carolina, near the 
seat of Henderson County.
    Sandburg's home in Flat Rock--which includes Connemara Farms, lush 
pastures, 5 miles of wooded hiking trails, gardens, apple orchards, and 
several small lakes and ponds--is currently preserved as a National 
Historic Site by the National Park Service.
    The Carl Sandburg Home National Historic Site attracts over 26,000 
visitors a year, who come to enjoy one of Western North Carolina's most 
scenic and beautiful natural areas.
    I have introduced H.R. 1100 to allow for the protection of this 
pristine and historically-valuable space from the pressures of 
overdevelopment on land that is contiguous to the Carl Sandburg 
Historic Site. I will offer an amendment to add maps of this site at 
Thursdays mark-up.
    This bill authorizes the Secretary of the Interior to acquire from 
willing sellers by donation or purchase, with donated or appropriated 
funds, up to 115 acres of land neighboring the Carl Sandburg Home 
National Historic Site, for inclusion in the site.
    The bill also directs the Secretary to revise the boundary of the 
Historic Site to reflect any acquisition of new land, and further 
directs the Secretary to administer acquired land as part of the 
Historic Site.
    The land being considered under this authorization runs to the 
south and west of the National Historic Site and encompasses the side 
of Big Glassy Mountain, the focal point in the Carl Sandburg Home 
viewshed. The goal of this authorization is to give the park and its 
patrons the ability to preserve the surrounding landscape--a vital 
element of the park itself.
    All parcels of the land in question are privately owned and each of 
the landowners has given consent for their property to be included in 
the authorization boundary. The surrounding community is enthusiastic 
about the proposed authorization, as is the State. The North Carolina 
Department of Resources has already acquired 22 acres of this land with 
the help of the Conservation Trust for North Carolina and has shown 
willingness to be included in the authorization boundary as well.
    It is critically important that we work to preserve our National 
Historic Sites for future generations.
    I sincerely appreciate this opportunity to discuss the importance 
of the Carl Sandburg Home National Historic Site, and welcome any 
questions or comments.
                                 ______
                                 
    Mr. Grijalva. Thank you, Congressman, and let me without 
objection indicate that the statements of all the witnesses 
today will be made part of the record in their entirety. With 
that, I would like to turn to our first panel and begin with 
our colleague, Congressman McGovern.

 STATEMENT OF THE HON. JAMES P. McGOVERN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. McGovern. Thank you very much, Mr. Chairman and Ranking 
Member Bishop and other members of the Subcommittee. I am 
grateful for the opportunity to testify before the Subcommittee 
today on H.R. 554, and I should say at the outset to my former 
colleague from the Rules Committee, Mr. Bishop, that one of the 
reasons why I became interested in this legislation was after 
meeting with some members from the Society of Vertebrate 
Paleontology. You are going to hear from Mr. Ted Vlamis who is 
going to testify a little while later.
    I should also point out that the American Association of 
Museums is also very interested in this legislation, and they 
support this bill, and I will assure Mr. Bishop that we do have 
a lot of museums in Massachusetts, and that you are more than 
welcome to come up, and we can visit them all together. But 
there are lots of museums.
    Mr. Chairman, like most of us here I have always had a 
fascination with dinosaurs and natural history and our planet's 
development. As both a conservationist and a former member of 
this committee, I am committed to promoting fossil research and 
preserving our national heritage for future generations.
    In that spirit, my colleagues and I on both sides of the 
aisle introduced legislation again in this Congress to protect 
the irreplaceable and historically significant resources that 
are found on public land. Neither the rarity of these fossils 
nor the growing problem of theft and vandalism of these 
resources should be underestimated.
    Far less than one percent of all organisms that have ever 
lived become fossils. These rare fossils provide clues that 
help us solve the mysteries of life on earth. They are one of 
the few ways we can study evolutionary patterns and 
environmental change. These fossils are educational and 
scientific research tools for our generation and those to come. 
Simply stated, fossils teach us about the history of life on 
earth and it is necessary that we have the most complete record 
possible.
    Protecting that fossil record is precisely why this 
legislation is so urgently needed. As we sit here today, the 
illegal collection of specimens from Federal lands is the most 
significant threat to vertebrate fossil resources. The 
commercial value of America's fossils has spawned an exploding 
international black market. The sale of fossils has become a 
highly profitable industry that has led to the theft of fossils 
from both public and private land.
    A 1999 study conducted by the National Park Service opened 
my eyes to the magnitude of this problem. Between 1995 and 
1998, it documented 721 incidents of fossil theft and 
vandalism. A subsequent study commissioned by the Forest 
Service produced even more shocking results. These are the 
public's resources on public land. They belong to all of us, 
and we must not stand idly by allowing them to disappear into 
the hands of unscrupulous dealers and black marketeers.
    Unfortunately as illegal fossil collection has flourished, 
we have failed to develop a clear, consistent and unified 
policy that gives Federal land managers the authority to 
properly protect these resources. H.R. 554 is the product of 
bipartisan collaborations within both the House and Senate. 
Throughout this process we have worked hand-in-hand with our 
Federal agencies, respected members of the professional and 
amateur paleontologist community and distinguished research 
scientists. Together we have crafted a bill that provides stiff 
penalties for crimes involving the theft and vandalism of 
fossils of national significance in order to deter the illegal 
collection of these resources on public lands.
    It is important to note that the bill seeks only to 
penalize those who knowingly violate the law and seek to 
illegally profit from these public resources. It does not place 
any new restrictions on amateur collectors who, by and large, 
respect the value of these fossils. It is limited to public 
lands. It will in no way affect private landowners. 
Furthermore, this bill mandates that all such fossils taken 
from Federal land be curated at museums or suitable 
depositories.
    Last, it standardizes the permitting practices for 
excavation on public lands to ensure that fossils are not 
needlessly damaged which is another problem. I am convinced 
that H.R. 554 represents the best chance we have to guard our 
shared history and to protect the legacy for future 
generations. Again, Mr. Chairman, I thank you for the 
opportunity to testify before you today, and I urge my 
colleagues on both sides of the aisle to support this 
legislation.
    [The prepared statement of Mr. McGovern follows:]

Statement of The Honorable James P. McGovern, a U.S. Representative in 
      Congress from the State of Massachusetts, on H.R. 554, The 
               Paleontological Resources Preservation Act

    I am grateful for the opportunity to testify before the 
Subcommittee today on H.R. 554, the Paleontological Resources 
Preservation Act. Like most people, I have always been fascinated with 
dinosaurs, natural history, and our planet's history. As both a 
conservationist and a former Member of the House Resources Committee, I 
am committed to promoting fossil research and preserving our national 
heritage for future generations.
    In that spirit, my colleagues and I--on both sides of the aisle 
``introduced legislation again in this Congress to protect the 
irreplaceable and historically significant resources that are found on 
public land. Neither the rarity of these fossils nor the growing 
problem of theft and vandalism of these resources should be 
underestimated.
    Far less than 1% of all organisms that have ever lived become 
fossils. These rare fossils provide clues that help us solve the 
mysteries of life on earth. They are one of the few ways we can study 
evolutionary patterns and environmental change. These fossils are 
educational and scientific research tools for our generation and those 
to come. Simply stated, fossils teach us about the history of life on 
earth, and it is necessary that we have the most complete record 
possible.
    Protecting that fossil record is precisely why this legislation is 
so urgently needed. As we sit here today, the illegal collection of 
specimens from federal lands is the most significant threat to 
vertebrate fossil resources. The commercial value of America's fossils 
has spawned an exploding international black-market. The sale of 
fossils has become a highly profitable industry that has led to the 
theft of fossils from both public and private land.
    A 1999 study conducted by the National Park Service opened my eyes 
to the magnitude of this problem--between 1995 and 1998, it documented 
721 incidents of fossil theft and vandalism. A subsequent study 
commissioned by the Forest Service produced even more shocking results. 
These are the public's resources on public lands--they belong to all of 
us, and we must not stand idly by, allowing them to disappear into the 
hands of unscrupulous dealers and black marketers.
    Unfortunately, as illegal fossil collection has flourished, we have 
failed to develop a clear, consistent, and unified policy that gives 
federal land managers the authority to properly protect these 
resources.
    H.R. 554 is the product of bipartisan collaborations within both 
the House and Senate. Throughout this process, we have worked hand-in-
hand with our federal agencies, respected members of the professional 
and amateur paleontologist community, and distinguished research 
scientists.
    Together, we have crafted a bill, which provides stiff penalties 
for crimes involving the theft and vandalism of Fossils of National 
Significance (FONS) in order to deter the illegal collection of these 
resources on public lands. And, it is important to note that the bill 
seeks only to penalize those who knowingly violate the law and seek to 
illegally profit from these public resources. It does not place any new 
restrictions on amateur collectors who by and large respect the value 
of these fossils. It is limited to public lands, and will in no way 
affect private land-owners. Furthermore, this bill mandates that all 
such fossils taken from federal land be curated at museums or suitable 
depositories. Lastly, it standardizes the permitting practices for 
excavation on public lands to ensure that fossils are not needlessly 
damaged.
    I am convinced that H.R. 554 represents the best chance we have to 
guard our shared history and to protect that legacy for future 
generations.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. McGovern, and with that let me 
turn to our colleague, Congressman Courtney.

    STATEMENT OF THE HON. JOE COURTNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Courtney. Thank you, Mr. Chairman, and thank you 
Congressman Bishop and other members of the Subcommittee for 
the opportunity to testify today in support of H.R. 986, the 
Eightmile Wild and Scenic River Act. With me today is Nathan 
Frohling, who is the Director of the Connecticut River Program, 
Eightmile River Program of The Nature Conservancy, who also 
will be offering testimony regarding this project, and I just 
want to spend a few minutes outlining how important this 
legislation is to the region and entire State of Connecticut.
    The entire Connecticut delegation has joined me in a 
bipartisan effort cosponsoring H.R. 986 that would designate 
the Eightmile River as part of the National Wild and Scenic 
Rivers Program, and there is a companion bill in the Senate 
that has been cosponsored by Senators Dodd and Lieberman which 
has movement in that chamber as well.
    More than five years ago, President Bush signed legislation 
to authorize a study to determine the merits of the Eightmile 
River's request for inclusion in this program. While that was 
the beginning of the Federal legislative movement, local 
citizens from the three towns of East Haddam, Lyme, and Salem, 
Connecticut, have been working diligently for years to plan how 
best to protect and preserve the river and its watershed.
    The Eightmile River is so named because of the distance 
between the mouth of the river in East Haddam all the way to 
Long Island Sound. There is a 62-square mile watershed of 
mostly forested area with many rare plants and animal species 
which surround the river. It represents an intact aquatic 
ecosystem that is rare in the Northeast, and the National Park 
Service has determined in its study that the Eightmile River 
met all the criteria necessary for the Wild and Scenic 
designation.
    In addition, I think this is important--all three of the 
affected towns passed resolutions in town meetings, every board 
and commission that deals with land use has reviewed this 
proposal, have supported it. The Connecticut General Assembly 
unanimously passed a resolution in support of this measure, and 
I want to emphasize these are three very small towns in eastern 
Connecticut.
    This is small town meeting local government at its finest. 
This is a highly educated area in terms of the communities, 
people who abut the river. It has been very visible and public. 
People have had plenty of opportunity over the last 10 years to 
weigh into this proposal and the support has been unanimous. 
There has not been a single bit of opposition expressed to this 
measure which as I think Congressman McGovern can attest I mean 
in New England now land use issues are some of the most hotly 
contested areas of local government, and yet this is a proposal 
which has brought extraordinary consensus in the local 
communities in support of it.
    And it was decided early on by the local citizens to 
recognize the entire watershed and put together a management 
plan whereby local, state and Federal organizations could 
voluntarily work to address the needs of the region.
    I just want to conclude by addressing Congressman Bishop's 
concern about the Federal Government's potential impact on 
local private landowners' rights. Section g(2) of the 
legislation which deals with acquisition of lands explicitly 
states that the Federal Government is prohibited from 
exercising any condemnation rights in reference to this 
management plan.
    Connecticut is the home of the Kelo Eminent Domain case 
which I am sure many of you will recall from a couple of years 
ago, and frankly people are extremely sensitive to this issue 
that we do not want intrusive, heavy-handed powers being 
granted to the Federal Government to come in and affect 
people's local property rights.
    The only scenarios in which people or which the Federal 
Government could acquire property would be in cases of donation 
or voluntary consent by a property owner. So I think again the 
bill is extremely balanced in terms of its process as far as 
local property owners and their private property rights.
    Again, it is a measure which has been 10 years in gestation 
from the very grassroots local level all the way up through the 
Federal Government's study bill, which again was signed into 
law by President Bush five years ago, and I look forward to any 
questions that the committee may have. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Courtney follows:]

   Statement of The Honorable Joe Courtney, a U.S. Representative in 
Congress from the State of Connecticut, on H.R. 986, The Eightmile Wild 
                          and Scenic River Act

    Chairman Grijalva, Congressman Bishop and Members of the 
Subcommittee, thank you for scheduling this hearing and allowing me to 
testify on behalf of Connecticut's Eightmile River and the decade long 
effort to obtain Wild and Scenic designation by the citizens and 
communities that abut this precious natural resource.
    Later you will hear from Nathan Frohling, the Director of the 
Connecticut River Program, Eightmile River Program at the Nature 
Conservancy. I would just like to spend a few minutes outlining how 
important this legislation is to the region and the entire state of 
Connecticut.
    The entire Connecticut delegation joined me in a bipartisan effort, 
cosponsoring H.R. 986 that would designate the Eightmile River as part 
of the National Wild and Scenic Rivers Program. There is a companion 
bill in the Senate cosponsored by Senators Dodd and Lieberman.
    More than 5 years ago, President Bush signed legislation to 
authorize a study to determine the merits of the Eightmile River's 
request for inclusion in the Program. While that was the beginning of 
the federal legislative movement, local citizens from across the three 
towns of East Haddam, Lyme and Salem had been working diligently for 
years to plan for how best to protect and preserve the River and its 
watershed.
    The Eightmile River is so-named for the distance between the mouth 
of the River in East Haddam to Long Island Sound. The 62-square mile 
watershed is mostly forested area with many rare plant and animal 
species. It represents an intact aquatic ecosystem that is rare in the 
Northeast. The National Park Service determined in its study that the 
Eightmile River met all criteria necessary for Wild and Scenic 
designation. In addition, all three affected towns passed resolutions 
in support of this designation, including the support of the relevant 
land use commissions and boards.
    It was decided early on by local citizens to recognize the entire 
watershed and put together a management plan whereby local, state and 
federal organizations could voluntarily work to address the needs of 
the region. Designation would bring funding and staff support to the 
region in order to preserve the rural character of the region, protect 
and enhance the diverse plant and animal species, provide small grants 
to assist local resource activities, ensure adequate outreach and 
educational opportunities, and maintain water quality.
    Although located in a more rural area of the State, the watershed 
is no less susceptible to unchecked growth and development. At the same 
time, my legislation preserves the rights of landowners. Language 
within the bill specifically prohibits the federal government from 
acquiring land through condemnation, a practice that the National Park 
Service does not follow anyway, but we took that extra step to be 
clear.
    During the study period, a Management Plan was initiated at the 
local level based on scientific recommendations and is being 
implemented at the local level today. Citizens from the three towns 
voted in support of the Management Plan to preserve this unique area.
    As you may know, the National Wild and Scenic Rivers Program will 
be celebrating its 40th anniversary next year. More than 150 Rivers 
have been designated Wild and Scenic across the country, including the 
Farmington River in Connecticut. The Wild and Scenic Rivers is one of 
the best examples of a public private partnership based on locally 
``driven priorities and goals.
    The citizens of East Haddam, Salem and Lyme and organizations like 
the Nature Conservancy have committed many years to this endeavor which 
culminated in votes of support last year. The National Park Service is 
supportive and I urge the Subcommittee to look favorably on H.R. 986, 
the Eightmile Wild and Scenic River Act.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir, and let me now turn to our 
colleague as well, Congressman Hastings.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Bishop and other members of the Subcommittee 
for holding this hearing today. I am here this morning to speak 
in support of H.R. 1285, legislation that I introduced along 
with my colleague from Washington, Dave Reichert, which would 
convey a small portion of the Forest Service land to the King 
and Kittitas Counties Fire District No. 51 which is also known 
as the Snoqualmie Pass Fire and Rescue.
    Under my proposal, this land would be conveyed at no cost 
but it would have to be used by the Fire District specifically 
for the construction of a new fire station or the land will 
revert back to the Forest Service. Snoqualmie Pass Fire and 
Rescue serves a portion of two counties on both sides of the 
Cascade Mountains along Interstate 90. This area is a very 
rural area. There are a small number of full-time residents but 
Interstate 90 is a major transportation corridor between 
eastern and western Washington. It is also a destination for 
winter sports in that area.
    This area is often the scene of major winter snowstorms, 
multi-vehicle accidents, and even avalanches. The Fire District 
is often the first responders to these types of incidents in 
this area. For decades the Fire District has been leasing its 
current site from the Forest Service. They operate out of an 
aging building that was never designed to be a fire station. 
Through their hard work and dedication, they have served their 
community ably despite the building's many shortcomings.
    However, with traffic on the rise and the need for 
emergency services in the area growing, the Fire District 
really needs to move into a real-life fire station. They have 
identified a nearby site that would better serve the needs of 
the residents and visitors alike. This location would provide 
access to the interstate in either direction, reducing response 
time in emergencies.
    The parcel is on Forest Service property immediately 
adjacent to a freeway interchange between a frontage road and 
the interstate itself. Much of this parcel right now is 
currently a gravel lot. I am aware that the Forest Service does 
not normally support conveyances of land free of charge. 
However, I believe an exception should be made in this 
particular circumstance because of the important public service 
provided by the Fire District, the heavy traffic and emergency 
calls created by nonresidents in the area, the distance of 
Snoqualmie Pass from other communities with emergency services, 
and because of the high amount of Federal land ownership in 
this area which severely limits the local tax base.
    In addition, I would note again that under my proposal this 
land will revert back to the Forest Service if for whatever 
reason a new fire station is not built on the property. Passage 
of this legislation would not guarantee that a new station 
would be built. The Fire District would have to work hard to 
gather the financing that they would be able to from state and 
local sources as well as any applicable Federal grants or 
loans. However, the conveyance of this site at no cost would 
help this Fire District hold down the overall cost of the 
project.
    I am pleased that Chris Caviezel, the Chairman of the Fire 
District Commission, is here today from Washington to more 
fully explain the needs that they have, and I look forward to 
working with this committee, the Fire District, and our 
delegation and the Forest Service on this legislation.
    I just may say, Mr. Chairman and members of the 
Subcommittee, I visited this site about three weeks ago, and 
two days before I visited this site they had a 60-car accident 
up there which I will not say is a common occurrence but the 
first responders were this Fire and Rescue, and that happens 
typically when we have a lot of snow like we have had this 
year. So they serve a great service from a rural area on the 
most traveled corridor between eastern and western Washington, 
and I think they need the up-to-date facility. So I thank you 
for your consideration.
    [The prepared statement of Mr. Hastings follows:]

   Statement of The Honorable Doc Hastings, a U.S. Representative in 
          Congress from the State of Washington, on H.R. 1285

Chairman Grijalva:
    I want to thank you and Ranking Member Bishop and other members of 
the Subcommittee for holding this hearing today.
    I am here this morning to speak in support of H.R. 1285, 
legislation that I introduced along with Representative Dave Reichert, 
which would convey a small parcel of Forest Service land to the King 
and Kittitas Counties Fire District #51--also known as Snoqualmie Pass 
Fire and Rescue. Under my proposal, this land would be conveyed at no 
cost, but would have to be used by the Fire District specifically for 
the construction of a new fire station or it would revert back to the 
Forest Service.
    Snoqualmie Pass Fire and Rescue serves a portion of two counties on 
both sides of the Cascade Mountains along Interstate 90. This is a very 
rural area, with a small number of full-time residents, but it is also 
the major transportation corridor for goods and services between 
Eastern and Western Washington, as well as a destination for winter 
recreation. This area is also often the scene of major winter 
snowstorms, multi-vehicle accidents, and even avalanches. The Fire 
District is often the first responder to incidents in the area.
    For decades the Fire District has been leasing its current site 
from the Forest Service. They operate out of an aging building that was 
never designed to be a fire station. Through their hard work and 
dedication, they have served their community ably despite this 
building's many shortcomings. However, with traffic on the rise and the 
need for emergency services in the area growing, the Fire District 
needs to move to a fire station. They have identified a nearby site 
that would better serve the needs of residents and visitors alike. This 
location would provide access to the interstate in either direction, 
reducing response times in emergencies. The parcel is on Forest Service 
property, immediately adjacent to a freeway interchange, between a 
frontage road and the interstate itself. Much of the parcel is 
currently a gravel lot.
    I am aware that the Forest Service does not normally support 
conveyances of land free of charge. However, I believe an exception 
should be made in this particular circumstance because of the important 
public service provided by the Fire District, the heavy traffic and 
emergency calls created by non-residents in the area, the distance of 
Snoqualmie Pass from other communities with emergency services, and 
because of the high amount of federal land ownership in the area, which 
severely limits the local tax base. In addition, I would note again 
that under my proposal, this land would revert back to the Forest 
Service if for whatever reason a new fire station is not built on the 
property.
    Passage of this legislation would not guarantee that a new station 
would be built--the Fire District would have to work hard to gather the 
financing that would be required from state and local sources, as well 
as any applicable federal grants or loans. However, the conveyance of 
this site at no cost would help this Fire District hold down the 
overall cost of this project.
    I am pleased that Chris Caviezel, the Chairman of the Fire District 
Commission, was able to come to Washington, DC today to explain more 
fully the needs they have.
    I look forward to working with this Committee, the Fire District, 
and the Washington House and Senate delegation to find a solution that 
meets the emergency services needs of the area. I thank you again for 
holding today's hearing.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. I have no questions for our 
colleagues, and let me turn to Mr. Bishop for any questions he 
might have.
    Mr. Bishop. Let me just do two quick ones. First of all, 
Mr. McGovern, in your bill it says that the fossils that would 
be recovered would have to be situated in I think it says an 
appropriate entity. Appropriate institution. Approved 
repository. That is the phrase. Approved repository. What is an 
approved repository?
    Mr. McGovern. My understanding is that we are talking about 
a museum or you know what has been I think designated and 
recognized by the Department of the Interior as an approved 
depository. I mean a place that would store these fossils in a 
way that they would be protected and that people would have 
access to them.
    Mr. Bishop. Is that phrased and defined by rule or is it 
defined by statute anywhere?
    Mr. McGovern. I can get back to you on that.
    Mr. Bishop. OK. One of the professional organizations--I am 
sorry. This is three questions. It will be the last one. One of 
the professional organizations suggested that fossils that will 
be collected should be established in an institution within the 
state in which they were found or collected. Would you be 
amenable to such kind of language?
    Mr. McGovern. Well I would be happy to work with you on 
that, and my issue here is that they be protected and not be 
violated, destroyed or you know sold so that people would not 
have access to them.
    Mr. Bishop. I think you can understand my position. There 
are a lot of fossils in my state. Massachusetts does not have 
many, maybe with the exception of the State Legislature.
    Mr. McGovern. We have a few.
    Mr. Bishop. But other than that there are not a whole heck 
of a lot. I appreciate those answers. Mr. Courtney, you talked 
a bit out the area of condemnation. I just want to ask a 
question about that specifically. Your bill refers to Section 
6[e] of the Wild and Scenic River Act that prohibits Federal 
acquisition but actually Section 6[e] does allow condemnation 
under certain circumstances which states basically primarily if 
the zoning ordinances of the local community are tough enough 
then the Secretary of Interior, Secretary of Agriculture may 
not acquire lands but if they are not equal to that kind of 
protection that is required in this Act then there is 
condemnation power. Now is that your understanding of this bill 
as well?
    Mr. Courtney. I am not familiar with that specific 
provision that you just cited but I would note that the bill 
does go on to indicate that the system is limited to 
acquisition by donation or acquisition. So certainly the intent 
of the language is to nix condemnation as an option.
    Mr. Bishop. I appreciate that, and I would suggest that if 
you actually move forward with the markup on this bill you may 
want to look at that because the provisions of Section 6[c] is 
the one that actually does give condemnation power to the 
Federal Government.
    Mr. Courtney. That is a----
    Mr. Bishop. Regardless of what may be further stipulated in 
the bill itself.
    Mr. Courtney. Thank you.
    Mr. Bishop. That is all I have.
    Mr. Grijalva. Thank you, Mr. Bishop, and let me thank the 
members for their testimony. We know that you have other 
business and other responsibilities but if you would--you have 
a question?
    Mr. Inslee. Thank you, Mr. Chair. I appreciate that. Doc, I 
really appreciate your comment about this fire station being of 
value to travelers over the past. It is a real unique challenge 
up there, particularly when it is snowing to respond. So I 
think you all, all of us who travel back and forth have an 
interest in that.
    I just wonder about any alternatives. I noticed in a memo 
there was some apparent alternative discussed at one time about 
a smaller acreage being used. Could you tell us what you know 
about that?
    Mr. Hastings. Yes. That is certainly a negotiable part of 
it but you have been over that pass many times, and there is a 
frontage road, and the area between the interstate and the 
frontage road is about three or four acres. The point is that 
probably all should be conveyed to the Fire District because if 
half of it was conveyed, then the Forest Service would own half 
of land that would essentially be isolated. But I mean that is 
a negotiable part but just the way that is, as I said, it is 
kind of landlocked between the frontage road and the 
interstate.
    Mr. Inslee. Is this by the state highway maintenance shed? 
In that area?
    Mr. Hastings. No. It is up on top of the hill. As you go 
over the summit going from west to east, it would be off the 
second ramp.
    Mr. Inslee. I was up there this weekend. We had our office 
retreat there. So it is a great spot. Is there any potential 
appropriation to fund the Forest Service losses here at all?
    Mr. Hastings. Well the reason we are asking for a free 
conveyance is because--and Chris Caviezel will talk later on--
but I think there is only about 150 or 200 year-round 
residents, and because there is so much Federal land around 
there, there simply is not a tax base by which to tax it. So 
if----
    Mr. Inslee. I was referring to a Federal appropriation. In 
other words, some pool?
    Mr. Hastings. My understanding again--and Chris can speak 
to this--they are going to have to have funds in order to build 
this. That could come from grants. Perhaps there could be some 
money to pay the Forest Service, but you know we are only 
talking at max three or four acres, and in the last 10 years I 
do not know how many thousands of acres has been acquired by 
the Forest Service both in King County and in Kittitas County.
    So the issue should not be--from my point of view at 
least--hung up on the conveyance part but the reason is that 
there simply is not a tax base, and they simply do not have the 
means to go out and do all of you know what you normally do if 
you build a fire station.
    Mr. Inslee. Right. Well we will talk some more about it. 
Thanks a lot.
    Mr. Hastings. You bet.
    Mr. Grijalva. Thank you, Mr. Inslee, and I apologize for 
rushing into closing that part of the panel. Any other 
questions?
    Mr. Bishop. I have one. I did not mean to be rude to 
Representative Hastings. I should ask you a question. Does your 
wife still like the beard?
    Mr. Hastings. Yes, she does, as a matter of fact.
    Mr. Bishop. OK. That is fine.
    Mr. Hastings. Thank you.
    Mr. Grijalva. As I was saying, I know members are busy and 
have other responsibilities, but if they would like to join us 
at the dais for the rest of the panels, they are welcome to do 
so if there is no objection. Gentlemen, thank you. At this 
point let me call the next panel forward.
    [Pause.]
    Mr. Grijalva. Thank you very much, and let me begin with 
Ms. Sue Masica, Chief of Staff, National Park Service.

           STATEMENT OF SUE MASICA, CHIEF OF STAFF, 
                     NATIONAL PARK SERVICE

    Ms. Masica. Good morning, Mr. Chairman. Thank you for the 
opportunity to present the views of the Department of the 
Interior on three of the four bills before you today. My 
comments are most extensive on the paleontological bill so I 
will start with that one, and then I will also summarize our 
position on the other two bills, and then respond to any 
questions you might have.
    H.R. 554, the Paleontological Resources Preservation Act 
and the tools it would provide to the Bureau of Land 
Management, the National Park Service, the Fish and Wildlife 
Service, the Bureau of Reclamation and the U.S. Geological 
Survey, would allow these agencies to properly manage, protect, 
interpret, and care for paleontological resources on Federal 
lands as well as with the Forest Service but those are all 
Interior agencies.
    Fossils are nonrenewable resources that provide information 
about the history of life on earth. The bill would balance the 
public's interest in protecting these types of fossils by 
creating a permit system that provides for the public's 
interest in collecting fossils by allowing for the casual 
collection of certain fossils from Federal lands without a 
permit.
    I have brought with me today some examples of the types of 
resources that would be covered under H.R. 554. The first two 
are resources that would be protected under H.R. 554. We will 
pass these around. This is the skull and lower jaw from an 
oreodont, a sheep sized, cut chewing, plant eating mammal from 
37 million years ago, and this particular fossil was collected 
in 1932 from what is now Badlands National Park. Then there are 
two skeletons of herring-like fish from 50 million years ago 
that were collected in 1956 from the Green River shale in what 
is now Fossil Butte National Monument.
    And then this last example is a--and if you all want to 
take them out of the bag you can. I just do not trust myself to 
not drop them. The last example is a common invertebrate fossil 
that could continue to be casually collected without a permit 
on BLM lands, and this is a small ammonite which is related to 
the modern chambered nautilus, and this was found in what is 
now Yellowstone National Park.
    Currently the Federal agencies primarily use their general 
authority to protect resources to manage paleontological 
resources on Federal land. To address the theft of such 
resources the agencies rely on general statutes that protect 
against theft of government property. These general statutes, 
however, do not adequately take into account the unique nature 
of paleontological resources, their scientific value, and the 
high commercial demand.
    H.R. 554 would not change which paleontological resources 
are protected and which may be casually collected. It would 
provide specific protection for these resources allowing 
agencies to better and more uniformly manage and protect them.
    H.R. 554 would create a uniform permit system that 
emphasizes collaborative inventory and monitoring efforts among 
Federal agencies, scientists, amateur paleontologists and other 
interested parties and the public. It would ensure that these 
fossils are retained as public property and curated in suitable 
repositories for current and future generations of scientists 
and the public to study and enjoy.
    High commercial values of fossils have likely contributed 
to the number of fossil thefts and vandalism on Federal lands. 
Fossils illegally removed from Federal lands are sold here and 
abroad for amounts that in some cases have totaled hundreds of 
thousands of dollars. Even if the fossils are eventually 
recovered--which is rare--the contextual information critical 
for interpreting the fossil is permanently lost and the 
scientific value significantly diminished.
    H.R. 554 would provide additional tools needed to protect 
paleontological resources to potentially deter the large scale 
commercial destruction and exploitation of fossils on Federally 
administered lands, and to preserve these fossils for the 
public's knowledge and enjoyment. In conclusion, the specific 
protection of paleontological resources is long overdue. What 
we can learn about the history of life on earth through the 
examination of paleontological resources on Federal lands is 
invaluable.
    The next bill is H.R. 1100, a bill that would expand the 
boundary of Carl Sandburg Home National Historic Site in North 
Carolina. The Department of the Interior supports enactment of 
this bill but would like to work with the committee to amend 
the bill so make it more consistent with the Park's 2003 
general management plan. The lands proposed to be included in 
the new boundary involve approximately 115 acres that would 
protect the viewshed from Big Glassy Mountain. Estimated land 
or easement acquisition is estimated to cost between $300,000 
and $2.25 million.
    Additionally, land would be authorized for acquisition to 
establish a site for a visitor's center and a parking lot to 
solve traffic and safety problems near the park's northern 
boundary. Funding to accomplish any of these investments would 
be subject to the budget prioritization process of the National 
Park Service.
    The third bill is the H.R. 986 to designate segments of the 
Eightmile River and its tributaries as components of the Wild 
and Scenic River system. The Department does support enactment 
of the legislation. Pursuant to legislation in 2001, the Park 
Service studied the natural and cultural resources of the river 
and developed a management plan to conserve those resources. 
While the study is still under final Departmental review, it 
has preliminarily concluded that the proposed segments in the 
legislation are eligible for Wild and Scenic River designation 
because of the free flowing nature and outstandingly remarkable 
scenic, geologic and fish and wildlife values.
    The study has received public comment and review, and the 
Park Service does not anticipate making any changes in the 
study's recommendations based on the input received. Thank you 
very much.
    [The prepared statements of Ms. Masica follows:]

 Statement of Sue Masica, Chief of Staff, National Park Service, U.S. 
Department of the Interior, on H.R. 554, The Paleontological Resources 
                           Preservation Act.

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 554, the Paleontological 
Resources Preservation Act. The Department supports H.R. 554 and the 
tools it would provide to the Bureau of Land Management, the National 
Park Service, the U.S. Fish and Wildlife Service, the Bureau of 
Reclamation, and the U.S. Geological Survey to properly manage, 
protect, interpret, and care for paleontological resources on federal 
lands. The bill would balance the public's interest in protecting 
fossils by creating a permit system with the public's interest in 
collecting fossils by allowing for the casual collection of certain 
fossils from federal lands without a permit. We appreciate past efforts 
by the Committees and the sponsors of the bills to adopt amendments 
offered by the Department and look forward to continuing to work with 
you as this bill moves forward.
    Fossils are non-renewable resources that provide information about 
the history of life on earth. Federal lands, the majority of which are 
in the drier western part of the United States, contain a rich array of 
plant, invertebrate and vertebrate fossils. Paleontological digs and 
preserved sites on federal lands, paleontological exhibits in museums, 
and informal displays at local nature centers attract visitors from 
across the United States and abroad. Popular books, television shows, 
and movies that feature creatures of our past, such as dinosaurs, 
generate the attention of audiences of all ages. The information 
supporting many of these efforts is derived from the preservation and 
study of paleontological resources.
    Some examples of the types of resources that would be protected 
under H.R. 554 include:
    <bullet>  The skull and lower jaw from an Oreodont, a sheep-sized, 
cud-chewing, plant-eating mammal from 37 million years ago (scientific 
name Miniochoerus gracilis). This was collected in 1932 from what is 
now Badlands National Park. (EXHIBIT 1)
    <bullet>  Two skeletons of herring-like fossil fish from 50 million 
years ago (scientific name Diplomystus spp.). These were collected in 
1956 from the Green River Shale in what is now Fossil Butte National 
Monument. (EXHIBIT 2)
    <bullet>  A small ammonite (related to the modern chambered 
nautilus) from about 80 million years ago (scientific name Scaphites 
sp.). This was collected some time prior to 1876 in what is now 
Yellowstone National Park. (EXHIBIT 3)
    <bullet>  Theropod tracks found in Denali National Park and 
Preserve. Theropods were carnivorous dinosaurs that walked on their 
hind legs and probably weighed about 200 pounds. Field researchers 
located dozens of additional dinosaur footprints in the area, including 
those of hadrosaurs (duck billed dinosaurs), bird tracks, and numerous 
plant fossils. All these organisms lived during the Late Cretaceous 
period (65 to 145 million years ago). (PHOTO 1)
    <bullet>  Five complete t-rex fossils, valued in the millions, 
found at the Charles M. Russell (CMR) National Wildlife Refuge in 
Montana. Although no official count exists, 465 fossil exposures and 
finds also have been reported at the refuge, including more than 10 
Treceratops' fossils that have been verified by refuge staff. (PHOTO 2)
    High commercial values of fossils have likely contributed to the 
number of fossil thefts and vandalism on federal lands. For example, 
721 incidents of fossil theft and vandalism were reported in just 36 
national parks between 1995 and 1998. At just one refuge, it is 
estimated that hundreds of pounds of small items such as shark teeth, 
turtle scutes and Triceratops horns are carried out each year. Fossils 
illegally removed from federal lands are sold here and abroad for 
amounts that, in some cases, have totaled hundreds of thousands of 
dollars. Even if the fossils are eventually recovered, which is rare, 
the contextual information critical for interpreting the fossils is 
permanently lost and the scientific value is significantly diminished.
    Currently, the federal agencies primarily use their general 
authority to protect resources to manage paleontological resources on 
federal land. To address the theft of such resources, federal agencies 
rely on general statutes that protect against theft of government 
property. These general statutes, however, do not adequately take into 
account the unique nature of paleontological resources, their 
scientific value, and the high commercial demand. Many federal fossil 
theft cases are treated as misdemeanors and the associated penalties do 
not reflect the actual value of the fossil. One way that Congress can 
address such challenges is to provide specific statutory protection for 
the items at issue. In 1979, Congress enacted the Archeological 
Resources Protection Act (ARPA) to provide specific protection for 
archeological resources. H.R. 554 recognizes the need to provide 
similar protections for fossils. Below are several examples of the 
relatively few cases in which looters of paleontological resources from 
federal lands were caught and convicted. While these cases ultimately 
identified the offenders and recovered the fossils, they also represent 
the limitations of existing federal protections.
    <bullet>  In 2005, an individual with foreign citizenship plead 
guilty to three counts of theft of government property for stealing 
mammoth ivory and bones from the BLM administered National Petroleum 
Reserve in Alaska. The defendant was sentenced to one year and one day 
imprisonment, three years supervised release, $25,706 in restitution, 
$2,604 criminal fine, and $900 special assessment. Much of the ivory 
was believed to have been exported out of the country. Mammoth tusks in 
the commercial market can command anywhere from $1,000 to $20,000 per 
tusk depending on their condition. For example, four tusks similar in 
quality and condition to those in this case, were valued by an 
appraiser at $68,000. (PHOTO 3)
    <bullet>  In 2001, a group of individuals confessed to excavating 
large pieces of fossils under cover of night on federal lands located 
on the Utah and Colorado border. Evidence could not be recovered in the 
case and the individuals could not be prosecuted under theft of 
government property statutes with only the confession. The scientific 
value of the site was largely destroyed. The defendants had previously 
been convicted under ARPA and indicated that they switched to digging 
fossils because of the lack of specific statutory protection. (PHOTO 4)
    <bullet>  In 2002, a Pennsylvania resident also plead guilty to 
theft of an Allosaurus fossil that was obtained from federally 
administered land. The defendant sold the specimen to a Japanese buyer 
for $400,000. The defendant was sentenced to one to fifteen years in 
prison and paid a fine of $50,000. The case was prosecuted under more 
favorable Utah state law. (PHOTO 5)
    H.R. 554 would provide paleontological resources with specific 
protection. The bill would ensure that valuable sites remain protected 
by providing the Secretary with the authority to withhold information 
on the nature and specific location of paleontological resources. The 
bill would prohibit the excavation, removal, or damage to 
paleontological resources on federal lands as well as the sale, 
purchase, exchange, transport, export, or receipt of paleontological 
resources. Criminal penalties for these acts would be set by 
classification, following fine and imprisonment penalties imposed under 
federal law. Civil penalties would provide for consideration of 
scientific value as well as the cost of response, restoration and 
repair of the resource and the site location. These and other 
provisions in the bill would provide agencies with additional tools 
needed to protect paleontological resources and to potentially deter 
the large scale commercial destruction and exploitation of fossils on 
federally administered lands.
    H.R. 554 would codify recommendations in an interagency report 
submitted to Congress in May 2000, titled ``Fossils on Federal and 
Indian Lands'' (the Interagency Fossil Report). The report found that a 
majority of people who commented viewed fossils on federal lands as 
part of America's heritage, recommended that vertebrate fossils 
continue to be protected as rare and within the ownership of the 
federal government, and supported the involvement of amateurs in the 
science and enjoyment of fossils. The report recommends the 
establishment of a framework for fossil management, analogous to ARPA.
    Under the agencies;' existing regulations and policies, vertebrate 
fossils located on Federal lands may only be collected with a permit 
for scientific and educational purposes. H.R. 554 would codify this 
collection policy and standardize the permitting requirements among the 
various agencies. It would ensure that these fossils are retained as 
public property and curated in suitable repositories for current and 
future generations of scientists and the public to study and enjoy.
    H.R. 554 includes a provision that would authorize the Secretary to 
allow the casual collection, without a permit, of certain 
paleontological resources for non-commercial personal use. For example, 
under this bill, visitors to BLM lands who enjoy paleontology as a 
hobby could continue to collect and keep for their personal use a wide 
variety of common plant and invertebrate fossils. The casual collection 
of such fossils can be an important component of the public's enjoyment 
of some federal lands and is generally consistent with scientific and 
educational goals.
    We have identified a few specific amendments we would like to offer 
at this time. First, we would like to provide clarification language on 
the confidentiality provisions in the bill. Second, we would like to 
offer some additional comments concerning Sections 7, 8, and 9, 
including clarification of the mental state standard, specification of 
a statute of limitations of the bill, the inclusion of civil judicial 
penalties and injunctive relief, as well as a multiple offense 
provision. We would like to work with the Committee, the Department of 
Agriculture, and the Department of Justice on these specific amendments 
as well as some additional technical and clarification amendments.
    The specific protection of paleontological resources is long 
overdue. What we can learn about the history of life on earth through 
the examination of paleontological resources on federal lands is 
invaluable. As the prices of fossils rise, we will be under increasing 
pressure to both protect scientifically significant fossil resources 
and ensure their appropriate availability to the general public. H.R. 
554 would provide a number of critical tools that are needed to 
adequately protect paleontological resources and effectively provide 
for their coordinated and comprehensive management.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other members of the Committee may have.
                                 ______
                                 

 Statement of Sue Masica, Chief of Staff, National Park Service, U.S. 
  Department of the Interior, on H.R. 986, Eightmile Wild and Scenic 
                               River Act

    Mr. Chairman, thank you for the opportunity to appear before your 
committee today to discuss the views of the Department of the Interior 
on H.R. 986, a bill to amend the Wild and Scenic Rivers Act by 
designating segments of the Eightmile River and its tributaries as 
components of the Wild and Scenic Rivers System. The Department 
supports enactment of this legislation.
    H.R. 986 would designate 25.3 miles of the Eightmile River and its 
tributaries as part of the Wild and Scenic Rivers System, administered 
by the Secretary of the Interior. The River would be managed in 
accordance with the Eightmile River Watershed Management Plan with the 
Secretary coordinating with the Eightmile River Coordinating Committee. 
The bill authorizes the Secretary to enter into cooperative agreements 
with the State of Connecticut, the towns of Lyme, East Haddam, and 
Salem, Connecticut, and appropriate local planning and environmental 
organizations.
    The Eightmile River is located in the lower Connecticut River 
watershed in south central Connecticut. Its name comes from the fact 
that the river is located eight miles from the mouth of the Connecticut 
River. Fifteen miles of the Eightmile River and its East Branch through 
the communities of Lyme, East Haddam, and Salem, Connecticut are 
included on the National Park Service's Nationwide Rivers Inventory of 
potential wild and scenic river segments. Both segments are included on 
the inventory for outstanding scenic, geologic, fish and wildlife 
values. In addition to those values, the draft report also documents 
outstandingly remarkable water quality, hydrologic, and cultural 
resource values. Over eighty percent of the Connecticut River watershed 
is still forested, including large tracts of unfragmented hardwood 
forests that are home to a diverse assemblage of plants and animals 
including bobcats, Great Horned Owls, red foxes, and the Cerulean 
Warbler.
    P.L. 107-65, the Eightmile Wild and Scenic River Study Act of 2001, 
authorized a study of the Eightmile River for potential inclusion in 
the Wild and Scenic Rivers System. As a part of the study, the National 
Park Service worked with the communities of Lyme, East Haddam, and 
Salem, Connecticut; the State of Connecticut; The Nature Conservancy; 
and local conservation interests to study the natural and cultural 
resources of the Eightmile River and develop a management plan to 
conserve those special values. The resulting Eightmile River Watershed 
Management Plan (December, 2005) was brought before special town 
meetings in each of the communities and was overwhelmingly supported by 
the public, as was the plan's recommendation to seek Wild and Scenic 
River designation. While the study is still under final Departmental 
review, it has preliminarily concluded that the proposed segments of 
the Eightmile River and its tributaries are eligible for inclusion into 
the National Wild and Scenic Rivers System because of their free-
flowing nature and outstandingly remarkable scenic, geologic, fish and 
wildlife values.
    H.R. 986 would implement the environmentally preferred alternative 
contained in the draft study report, which was released for public 
review and comment in July 2006. This draft report highlights a 
watershed ecosystem that is unique within the State of Connecticut in 
terms of its intact hydrology, water quality and ecosystem health. The 
commitment of local, state and non-governmental partners is also 
exemplary. Having already been through a local town meeting process, 
only one comment was received on the draft report--a letter of support 
from the State Park Director for the State of Connecticut. 
Consequently, while the study and the accompanying Finding of No 
Significant Impact (FONSI) document has not been finalized, the 
National Park Service does not anticipate making any changes in the 
study recommendations based on public comments.
    If H.R. 986 is enacted, the Eightmile River will be administered as 
a partnership wild and scenic river, similar to other recent 
designations in the northeast, including the Farmington River in 
Connecticut and the Musconetcong River in New Jersey. This approach 
emphasizes local and state management solutions, and has proven 
effective as a means of protecting outstandingly remarkable natural, 
cultural and recreational resource values without the need for direct 
federal management or land acquisition.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.
                                 ______
                                 

 Statement of Sue Masica, Chief of Staff, National Park Service, U.S. 
 Department of the Interior, on H.R. 1100, Carl Sandburg Home National 
              Historic Site Boundary Revision Act of 2007

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on H.R. 1100, a bill that would expand the 
boundary of the Carl Sandburg Home National Historic Site (site) in the 
State of North Carolina.
    The Department supports the enactment of this bill, but would like 
to work with the committee to amend the bill to make it more consistent 
with the site's 2003 General Management Plan and other recent boundary 
expansion bills.
    Carl Sandburg Home National Historic Site currently includes 264 
acres of Connemura Farm, an estate purchased by Sandburg in 1945 near 
the pre-Civil War resort town of Flat Rock, North Carolina. Following 
Sandburg's death in 1967, his wife deeded the estate to the Federal 
Government. The National Historic Site was authorized one year later, 
in 1968.
    Sandburg, though perhaps best known for his poetry celebrating the 
lives of common American people, was also a Pulitzer Prize-winning 
biographer of Abraham Lincoln, children's author, and a collector of 
folk music. Fellow author H.L. Mencken declared that Sandburg was 
``indubitably an American in every pulse-beat.''
    H.R. 1100 would authorize the acquisition, from willing sellers, of 
interests in 115 acres of land contiguous to the Carl Sandburg Home 
National Historic Site. The bill would also authorize the use of up to 
5 of these 115 acres for a visitor center and parking facilities.
    Land or easement acquisition is estimated to cost between $300,000 
and $2.25 million. Management of these new lands is estimated to cost 
less than $10,000 annually. These acquired lands could be used for a 
visitor center, estimated to cost about $3 million, but that project, 
as well as the additional costs mentioned in this paragraph, would be 
subject to the budget prioritization process of the NPS. Annual 
operation of the visitor center is expected to cost $345,000 annually. 
The costs of operating a shuttle are not known at this time. No funding 
has yet been identified for any of these costs.
    Acquisition of 110 of the 115 acres proposed in H.R. 1100 would 
allow the site to protect the view that Carl Sandburg and his neighbors 
enjoyed from Big Glassy Mountain. Big Glassy overlook is the highest 
point at Carl Sandburg Home National Historic Site and a popular stop 
for visitors. Sandburg and his family often visited this granite 
outcrop to enjoy its stunning views of surrounding mountains and 
valleys. The majority of the overlook is within the authorized park 
boundary. However, the overlook precipice as well as the view below it, 
lies on private property outside the authorized boundary. Purchasing 
conservation easements or fee simple property rights from willing 
sellers in the viewshed would allow the site to protect the pastoral 
view from Sandburg's estate.
    The acquisition of 5 acres for a visitor center and parking lot 
would help to solve traffic and safety problems along Little River 
Road, the thoroughfare that forms the site's northern boundary and 
provides excellent views of the site's pastures, barns, and Side Lake. 
When the site's existing parking area is full, vehicles enter and exit 
from Little River Road, searching for an open space. Some visitors park 
on the shoulder of Little River Road and walk to the site. The presence 
of park vehicles, pedestrians, and speeding traffic on Little River 
Road is a hazard to all. The local community has expressed concern 
about this issue, but there is no additional parking available in the 
community.
    To solve these problems, the site's 2003 General Management Plan 
proposes acquiring up to 5 acres to build a visitor center and parking 
facility, and offering shuttle service from the facility to the main 
house. In order to protect the historic character of the site, the 
National Park Service would like this facility to be located outside 
the 110 acres that are proposed to protect the views from Big Glassy 
Mountain. An appropriate location would be near, but not necessarily 
contiguous with the park's boundary, perhaps fronting Little River Road 
or Highway 225. H.R. 1100 would need to be amended to allow the 
National Park Service to acquire 5 acres near, but not contiguous to, 
the site's boundary. No funding or operation decisions have been made 
about implementing a shuttle system.
    The National Park Service contacted each landowner that holds an 
interest in the 110 acres proposed for acquisition during the planning 
process for the site's 2003 General Management Plan. All of these 
owners agreed to have their parcels included in the map and proposal to 
expand the park. The Village of Flat Rock, North Carolina supports the 
proposal for a visitor center, parking facility, and shuttle service.
    H.R. 1100 applies boundary expansion criteria from the 1978 
National Parks and Recreation Act. In the 29 years since that Act was 
signed into law, Congressional committees and the National Park Service 
have developed and refined these criteria. We would like to work with 
the subcommittee to amend H.R. 1100 to make it more consistent with 
recent boundary adjustment bills.
    Mr. Chairman, this concludes my prepared testimony. I would be 
pleased to answer any questions you or any members of the subcommittee 
might have.
                                 ______
                                 
    Mr. Grijalva. Mr. Norbury.

    STATEMENT OF FREDERICK NORBURY, ASSOCIATE DEPUTY CHIEF, 
          NATIONAL FOREST SYSTEM, U.S. FOREST SERVICE

    Mr. Norbury. Thank you, Mr. Chairman, for the opportunity 
to present the views of the Department of Agriculture on two 
bills, H.R. 554 and also on H.R. 1285. With your permission, I 
will submit my testimony for the record and summarize my 
testimony.
    Mr. Grijalva. Without objection.
    Mr. Norbury. The Department supports H.R. 554 for many of 
the same reasons that Ms. Masica outlined. Most importantly for 
us it replaces what we regard as a crazy quilt of laws. It 
provides clear and unambiguous authority for us to manage 
paleontological resources. At the moment, we rely on laws like 
the Organic Act, the Archeological Resources Protection Act, 
the Native American Graves Protection Restoration Act, and the 
Hells Canyon National Recreation Act and similar kinds of 
statutes. This would provide unified authority.
    Congress has passed legislation with respect to 
paleontological resources before. In 1990 Congress transferred 
16,000 acres from the Department of Defense to the Forest 
Service, the Picket Wire Canyon area which is administered as 
part of the Comanche National Grassland in southeastern 
Colorado. We believe this has been a great success. It has 
engaged the enthusiasm of many volunteers, and we have provided 
the committee with photos of some of the fruits of that earlier 
legislation.
    What it shows is some fossils that were identified in the 
Picket Wire Canyon in 2004 that are now on their way to the 
Denver Museum of Nature and Science, and those are volunteers 
that you see in those photos who are participating with us. We 
would like the opportunity to work with the committee to 
clarify a couple of points in the bill related to the 
definition of casual collection, the sources of reward money, 
and the ability to protect the confidentiality of locations.
    With respect to the other bill, H.R. 1285, the Department 
of Agriculture does not object to the conveyance. The 
Department does object to conveyance without compensation. We 
do believe there are other ways that we can work with the Fire 
District to achieve the conveyance. We would point to the 
authorities that we have under the Town Site Act, under the 
Weeks Act and the General Land Conveyance Act.
    If the bill moves forward, we would like the opportunity to 
work with the committee to clarify a couple of points. One is 
on the actual legal description of the parcel. The staff tells 
me that that legal description is incorrect, and we also would 
like to explore whether the acreage total is really needed by 
the Department. And with that, I will take any questions that 
the members of the committee may have.
    [The prepared statement of Mr. Norbury follows:]

  Statement of Fred Norbury, Associate Deputy Chief, National Forest 
  Systems, U.S. Forest Service on H.R. 554: Paleontological Resources 
  Preservation Act and H.R. 1285: Snoqualmie Pass Land Conveyance Act

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me today to talk with you about two bills that pertain to the 
U.S. Forest Service, Department of Agriculture: H.R. 554: the 
``Paleontological Resources Preservation Act'' and H.R. 1285: the 
``Snoqualmie Pass Land Conveyance Act''.
H.R. 554: Paleontological Resources Preservation Act
    The Department of Agriculture (USDA) supports enactment of H.R. 
554, the Paleontological Resources Preservation Act. This bill would 
provide the Forest Service with the tools needed to properly manage, 
protect, interpret, and care for fossils, the unique traces of past 
life. We would like to work with the committee in fashioning some minor 
changes to strengthen the bill.
    Paleontological resources are a part of our natural heritage. Large 
or small, fossils fascinate people all over the world. They provide 
important scientific information about ancient life on Earth. They are 
also valued by collectors, some who enjoy casual collecting where 
legally permitted, while others desire rare specimens that can be high 
in commercial value.
    These resources are also fragile and rare. Their loss has been 
documented in surveys such as one on the Oglala National Grassland in 
Nebraska, which found that one-third of all fossil sites inventoried 
between 1991 and 1996 had been vandalized. In 1996, a case involving 
fossil theft on National Forest System lands in California, which was 
prosecuted under civil authority by the Department of Justice and 
ultimately settled out of court, pointed out the need for more specific 
statutes and regulations related to theft of federal fossils.
    The Forest Service currently manages paleontological resources 
under a patchwork of laws and policy that do not specifically address 
their unique characteristics not adequately provide for their 
management, protection, and availability for scientific research and 
discovery. In May of 2000, the Secretary of the Interior, in 
consultation with other federal agencies, including the Forest Service, 
completed a report at the request of Congress titled ``Fossils on 
Federal and Indian Lands.'' The report found that a coordinated 
approach to the appropriate protection and management of fossil 
resources would greatly enhance federal stewardship of these resources. 
The report contained seven principles and associated recommendations 
that were subsequently addressed by several bills introduced into the 
107th, 108th, and 109th Congresses. The USDA has provided support, and 
has worked with committees to strengthen some provisions. In the 110th 
Congress, H.R. 554 and its companion legislation, S. 320, would provide 
the legal framework to manage and protect these important resources on 
National Forest System and other Federal lands. The bills, if enacted, 
would also encourage scientific discovery, public education, and allow, 
to the extent authorized, for the collection of common invertebrate and 
plant fossils for non-commercial personal use.
    Section 3 of H.R. 554 would direct the Secretary of the Interior 
and the Secretary of Agriculture to manage and protect paleontological 
resources on certain Federal lands, as defined in the bill, using 
scientific principles and expertise. The bill recognizes the non-
renewable nature of fossils and would define a paleontological resource 
as any fossilized remains, traces, or imprints of organisms, preserved 
in or on the Earth's crust, that are of paleontological interest and 
that provide information about the history of life on earth. The 
definition of paleontological resources does not include materials 
associated with archeological resources under the Archaeological 
Resources Protection Act of 1979 (16 U.S.C. 470bb(1)), or any cultural 
item under the Native American Graves Protection and Repatriation Act 
(25 U.S.C. 3001).
    Section 5 of the bill would establish permitting requirements, with 
uniform criteria for collecting fossils on certain Federal lands, 
including National Forest System lands. Section 5(a)(2) would also 
allow the Secretaries to authorize on certain Federal lands the casual 
collection of a reasonable amount of insignificant common invertebrate 
and plant fossils for non-commercial personal use without a permit.
    Sections 7 and 8 of the bill would provide uniform criminal and 
civil penalties to be used for theft and damage of paleontological 
resources from Federal lands, as defined in the bill. This would be an 
important provision for the Forest Service and other agencies because 
it would provide the same specific statutory authority under which to 
issue a citation for theft or damage of paleontological resources.
    Section 9(a) of the bill also would authorize the Secretaries to 
provide payment from proceeds arising from civil and criminal penalties 
established under the bill to those who furnish information that leads 
to the finding of a civil violation or to a criminal conviction for 
which the penalties are assessed. This reward provision could help 
further the protection of the resource.
    Section 10 of the bill would require information concerning the 
nature and specific location of a paleontological resource that 
requires a permit for its collection to be exempt from disclosure under 
the Freedom of Information Act and any other law unless certain 
criteria were met. The confidentiality provision would be an important 
tool to manage information regarding resources that could be vulnerable 
to theft.
    We have identified a few areas in the bill that could be 
strengthened with minor changes. In addition to the ones suggested by 
the Department of the Interior, these include clarifying the definition 
of ``casual collecting'' in section 2, providing for the use of 
appropriated funds for rewards in section 9, and clarifying the 
confidentiality provision in section 10. We would like to work with the 
Committee and the Departments of the Interior and Justice to provide 
additional comments about the bill's law enforcement provisions. If the 
bill is enacted, the Forest Service would work with Department of the 
Interior agencies to develop implementing regulations, including the 
opportunity for public comment.
    Important as the enforcement provisions are, the USDA is mindful of 
the tremendous interest the public has in learning about fossils and 
participating in their stewardship. H.R. 554 calls for developing plans 
to inventory, monitor, and study fossil resources, involving non-
Federal partners, the scientific community, and the general public.
    This kind of work is exemplified by investigations being carried 
out in the Picket Wire Canyonlands managed by the U.S. Forest Service 
on the Comanche National Grassland in southeastern Colorado. In 1990, 
Congress passed Public Law 101-510, transferring 16,700 acres of rugged 
canyon lands from the Department of Defense to the Department of 
Agriculture, with legislative language calling for inventory, 
protection, and conservation of fossil resources within the canyon. In 
partnership with the scientific community and volunteers, one-third of 
the canyon has been explored, and an abundance of significant fossil 
resources has been located.
    The ``Last Chance'' Dinosaur Quarry, discovered in the canyon by a 
volunteer enthusiast in 2004, is one of the most important dinosaur 
quarries in Colorado. It contains parts of skeletons from at least 
three dinosaurs, which will be curated at the Denver Museum of Nature 
and Science. Volunteers enrolled in the Forest Service ``Passport in 
Time'' program assist Forest Service paleontologists in the excavation 
and preservation of these amazing remains. Information from the 
excavations will inform both the public and the scientific community. 
The establishment of a comprehensive legal framework that encourages 
the integration of public and private resources, skills, and enthusiasm 
would facilitate undertaking more of these projects.
    Mr. Chairman and members of the Committee, paleontological 
resources are remarkable evidence of the Earth's history. The 
Paleontological Resources Preservation Act would provide the Forest 
Service and other Federal agencies with the framework needed for their 
stewardship and protection while providing opportunities for scientific 
research, education, and recreation. By passing this bill, Congress 
would make the important statement that the American people will 
benefit from uniform Federal law and policies governing the discovery, 
research, interpretation, and stewardship of fragile and rare 
paleontological resources.
H.R. 1285: Snoqualmie Pass Land Conveyance Act
    This bill would require the Secretary of Agriculture to convey, 
without consideration, approximately three acres of land on the 
Wenatchee National Forest to the King and Kittitas Counties Fire 
District #51 for use as a site for a new Snoqualmie Pass fire and 
rescue station. The bill includes a clause for reversion of the 
property to the United States if it is determined, after a hearing, 
that the land is not being used for the purpose stated in the bill.
    The Department does not support the bill in its present form. We do 
not object to conveying the lands included in H.R. 1285, but we oppose 
this bill because it does not require market value compensation. The 
taxpayers of the United States should receive market value for the 
sale, exchange, or use of their National Forest System lands.
    We also believe that this legislation is unnecessary because the 
Forest Service can meet the bill's objectives through current statutes 
that allow the Forest Service to convey this parcel to the Fire 
District for land or cash value. For example, under the Townsite Act, 
the Secretary of Agriculture may convey, for market value, up to 640 
acres of land to established communities located adjacent to National 
Forests. Under the General Exchange Act and Weeks Act, the Secretary of 
Agriculture can exchange National Forest System lands with non-Federal 
entities, including State and Local governments. These laws require the 
Secretary of Agriculture to obtain market value for exchanges or sales 
of National Forest lands.
    The fire district currently has a fire station located on Forest 
Service lands under special use permit, several miles away from the 
property covered by this legislation. We understand the fire district's 
need for an updated facility, and the desired property is situated at 
an interchange on Interstate 90, which would improve response times to 
the many emergency situations that occur in that area. However, there 
is a question as to whether three acres is excessive to their actual 
physical needs for the facility. In addition, the legal description 
used in the bill is incorrect and a land survey will be needed to 
properly locate and describe the property. Under the Townsite Act and 
exchange authorities, the fire station would be required or expected to 
pay administrative costs of making the conveyance, such as the survey.
    Although we do not support the bill as written, we are eager to 
continue discussions with the bill's sponsors, the fire district, and 
the committee, in the hopes of assisting the District in achieving its 
desire to improve its abilities to provide necessary fire and rescue 
services.
    I am happy to answer any questions you may have on my testimony 
today.
                                 ______
                                 
    Mr. Grijalva. Thank you, and I have a question for Ms. 
Masica. My colleague, Mr. Bishop, raised the concern regarding 
condemnation authority in the bill 986 I am referring to, and 
as I understand it, the Wild and Scenic River Act says that if 
legal zoning is tough enough, local zoning is tough enough 
there is no condemnation authority. Am I correct in that?
    Ms. Masica. I do not have the copy of the legislation right 
in front of me, Mr. Chairman.
    Mr. Grijalva. My question is in reference to the Wild and 
Scenic Rivers Act. That if local zoning laws are tough enough 
then there is no condemnation authority.
    Ms. Masica. Mr. Chairman, that is my understanding, and 
that the Federal Government would not be stepping in to what 
are the local zoning decisions that are already in place.
    Mr. Grijalva. OK. Then let me follow-up with another 
question. Then lines I think 16 through 18 on page 7 of H.R. 
986 says that local zoning regulations are deemed to be tough 
enough. Is that a correct interpretation?
    Ms. Masica. Mr. Chairman, I would have to get back with 
you, Mr. Chairman. I do not know.
    Mr. Grijalva. OK. The other part of the question when you 
get back to the committee on would be if it is deemed to be 
tough enough, then there is no condemnation authority within 
the legislation, correct?
    Ms. Masica. That is my understanding.
    Mr. Grijalva. I look forward to those responses. Let me 
just follow-up on 554. How are archeological and cultural 
resources found on public lands managed? That is part of the 
question. And should fossil resources be managed in a similar 
way?
    Ms. Masica. I believe that is absolutely the intent of the 
legislation. Our desire to have that happen. I think the 
experience of the agencies of the Department of the Interior 
has been that the archeological protection authorities have 
made it possible for us to do a good job of both protecting and 
most importantly educating the public about the significance of 
those resources, and we would like to see similar protection 
provided for paleo resources.
    Mr. Grijalva. Thank you. I guess a very general question, 
if I may, resources that we are talking about in this 
legislation, resources found on public land belong to all 
Americans, and so part of what I think the legislation tries to 
address is that it is unfair to allow individuals to take these 
resources out and sell them for a profit. Do you agree with 
that point of view or do you have a comment on that point of 
view?
    Ms. Masica. I believe that I concur that that is the 
intent, and our desire to as much as possible to have the 
resources remain available for all Americans to benefit from 
and to be educated by.
    Mr. Grijalva. Thank you. Mr. Norbury, you mentioned working 
with the committee on the same legislation on the casual 
collection part of that legislation. Could you just expand on 
that comment that you made?
    Mr. Norbury. One of our concerns, Mr. Chairman, is the 
phrase of non powered hand tools and what that means. People 
can disturb a lot of surface with tools that do not involve 
motors, and we really want to make it clear that the casual 
collection is intended to be that collection that can be 
achieved with minimal surface disturbance, and we would want to 
have some clear definition of what kinds of tools can be 
employed in that casual collection.
    Mr. Grijalva. OK. I do not have any more questions at this 
point. Mr. Bishop.
    Mr. Bishop. I have a couple of them. Let me start with 554 
with you if I could. Ms. Masica, in the 1987 Appropriations Act 
the Park Service was mandated to come up with rules and 
regulations based on the NAS report on paleontological 
collecting. Why was that never implemented? Why did your agency 
not do it?
    Ms. Masica. Mr. Chairman, I am not familiar with that. I 
will have to get back to you for the record. I do not know.
    Mr. Bishop. All right. Then let us talk about 1100 for just 
a second. You said the cost of acquisition of the land would be 
anywhere from $300,000 to $2.5 million.
    Ms. Masica. That is correct.
    Mr. Bishop. Can you come up with a little bit closer of a 
ballpark figure then?
    Ms. Masica. I think part of that, Mr. Chairman, depends on 
the type of acquisition, whether we do fee simple or easement, 
and that affects then the price as well as then how much 
because it is multiple parcels. It is not just one parcel.
    Mr. Bishop. If they need parking so that the situation you 
are talking about down there is similar to what I experience at 
Mt. Vernon most of the time where people are walking along the 
street and parking on the streets, where would the most likely 
place of that parking be?
    Ms. Masica. My understanding is the issues are on the 
northern boundary of the Park. I do not think a specific parcel 
was identified in the general management plan for where that 
would be.
    Mr. Bishop. That is probably true. You said also in your 
testimony that the general management plan is not consistent 
with the bill as written. What specifically is not consistent 
with the bill with the general management plan?
    Ms. Masica. Mr. Bishop, my understanding is that the 
general management plan had a more specific site in mind where 
a visitor's center would be located, and that that is a 
different circumstance than where we are at right now. That the 
GMP had a specific site in mind, and I have got it backwards. 
Let me get back to you with that, Mr. Chairman. I do not have 
the details of the GMP right in front of me.
    Mr. Bishop. I have no other questions.
    Mr. Grijalva. Thank you. Let me turn to Mr. Inslee, if you 
might have any questions.
    Mr. Inslee. Thank you. Mr. Norbury, is there any general 
idea what a compensation would be for the Snoqualmie property? 
Has that been discussed or considered?
    Mr. Norbury. Mr. Inslee, I do not have any information on 
what that particular parcel might be worth in terms of market 
value. The averages for the acquisitions by the Forest Service 
are not useful here. It is located right next to an interstate, 
right next to an interchange, and as we all know real estate 
values are very sensitive to location.
    Mr. Inslee. So have you discussed with the folks there at 
all any potential Federal pools of money that might be 
available to compensate the Forest Service?
    Mr. Norbury. I believe that local staff have searched for 
pools of Federal money that might be available but have not 
been able to identify any so far.
    Mr. Inslee. Thank you.
    Mr. Grijalva. Thank you. Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman, and thank you for 
the courtesy extended me to be up here. I appreciate that very 
much. Mr. Norbury, if this land were conveyed to the Fire 
District as outlined, this action would still be subject to the 
usual environmental and regulatory procedures, is that correct?
    Mr. Norbury. My understanding that is correct, and would 
include NEPA into ESA and the State Historic Preservation Act 
and all similar laws.
    Mr. Hastings. Yes. So the only thing that we are really 
asking differently is to have a conveyance without cost. 
Everything else would be in place.
    Mr. Norbury. I believe that is correct.
    Mr. Hastings. OK. You mentioned that one of the concerns 
you had is there should be some compensation, and my colleague 
from Washington you know trying to explore other areas. Just I 
think it is important and I alluded to this just briefly in my 
comments when I was where you were, and that is in the last 10 
years in King County and Kittitas County alone the Forest 
Service has acquired about 20,000 acres.
    We are only talking about a small, I mean it is not like 
the Forest Service is being deprived of this, and I think this 
is an extraordinary circumstance given the rural nature and the 
fact that it is surrounded by Federal lands. So I just wanted 
to make that point. I am not asking for a response. It is just 
that the Forest Service has acquired in the last 10 years quite 
a bit of land. I just wonder in that vein though in the next 
fiscal year or so is the Forest Service contemplating acquiring 
any more land in King or Kittitas Counties?
    Mr. Norbury. Mr. Hastings, I do not have that information 
as to what the proposed acquisitions for the next year are in 
King and Kittitas Counties.
    Mr. Hastings. OK. Well once again that is all I have, Mr. 
Chairman, and once again thank you for the courtesies that you 
extended me to be here. Thank you.
    Mr. Grijalva. Thank you, sir. Let me turn to our colleague, 
Ms. Herseth Sandlin.
    Ms. Herseth. Thank you, Chairman Grijalva, and thank you 
both for your testimony today. I know both of you in your oral 
and written testimony document some surveys or estimates on the 
loss or reports of fossil theft and vandalism, and you point 
out a couple of examples, whether it is the Ogallala National 
Grassland in Nebraska, a particular refuge, Ms. Masica, that 
you note. Could either of you provide is there a reasonable 
estimate on how many paleontological specimens are removed from 
Federal lands each year? I mean is it roughly a third as you 
estimate in some cases or is there any way that you can provide 
more specific detail from the surveys that have been done to 
give a reasonable estimate?
    Ms. Masica. I am told by our experts here from the BLM that 
their estimate is about a third.
    Ms. Herseth. Is that consistent with the estimates for 
the----
    Mr. Norbury. Unfortunately we do not have any comparable 
estimates for the national forest system as a whole. We have 
sites like the one mentioned in the testimony where we have 
found that a third of the sites have been disturbed by 
unauthorized collection but we do not have a system-wide 
survey.
    Ms. Herseth. And then, Ms. Masica, if the surveys that the 
National Park Service has done or what your estimate is if one-
third of those specimens are removed, do you have any estimates 
on how many pass into private ownership and how many remain in 
the public domain?
    Ms. Masica. I am told that we do not have that breakdown. I 
can follow up and check and see if we can get it for the 
record.
    Ms. Herseth. I appreciate that. And then one final question 
for both of you. I noticed that both of your agencies were 
involved in the 2000 report that demonstrated significant 
collaboration among different agencies, the one entitled 
Fossils on Federal and Indian Land. It also included lengthy 
public comment that I know is part of the report but could 
either of you comment on the scope and the tone of the comments 
the Administration received when it undertook this effort? Was 
it fairly balanced as it relates to some of the testimony we 
are getting today as it relates to H.R. 554 or do either of you 
recall were either of you part of reviewing the public comment 
as made part of that report in 2000?
    Mr. Norbury. My knowledge of the comments is limited to the 
information that appears in the report, and the comments are 
listed at least summarized at the back of that report. When I 
read the report and looked at those comments, my impression was 
the majority of the comments were supportive of the intent of 
the report. There is significant concern and concerns that can 
be addressed in the regulations that would implement this 
legislation.
    Ms. Herseth. Thank you.
    Ms. Masica. And I would concur with that. I think it was a 
balanced input from the various sides who will be also heard 
later this morning.
    Ms. Herseth. Thank you. Thank you, Chairman.
    Mr. Grijalva. Thank you. Mr. Sali?
    Mr. Sali. Thank you, Mr. Chairman. I guess for either of 
you I am sort of concerned about the priority of expending 
Federal resources you know for patrolling what will be a 
significant amount of land versus you know for example issues 
with meth production.
    Ninety percent of the meth problem in the State of Idaho is 
imported across the southern border of the United States, as a 
part of illegal drug activity that crosses Federal land and 
whatnot. You are here to express some opinion I guess about 
that priority for Federal policy. Is dealing with 
paleontological finds is that more important than dealing with 
the meth problem in the State of Idaho?
    Ms. Masica. Mr. Chairman, Mr. Congressman I am sorry, I 
think what the legislation provides is some authorities to the 
agency. I do not believe that we anticipate a significant 
increase in our presence and a significant redeployment of 
resources or increase in resources made available to the 
agencies to carry out the purposes of the Act. I think that it 
becomes a juggling of priorities within our budgets as we deal 
with formulating those requests every year.
    Mr. Sali. You would agree though that somehow that priority 
is going to have to be made, and you are asking us to consider 
this legislation that is before us and you know how it will 
impact Federal agencies. Are you here advising us that this 
should take a priority over for example dealing with the meth 
problem and the other issues at the Federal agency is dealing 
with?
    Ms. Masica. I do not think that that is my position to 
dictate to you all what that priority would be. I think that we 
have in any given budget year we are dealing with many 
competing priorities, and we do the best we can. I think that 
our support for this if we anticipate it there would be a 
significant huge cost burden on the agencies we would be 
talking about that but that is not our intent that there would 
be a significant expected cost increase for the agencies to 
carry out this legislation.
    Mr. Sali. Well let me come at this in a little different 
direction. We have got some pretty serious criminal penalties 
and provisions in this legislation. If the idea is you know who 
owns the fossil and whether you can have them or not in private 
possession if you found them on Federal ground, why could we 
not just have a civil system so that you know we would declare 
that these belong to the Federal Government at some level, and 
if you happen to have one of those then we will come get that 
back from you as opposed to having criminal prosecution and all 
the agents that it takes to go out and find when the law has 
been violated from a criminal standpoint, all of the 
constitutional issues that you come up with there, and finally 
in court having to deal with that burden of proving things 
beyond a reasonable doubt.
    If the issue is just to get the fossils in possession of 
the Federal Government, why could we not just do that with a 
civil process?
    Ms. Masica. I will need to respond for the record for that. 
I am not well versed in the nuances of that debate inside the 
agencies. There are I think an attempt to protect the resources 
and keep damages from happening, and that is what we are trying 
to accomplish with this.
    Mr. Norbury. If I could comment, the value of the fossils 
is not only in the fossils themselves but in the context in 
which they are found, and once they are removed from that 
context and removed from the Federal land, much of the 
scientific value of the fossil has been lost. So the bill 
correctly identifies both the paleontological value of the 
fossils in addition to the commercial value of the fossils and 
also speaks to the impact on the site from fossil collection.
    So it is larger from the Forest Service point of view. It 
is larger than just getting the fossils back. It is protecting 
the scientific information that is yielded by the fossils and 
their context.
    Mr. Sali. And you would be advocating to this committee 
that that ought to be a higher priority, that scientific value, 
than for example the meth problem that we have in the State of 
Idaho?
    Mr. Norbury. The Forest Service does not read this bill as 
affecting the priorities for our law enforcement personnel at 
all in terms of how they would spend their time. What this bill 
does is make our law enforcement activities more effective 
because it creates a better basis for charging people with the 
violations that our law enforcement people already observe.
    Mr. Sali. So you are suggesting there will not be any 
fiscal impact for passing this law?
    Mr. Norbury. Our read the bill as it is written does not 
require the expenditure of funds, does not change the 
priorities for our law enforcement people. What it does is 
creates a clearer message to the public about what is legal and 
what is not legal. It provides a clearer legal basis for making 
citations. It provides a clearer legal basis for bringing 
prosecutions for people who violate the law.
    Mr. Sali. So there will be a fiscal impact if we pass this 
legislation? It will increase the need for the agencies.
    Mr. Norbury. I am unable to identify a fiscal impact since 
we are already charged legally with protecting all the 
resources that are present on the National Forest. We already 
have law enforcement people who are out there doing 
investigations and doing patrolling, trying to protect those 
resources, who are already bringing cases and attempting to 
bring cases for violation of the laws.
    So it is difficult for me to see how there would be a 
fiscal impact. It is possible for me to see how we would get 
more benefit from the money that we are already spending on law 
enforcement activities on the National Forest because we would 
have more investigations that would actually yield successful 
prosecutions.
    Mr. Sali. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. There are no follow-up questions? 
Let me thank the panel. I appreciate it very much. The 
committee members can and might submit questions in writing to 
you. We appreciate a speedy turnaround. So thank you very much. 
Appreciate it. And let me call the next panel forward please.
    [Pause.]
    Mr. Grijalva. Let me welcome the panel. Appreciate very 
much your testimony today. Let me begin with Mr. Peter Larson 
regarding H.R. 554, Black Hills Institute of Geological 
Research. Mr. Larson.

    STATEMENT OF PETER L. LARSON, BLACK HILLS INSTITUTE OF 
                      GEOLOGICAL RESEARCH

    Mr. Larson. Good morning. Thank you, Mr. Chairman and 
members of the Subcommittee. I am Peter Larson, research and 
field paleontologist and President of Black Hills Institute of 
Geological Research. I have been a fossil enthusiast since I 
was four, and started my company while still an undergraduate. 
I have published 56 scientific papers and two books, and have 
four papers and a third book in press. My business, a large 
private fossil company, has provided internships to graduate 
students from here and abroad, identified new species, and 
participated in educational television programming.
    We have provided fossil exhibits to nearly every major 
natural history museum here and abroad, including the U.S. 
National Museum of Natural History. My credentials include 
participation in the largest paleontological legal case in 
American history. You may have heard of a T. rex named Sue. I 
mention this case now to acknowledge that being the target of a 
Federal case stimulates extensive research. My lawyer and I are 
now experts in many of the issues discussed here today.
    However, my expertise in these issues began well before 
Sue. Twenty years ago I sat on the committee of the National 
Academy of Sciences that provided recommendations to land 
management agencies regarding the collection and stewardship of 
fossils on public lands. The same questions raised by that 
examining body are discussed here today. It is time to resolve 
them.
    This committee has the same goals as did the NAS committee, 
to balance the protection of a natural resource with its 
productive use, and to enlist the support and positive 
participation of people with enthusiasm and knowledge who can 
act as stewards. Regarding both of these goals, H.R. 554 
demonstrates a difference of opinion from that expressed by the 
NAS committee.
    In 1987, the report issued by the NAS began and I quote, 
``In general the science of paleontology is best served by 
unimpeded access to fossils and fossil bearing rocks in the 
field.'' My experience supports their conclusions and points 
out one crucial difference between H.R. 554 and the NAS 
recommendations. One prioritizes law enforcement while the 
other prioritizes fossils and the people who collect them.
    We all ask how do we rescue fossils in danger of 
destructions from the elements and protect them from vandals? 
How do we protect fossils adequately without stifling 
scientific curiosity? The Bureau of Land Management alone 
oversees half a billion acres of public land, and that does not 
include land overseen by the Forest Service and other agencies. 
There are literally millions of fossils being exposed and lost 
to weathering each year. The overwhelming majority of these 
fossils are not rare and have little scientific value.
    They can, however, serve other purposes. For example, I 
personally have witnessed the transformation of many bored 
children who saw a fossil and then opened a door to learning. 
When the focus is on preserving fossils, which means collecting 
them rather than restricting their collections, the fossils 
themselves become educational tools, part of the scientific 
mystery and sources of inspiration.
    The vast majority of people who collect fossils are a 
resource. They are not a threat. I acknowledge that not every 
enthusiast holds a degree in the field of paleontology and 
damage can occur to fossil specimens during the learning 
process but remember each Ph.D. must go through that same 
process. Therefore, our focus should be on educating the people 
in the field so their interaction with the fossil resource is 
positive. Our focus should be on discerning the differences 
between the extremely rare special fossils that should be in 
museums and the common thoroughly studied fossils that can live 
in a child's pocket or on a mantel and still promote the 
science of paleontology.
    Interestingly, most of the major fossil discoveries have 
been made by amateurs. Natural history museums and academia 
have always depended upon such finds. Of the 40 plus T. rex 
specimens found to date, only two were found by academic 
paleontologists. All six archaeopteryx, the crucial link 
between birds and dinosaurs, were found by amateurs and sold to 
museums. If Germany had had a law like H.R. 554, not one of the 
archaeopteryx would have been found.
    Museums require paleontological materials both on display 
and in research drawers so that they can educate and enlighten 
visitors. Many entire exhibit halls are comprised of fossils 
that have been bought from companies like mine, which collect 
and prepare fossils brought to our attention by ranchers and 
amateurs.
    With a successful paradigm shift, one that acknowledges 
that amateur, commercial and academic paleontologists are 
interdependent we can gather together to not only assist 
science but also develop a collection program to protect 
fossils from natural destructive forces and from genuine 
criminals. An army of amateur and commercial collectors can 
help do both.
    H.R. 554 assumes that only a certain class of 
paleontologists should be allowed to collect fossils. This 
posture does more than restrict land access. It asks of 
government employees in that special class an impossible task, 
and one not in the best interest of science. They simply can 
neither collect all the important fossils nor protect them in 
the field. A fossil left in the field will be destroyed period 
either by the forces of weathering, wildlife, developers or an 
unwitting hiker. We cannot say all the fossils. However, there 
is an army of people who will help in this situation if you 
just ask.
    To quote Thomas Jefferson, ``I know no safe depository of 
the ultimate powers of the society but the people themselves, 
and if we think them not enlightened enough to exercise their 
control with a wholesome discretion, the remedy is not to take 
it from them but to inform their discretion.'' I thank you for 
inviting me to testify, and I appreciate the opportunity to 
share the NAS committee's views, a view that I believe is 
rational and balanced, and if incorporated into this 
legislation could help save the science of paleontology.
    [The prepared statement of Mr. Larson follows:]

   Statement of Peter L. Larson, Black Hills Institute of Geological 
   Research, Inc., Hill City, SD (President); Black Hills Museum of 
 Natural History (Member: Board of Directors); Association of Applied 
Paleontological Sciences (Member: Board of Directors); on H.R. 554: The 
               Paleontological Resources Preservation Act

    I am a degreed geologist, experienced vertebrate paleontologist and 
current member of the Society of Vertebrate Paleontology, the 
Paleontological Society, and the Mid-American Paleontological Society. 
My expertise has been requested for numerous educational, academic and 
museum programs, public lectures, and governmental committees. My 
opinions about the subjects addressed by H.R. 554 are certainly strong, 
but they also reflect decades of study and collaboration with a host of 
experts in the field who represent the scientific, amateur, government 
and commercial communities.
    You might be surprised and pleased to note that in general, the 
prevailing views of all of these groups coalesce in shared needs, 
practices, and opinions. This trend was first documented in essential 
and foundational conclusions reached by the Committee on Guidelines for 
Paleontological Collecting, which was convened by the Board on Earth 
Sciences of the National Research Council, National Academy of Sciences 
(NAS) from 1984 to 1987. I was appointed as a member of that committee, 
along with ten other paleontologists and geologists, plus two 
attorneys. We all worked closely with liaison members from various 
Federal land management agencies including the Bureau of Land 
Management, the National Park Service, and the U.S. Geological Survey, 
among others.
    The committee reviewed several categories of interest relating to 
the subjects of H.R. 554, which will be discussed in this document. 
However, first allow me to summarize the overall findings and 
recommendations, as these might serve to illustrate the breadth of the 
committee's understanding of the issues.
NAS COMMITTEE ON GUIDELINES FOR PALEONTOLOGICAL COLLECTING
    The committee's charge was to answer the question: ``How should 
government protect and preserve fossils of extinct plants and animals 
while at the same time allowing other legitimate uses of the land and 
encouraging the scientific study of fossils?'' (NAS Report, 1987, p. 1)
    When the committee issued its report, it adopted the following 
statement as the basis for its 10 specific recommendations to federal 
agencies in answer to that charge:
        ``In general, the science of paleontology is best served by 
        unimpeded access to fossils and fossil-bearing rocks in the 
        field. Paleontology's need for unimpeded access is in sharp 
        contrast to the prevailing situation in archeology. In this 
        report, ``access'' is defined to include all collecting and 
        removal of fossiliferous material for study and preservation. 
        Generally, no scientific purpose is served by special systems 
        of notification before collecting and reporting after 
        collecting because these functions are performed well by 
        existing mechanisms of scientific communication. From a 
        scientific viewpoint, the role of the land manager should be to 
        facilitate exploration for and collection of, paleontological 
        materials.'' (NAS Report, 1987, p. 2)
    The NAS Committee's 10 recommendations are as follows (italics as 
they appear in original document):
    Recommendation #1: A uniform national policy on paleontological 
collecting should be adopted by all federal agencies. Existing 
statutory authority is adequate for implementation of such a policy.
    Recommendation #2: Each state should adopt a uniform 
paleontological policy for state-owned lands.
    Recommendation #3: All public lands should be open to fossil 
collecting for scientific purposes. Except in cases involving quarrying 
or commercial collecting, collecting fossils on public lands should not 
be subject to permit requirements or other regulations:
    The Committee recommends the following procedures and definitions:
    Reconnaissance Collecting: Requires no advance notice to any public 
lands manager; no permit is required. Such collecting is a day or less 
at any one locality and involves surface collecting by hand tools.
    Extended Stay Collecting: Requires written advance notice to the 
land manager so that applicable rules can be known and followed; no 
permit is required. Consists of surface collecting for more than one 
day by using hand tools.
    Quarrying for Fossils: For this report, a paleontological quarry is 
defined as an excavation of greater then two (2) cubic yards initiated 
for the extraction of fossils. Collecting fossils by quarrying should 
be controlled by a permit procedure. Permit forms should be simple.
    Recommendation #4: Fossils of scientific significance should be 
deposited in institutions where there are established research and 
educational programs in paleontology. These repositories will ensure 
that specimens are accessioned, maintained, and remain available for 
study and education. There is no justification for requiring that 
fossils be deposited in an institution in the same state in which they 
were found; such requirements discourage paleontological research.
    Recommendation #5: Commercial collecting of fossils from pubic 
lands should be regulated to minimize the risk of losing fossils and 
data of importance to paleontology. Permit applications must be subject 
to review by paleontologists qualified to assess the projects' 
potential impact on related research programs. Applications must 
receive the endorsement of a paleontologist who is willing to supply 
guidance to the commercial operation. Specimens deemed to be of special 
scientific interest must be deposited in a public institution, such as 
a museum, college, or university.
    Past experience has clearly shown that commercial collecting has 
both benefited and hurt paleontological research. Many unique and 
scientifically important fossils have been discovered and made 
available to science by commercial collectors. Conversely, there are 
documented instances of important fossils disappearing into private 
hands with no opportunity for scientific study. The Committee believes 
that a permitting procedure for commercial collecting would ensure 
access to specimens by scientific community and commercial interests.
    Recommendation #6: Private landowners should follow the guideline 
that commercial collecting of fossils be undertaken with thorough 
scientific oversight to ensure that the scientific usefulness of 
specimens is not impaired.
    Recommendation #7: Blanket paleontological inventories, mitigation, 
or salvage activities should not be undertaken, funded, or required by 
government agencies as a routine part of environmental assessment, 
impact analysis, permitting, land management, or similar programs.
    By facilitating the work of scientists, Land managers and other 
agencies can take advantage of the most effective means of 
accomplishing inventory objectives, i.e., increasing knowledge of 
fossil distributions on public lands. Thus, surface paleontological 
collecting should be encouraged on all public lands, including Areas of 
Critical Environmental Concern, Research Natural Areas, Wilderness 
Study Areas, and Designated Wilderness Areas. There is no need to 
conduct general paleontological inventories on all public lands....
    Recommendation #8: Land mangers or developers who require 
scientific guidance on perceived paleontological problems should 
initially seek advice from the U.S. Geological Survey, or appropriate 
state geological surveys, which in turn may wish to contact appropriate 
paleontological organizations.
    Recommendation #9: The Department of the Interior, in cooperation 
with the professional paleontological community, should identify and 
evaluate potential paleontological localities of national significance 
(on both public and private lands) for designation as National Natural 
Landmarks (NNL's), pursuant to the existing National Natural Landmark 
Program administered by the National Park Service (36 CFR 62).
    Recommendation #10: The paleontological societies of the nation 
should develop permanent and broadly based educational programs to 
inform landowners and commercial and amateur collectors of the research 
needs of professional paleontologists. (NAS Report, 1987, p. 24-26)
    Although the committee finished its work nearly 20 years ago, the 
recognized problems and solutions are perhaps even more relevant today 
than they were at the time we published our findings. Fossils are still 
being exposed and destroyed by the actions of nature and humans at a 
rate so great that it will never be possible to save them all, no 
matter how many collectors are allowed access. Unfortunately, because 
of competing interests, both in the land management agencies and in 
some private organizations, the National Academy's recommendations were 
never implemented. This lack of action occurred despite a mandate by 
Congress found in the 1987 Appropriations Act requiring that federal 
agencies use the report in developing regulations concerning 
paleontology (Congressional Record--House, Oct. 15, 1985, p.H.10679, 
sec. 121).
    After conclusion of the NAS committee's work, I was appointed to 
and served for several years on a committee for Negotiated Rule-Making 
with the BLM, NFS, NPS, USGS, and other agencies. The resulting rules 
and proposals again were never implemented.
    Today the NAS Report on paleontological collecting remains the only 
scientific study that has addressed the question of what is best for 
the science of paleontology and for fossils found on public lands. This 
committee's work often stands in great contrast to recommendations by 
special interest groups such as SAFE (``Save America's Fossils for 
Everyone'') and some of the leadership for the Society for Vertebrate 
Paleontology (SVP). SAFE and the SVP leadership rely heavily upon 
recommendations distilled from a poll of 300 adults conducted in 1995. 
That poll has since been scientifically analyzed:
        ``Many people are trumpeting this poll as proving that public 
        opinions overwhelmingly in favor of legal restrictions on 
        fossils, whether the fossils were found on public or private 
        land, and whether the finder is a professional, commercial 
        employee, or an individual. The poll was likely biased and, 
        worse, made no attempt to distinguish whether the respondents 
        understood the issues at hand, thus making the wisdom of 
        following their opinions suspect, Regardless, the poll does not 
        prove public opinion is in favor of legal restrictions as 1) 
        many results were contradictory, 2) results were clearly in 
        favor of personal property rights despite claims to the 
        contrary, and 3) questions were not worded in such a way as to 
        allow only a single or clear conclusion.'' (Poling, 1996, p. 7)
    Although I applaud Congressman McGovern's interest in the somewhat 
esoteric subject of paleontology, and I share his desire to coordinate 
the efforts of the various land management agencies, I cannot support 
this bill in its present form because it diametrically opposes valid 
research and the recommendations of the National Academy of Sciences 
Committee on which I served.
    Specific topics illustrating this opposition are discussed below.
IDENTIFYING THE PROBLEM
    The most basic problem in this debate is a difference of opinion on 
the nature of the problem. Are there not enough fossils, or are there 
not enough fossil collectors? Do fossils need to be protected from 
humans, or does the very nature of human scientific curiosity need to 
be protected and nourished? Is it acceptable to ``sacrifice'' a small 
number of fossils to inadvertent damage for the greater benefit that is 
derived from having more people looking for them? Is it possible that 
by loosening restrictions, we might be able to increase exponentially 
our scientific knowledge of life on this planet?
    The posture of H.R. 554 is evident in Section 5, which imposes 
rigorous permit requirements for fossil collecting for scientific 
research and does not permit commercial collecting of any kind or 
vertebrate collecting by amateurs, contrary to NAS recommendations #3 
and #5.
    Let's recall how the NAS Committee spoke to this very issue when it 
stated:
        ``...the science of paleontology is best served by unimpeded 
        access to fossils and fossil-bearing rocks in the 
        field...Generally, no scientific purpose is served by special 
        systems of notification...From a scientific viewpoint, the role 
        of the land manager should be to facilitate exploration for, 
        and collection of, paleontological materials.'' (NAS Report, 
        1987, p. 2)
    H.R. 554 seems to focus on danger that can occur to fossils--either 
in the form of damage or theft--where the NAS Committee focused on the 
good contributed by a higher volume of interested parties participating 
in a common goal. Further, the NAS Report stated, ``the Committee was 
dismayed to learn of the number of instances of disruption of 
collecting by what seem to be overzealous regulatory activities of 
federal agencies.'' Clearly, the NAS Committee was more concerned with 
the potential for wrongful prosecution of people than with the human 
threat posed to fossils.
    How can we reconcile these seemingly polar positions, and arrive at 
an equitable, reasonable, beneficial, and long-standing solution that 
maximizes resources? For me to contribute to this answer, I must first 
present information broadening the scope presented in H.R. 554.
ABUNDANCE OF FOSSILS
    A primary element of the equation is whether or not fossils are 
rare--and if some are, how much protection do they need?
    H.R. 554 assumes that fossils, especially all vertebrate fossils, 
are rare, and thus are in need of protection. Only those who do not 
actively collect fossils could possibly believe this; field experience 
quickly reveals that, in fact, fossils are not rare. They occur 
wherever we find sedimentary rock, which is found on over 80 percent of 
the land surface of this planet. Certainly, plant cover and human 
structures obscure these rocks in many areas, but natural weathering 
and human activity constantly uncover new fossils; they also ultimately 
destroy them, sometimes within a few hours. The NAS Report states:
        ``An irony of the natural renewal process is that once 
        specimens of fossils are exposed at the surface of the earth, 
        they do not remain collectable for very long in most 
        environments. If a collector does not remove them, nature will 
        destroy the exposed fossils through weathering and erosion. In 
        especially hard and resistant rocks, on the other hand, a 
        fossil exposure may remain essentially intact for many years.'' 
        (NAS Report, 1987, p. 16)
    It is true that certain fossil species are represented by only a 
few, or in some cases, only one individual.
        ``The rarity of a particular kind of fossil depends very much 
        on what one means by ``particular kind.'' For example, dinosaur 
        bone fragments are a common component of many stream deposits 
        of Mesozoic Age; they are found on all continents and occur in 
        rocks spanning more than 100 million years of geologic time. In 
        many collecting areas, finding dinosaur bone fragments, or even 
        complete bones, is not unusual or especially noteworthy. 
        However, certain species are known only from one or two 
        localities.'' (NAS Report, 1987, p. 15)
    Therefore, the blanket statement that fossils, or even vertebrate 
fossils, are rare is untrue. For this same reason, there is no 
scientific, public, or practical reason why all fossils found on public 
lands should remain, in perpetuity, as public property, as is mandated 
by H.R. 554, [Sec. 5(c)(1)].
    There are literally trillions of fossils eroding out from public 
lands each year. The NAS Committee recognized the value and variety of 
uses for these fossils, from science to the most mundane. ``To many 
people, the purely esthetic quality of fossils is important, and they 
use fossils for decorative purposes as objects of art.'' (NAS Report, 
1987, p. 11) The Report mentions as acceptable interior decorating and 
even using fossils as facing stones. With this in mind, we cannot 
assume that all fossils are rare or important, and must be housed only 
in museums.
    Conversely, SAFE and the SVP leadership often cite a ``worst-case 
scenario'' that causes those unfamiliar with the science to focus on 
``protection'' rather than ``multiple use.'' The scenario involves a 
clumsy amateur stumbling upon a rare treasure and stashing it on his 
mantelpiece, hidden away from the public and scientists. Although most 
fossils found today on the average mantelpiece are common and have 
little scientific value, I contend that even in this unlikely case, a 
fossil has been saved that probably otherwise wouldn't have been. 
Further, that one important fossil, should it have made its way to a 
mantelpiece, represents thousands of others that have been brought to 
museums and saved for science.
    For those of us on the NAS Committee, we saw the value incorporated 
in that mantelpiece fossil. Left uncollected and unobserved, that 
fossil has no value at all.
THE VALUE OF AMATEUR ENTHUSIASTS AND COMMERCIAL COMPANIES
    Amateur collectors are the foot-soldiers of paleontology. They are 
the equivalent of amateur astronomers, who broaden the scope of 
scientific observation a thousandfold. This bill does nothing to 
encourage their contribution or increase their access to fossils, but 
acts, instead, to negate their contributions to the science. I recall a 
time in 1982 when tens of thousands of letters were received by the BLM 
in opposition to a proposed rule-making that failed to address amateur 
access in the way promoted by the NAS Report. Those tens of thousands 
represent perhaps hundreds of thousands who have a strong interest in 
paleontology.
    Further, museums all over the world have depended--for their entire 
histories--upon the commercial collection of fossils for display 
purposes. In fact, some museums, such as the Houston Museum of Natural 
Sciences and the Children's Museum of Indianapolis, contain entire 
exhibit halls that are almost exclusively composed of specimens that 
were purchased from or donated by businesses like my own.
    Every one of the six Archeopteryx, that rare missing link between 
birds and meat-eating dinosaurs, was found by an amateur and 
commercially placed in a public museum. And of the 40 T. rex specimens 
found to date, only two were discovered by academic paleontologists--
who, under this bill, would be the only people able to secure permits. 
All of these specimens, and countless others collected and preserved by 
amateur and commercial collectors, changed the face of science. Without 
their access to public lands, a impressive percentage of the potential 
scientific information contained in public areas will be lost forever.
    To assume that it is beneficial to draw a line separating academics 
from the rest of the field, as recommended in H.R. 554, reflects a lack 
of paleontological field experience that is understandable only if one 
has never collected fossils.
THEFT
    No responsible person condones the theft of fossils or vandalism of 
fossil sites. Not only are these acts reprehensible and already covered 
under existing laws, but also they are erroneously attributed to 
amateur and commercial collectors, Instead, fossil crimes are committed 
by people who neither understand nor appreciate the science--the most 
exciting aspect of paleontology to true enthusiasts, regardless of 
whether they hold jobs in paleontology, and regardless of who writes 
their paychecks. Thieves are opportunists who do not fall into the 
categories of ``amateur,'' ``professional,'' or ``commercial'' 
paleontologists. Thieves do not share our love of or respect for 
fossils and paleontology.
    Thieves also do not understand the small size, intimacy, and 
particular dynamics of the marketplace. This is a marketplace that 
depends, for the most part, upon museums as customers. Stolen fossils 
are nearly impossible to pass undetected through the usual rigors and 
channels of this marketplace. Amateurs and commercial paleontologists 
alike are, generally, familiar with current collections, market needs, 
and any reported thefts. Indeed, I have personally been responsible for 
reporting to an institution when I saw what I suspected was stolen 
property at a trade show.
    Much of the debate informing H.R. 554 has targeted amateurs as 
``inexperienced'' people who can damage our scientific heritage. 
Although it is true that some amateurs lack experience and might not be 
the best fossil collectors, the same can be said about academics, as 
well. How is a graduate student expected to learn, without going out 
into the field--and learning by doing?
    The debate also has wrongly pitted academia against commercialism, 
when in fact the two are complementary and interdependent. It is 
incorrect to assume that ``commercial collector'' is synonymous with 
``thief.'' Academics and amateurs who work with credentialed, 
experienced, respected commercial paleontologists recognize their valid 
contributions. ``The trading, buying, or selling of common fossils 
often fulfills an educational need. In fact, many museums have funds 
set aside to purchase unique, unusual, or rare fossils.'' (NAS Report, 
1987, p. 13)
    Many of the supposed violations commonly quoted--usually about 
commercial collectors--actually misrepresent innocent mistakes or 
exaggerate the problem. A famous example is that of ``Big Al,'' an 
Allosaurus skeleton from near Shell, Wyoming. In this case, a misplaced 
fence, established on the wrong line for more than 80 years, led to an 
assumption that a fossil found on the ``private side'' actually was on 
the private side. Only after extensive surveying was it determined that 
the fossil actually lay, literally, inches beyond the line, on BLM-
administered land. This collector was never prosecuted for obvious 
reasons, but often this case is cited as one of intentional wrongdoing.
    A second case, in which a university professor collected most of a 
T. rex skeleton without bothering to check on land ownership at the 
courthouse, also could have been prosecuted for intentional trespass. 
However, again, this was understood to be an honest mistake.
    Finally, a group of boy scouts skipping stones on a lake--and 
inadvertently damaging a dinosaur track way--were nearly prosecuted, 
along with their counselor.
    The single case that most exemplifies the assumptions about 
commercialism is the one in which I played an intimate part. Sue the T. 
rex was seized from a non-profit museum because the Acting U.S. 
Attorney falsely claimed that we collected it from federal land, and 
that our commercial participation in the collection of the fossil by 
definition put the fossil at risk to be ``sold to the highest bidder.'' 
The land claim was later abandoned; the fact that the fossil had 
already been donated in perpetuity to the private museum seemed 
irrelevant. At the end of a three-year investigation and eight-week 
trial, I served a prison sentence for ``failure to fill out forms.'' 
Our purchase of the fossil from the original owner was recognized and 
then negated, the fossil was returned to the landowner, and the federal 
government facilitated its auction sale. Like our donation, the irony 
of this outcome seemed irrelevant. The fossil is again on public 
display at a private museum in Chicago, where I enjoy scientific 
visitation rights. (For more information on this case, see Fiffer, 
2000, and Larson & Donnan, 2002.)
    All of these examples illustrate the potential problem with the 
legislation as written, in which fossils are more important than people 
and their intent. Individuals such as these must be distinguished from 
thieves and vandals.
    Responsible, knowledgeable collectors fall in all camps, and all 
camps support reasonable permitting processes. One way to help protect 
and preserve paleontological resources is through education and 
promoting access to all qualified individuals for the collection of 
fossils. This includes amateur and commercial collectors who could 
double as the eyes and ears of land managers.
PUNISHING PERPETRATORS
    Adequate laws are currently in force to protect against theft and 
vandalism of public property. However, H.R. 554 increases the number of 
offenses, and the penalties for violations, despite the NAS Committee's 
findings:
        ``In its further investigations, the Committee was dismayed to 
        learn of the number of instances of disruption of collecting by 
        what seem to be overzealous regulatory activities of federal 
        agencies. Cases range from a Harvard biology professor who was 
        apprehended in Montana for collecting fossils after 
        inadvertently crossing an unmarked boundary of BLM land to an 
        elderly hobbyist who was arrested in South Dakota for 
        collecting seven rather undistinguished fossils in a National 
        Forest.'' (NAS Report, 1987, p. 2)
    H.R. 554 creates a ``fossil police force.'' There are two primary, 
troubling aspects to this development. First, this force would be 
assigned the impossible task of patrolling the nearly one-half billion 
acres of public land controlled by the Bureau of Land Management (this 
does not include land controlled by the U.S. Forest Service, Park 
Service, Bureau of Reclamation, and other agencies). As soon as this 
position is adopted, the public's relationship with the land and land 
managers becomes adversarial. The focus becomes on protecting something 
from ``almost everyone,'' instead of facilitating reasonable processes. 
In times of record deficits and a drain on human resources, is this 
really how we want to direct our efforts?
    Second, if we adopt the wording of H.R. 554, this police force 
could potentially arrest scouts, students on organized field trips, 
graduate students, professors, and researchers whose sole goal is to 
learn about past life on earth--while missing those who intend to 
steal. As in most illegal enterprises, those with a negative agenda are 
skilled at evasion; a reasonable permitting process would facilitate 
access for those who are not a danger, and erect an initial roadblock 
for those who are. Instead of subjecting students and educators to jail 
[Sec. 7(a)] or confiscation of private and school vehicles [Sec. 9(b)], 
how about instituting a reasonable program that includes easy, permit-
less access for educational organizations and easy-to-obtain excavation 
permits when it is in the best interest of science, as is recommended 
by the NAS Report (Recommendations 3 and 5).
    Other ``crimes'' listed in H.R. 554 are also troubling. The bill 
states that mislabeling fossils is to become a crime [Sec. 7(b)]: ``A 
person may not make or submit any false record, account, or label for, 
or any false identification of, any paleontological resource excavated 
or removed from federal lands.'' If this becomes a standard, then all 
museum curators are destined for a prison cell instead of a laboratory. 
There is no museum that is free from labeling or identification errors, 
and even field identifications might change several times before a 
piece arrives in the lab--and then additional times thereafter. Science 
is a process of discovery, postulation, comparison, and educated 
guessing. Scientific names have been found to be redundant or 
inaccurate--but only after additional information and preparation has 
occurred. If scientists feel constrained to be ``correct,'' science 
will stop in its tracks.
    Further, Sec. 5(c)(3) states that: ``specific locality data will 
not be released by permittee or repository without written permission 
by the Secretary.'' This is in complete opposition to the scientific 
principle of shared data and information. Research dictates that 
locality data is essential in the scientific process; a fossil without 
a locality has no scientific value. We all understand that the purpose 
of this rule is to protect a site from unauthorized access; however, 
the researcher should be trusted and allowed autonomy in determining 
recipients of the data.
``SCIENTIFIC VALUE''
    ``Scientific value'' has been listed as a determinant for the 
penalty phase in prosecutions or judgments. Specifically, H.R. 554 [Sec 
8(a)(2)(A) sets the amount of a penalty for violations as ``the 
scientific or fair market value, whichever is greater.'' However, this 
definition would never stand in a court of law, as there is no 
empirical way to assign a dollar figure to ``scientific value.'' One 
scientist's treasure is another scientist's trash--because of varying 
areas of interest. Also, a fossil might answer the question of ancestry 
for an entire Order of organisms but, because of its abundance or size, 
might not bring three cents on the open market. Indeed, the value is 
often in the discovery, not the object
    Because of my extensive work with valuing fossils for museum and 
other sales or donations, I have often been called upon to appraise 
individual fossils and entire collections. Although scientific value is 
certainly mentioned in the appraisal, and might have an effect upon 
fair market value, standard practice shows that it cannot be quantified 
into a discreet dollar figure. We scientists call this nebulous, 
unquantifiable amount, ``the cool factor.--It is completely subjective 
and untestable. The only equitable value to include when assessing 
penalties is fair market value, which is both easily determined and 
takes rarity and scientific importance into account.
    ``Scientific value cannot be determined by a simple formula or by 
application of a predetermined set of criteria...The scientific value 
of a fossil depends ultimately on what it adds to our knowledge of the 
history of life or of the physical history of the Earth, rather than on 
any easily codified assessment of value.'' (NAS Report, 1987, p. 18)
CONCLUSION
    It is gratifying to see that this subject, crucial to so few of us, 
is still being discussed by our government. I am hopeful that we are 
approaching an equitable end to this long discussion.
    As in this case, so often legislation is introduced by well-
intentioned legislators who are inundated by information on so many 
topics that they cannot possibly have integrated the large volume of 
background or crucial data necessary for adequate coverage of a single 
topic. Particularly in a specialized field like this, where decades of 
debate have been clouded by paleontological politics, it is easy to see 
that only the most vocal or powerful side may be able to bring their 
desires to the forefront.
    This is our opportunity to propose solutions that will work for the 
whole field, and for the public, today and for the future.
    Our mission is not to restrict access to all except those 
representing academia. Our mission is not to draw a line between 
academia and commercialism. Our mission is not to restrict amateurs 
because they lack education--thus denying them access to one of the 
best classrooms on earth. Instead, our mission is to create policy that 
distinguishes between those who act according to the best interest of 
science and the law, and those who do not. Our mission is to gather 
together all foot-soldiers of paleontology, so that they can work 
toward common goals of preserving scientific information, and train 
collectors sufficiently so that fossils are not unduly damaged. We must 
ensure that experts are called in appropriately in order to identify 
important sites, evaluate scientifically important specimens, and make 
recommendations as to what is best for the resource.
    It should be everyone's job to help protect these resources from 
people with bad intentions. Academic, amateur, and commercial 
paleontologists all share these goals and these responsibilities. 
Excluding everyone who does not work at a government facility is 
shortsighted and unnecessarily exclusionary. The private sector, on a 
daily basis, supports and assists the public sector in its goals.
    The question remains: what do we do about ``the bad guy''? Can 
restricting legal access to large stretches of public lands prevent a 
fossil from being destroyed--either by unsavory collectors or by the 
weather? No. The only sure way to protect a fossil is to collect it.
    Adopting legislation such as H.R. 554 not only will not protect 
fossils from degradation or theft, but also makes them more 
vulnerable--because there is less chance that they will be found. The 
bill is written from a stance that is untenable. What is required to 
solve the dilemma we all recognize is a paradigm shift from ``saving 
fossils'' to ``utilizing available resources.'' The best resources to 
protect and save fossils and their crucial scientific data are fossil 
collectors. They are eager to help--and the work of the independents is 
free to the taxpayer.
        ``I know no safe depository of the ultimate powers of the 
        society but the people themselves; and if we think them not 
        enlightened enough to exercise their control with a wholesome 
        discretion, the remedy is not to take it from them, but to 
        inform their discretion.'' (Thomas Jefferson, 1820)
    I urge you to review and adopt the recommendations of the thorough 
NAS Report. Any lasting and helpful legislation must rely upon the 
extensive work already done by a coalition of the scientific community. 
The wheel in this case has already been invented. Let's put it on the 
cart.
    I believe, therefore, that despite the well-meaning intentions of 
The Honorable Representative, James McGovern from Massachusetts and his 
co-sponsors, whom I respect very much, H.R. 554 is fatally flawed. My 
recommendation is that H.R. 554 in its present form not be recommend by 
this committee for passage by the House of Representatives.
    Thank you for the opportunity to address this committee.
BIBLIOGRAPHY
    Congressional Record, Oct. 15, 1985, Omnibus Spending Bill--through 
1987, p. H. 10679 NAS (National Academy of Sciences) Report, 1987, 
Paleontological Collecting, National Academy Press, Washington, D.C. 
243 pp.
    Fiffer, S., 2000, Tyrannosaurus Sue. W.H. Freeman & Co., New York, 
NY. 248 pp.
    Jefferson, T., 1820, Letter to William Charles Jarvis, September 
28.
    Larson, P., & K. Donnan, 2002, Rex Appeal: The Amazing Story of 
Sue, the Dinosaur That Changed Science, the Law, and My Life. Invisible 
Cities Press, Montpelier, VT. 404 pp.
    Poling, J., 1996, Analysis of the SAFE poll on fossil collecting, 7 
pp.
APPENDICES
APPENDIX A:
EXECUTIVE SUMMARY
NATIONAL ACADEMY OF SCIENCES REPORT:
PALEONTOLOGICAL COLLECTING
NATIONAL ACADEMY PRESS, WASHINGTON, D.C. 1987
APPENDIX B:
LETTER TO COMMITTEE
MICHAEL TRIEBOLD, PRESIDENT
ASSOCIATION OF APPLIED PALEONTOLOGICAL SCIENCES
APRIL 10, 2007
    [NOTE: Appendices have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir. And let me turn to 
our next witness, Mr. Vlamis, and a butchering of your last 
name.

   STATEMENT OF TED J. VLAMIS, CHAIRMAN, GOVERNMENT AFFAIRS 
         COMMITTEE, SOCIETY OF VERTEBRATE PALEONTOLOGY

    Mr. Vlamis. Vlamis.
    Mr. Grijalva. Got it.
    Mr. Vlamis. Thank you very much, Mr. Chairman. I would like 
to thank you for the opportunity to testify in favor of H.R. 
554, the Paleontological Resources Preservation Act. I am an 
amateur paleontologist and have seen firsthand how the 
increased public interest in paleontology has motivated many 
Americans to make an advocation of this fascinating field of 
study.
    One of the most gratifying things for me has been the 
opportunity to collaborate with professional scientists, to 
learn from them, and to make my own small contribution to the 
advancement of scientific knowledge. The PRPA has been endorsed 
by the Society of Vertebrate Paleontology and by the American 
Association of Museums.
    Because of my personal interest in paleontology and the 
nexus between paleontology and public policy, I have studied 
the problems of illegal collection and theft of fossils from 
Federal lands for the past several years. We urgently need 
stronger penalties for theft and destruction of fossils from 
public lands. Sadly, some of the most egregious cases of theft 
and vandalism have occurred on Federal lands belonging to all 
Americans.
    The rapidly increasing commercial value of fossils has 
created a situation where the limited penalties that exist are 
not sufficient to deter illegal collecting. I would like to 
share with you a couple case histories that illustrate what is 
happening to this valuable public resource. A specimen of 
allosaurus was illegally collected from BLM land in Utah. The 
collector was not prosecuted because of the lapse of the 
statute of limitations. The commercial fossil dealer who 
purchased the specimen for $90,000 sold it to an overseas 
collector for $400,000. He pled guilty to receipt of stolen 
property and was sentence to one year probation. His company 
was fined $50,000. A profit of $260,000 is not a deterrent.
    Were my photos able to be displayed? I had submitted 
photos. I do not know if they were able to be displayed on the 
screen or not. Well I did submit them in a PowerPoint format. 
The first photo that I had to show you was a photo of the 
remains of what was once a largely intact allosaur vertebra 
found in the Fruita paleontological area. The entire portion of 
the vertebra that was protruding from the surrounding matrix 
has been sheared off.
    The second photo shows what was probably once a major 
portion of an allosaurus skeleton. We will never know the 
scientific information this specimen would have yielded. And my 
last photo was a photo of an imprint showing where a diplodocus 
femur was stolen from Federal land.
    Fossils themselves cannot tell the full story of life on 
earth, and they must be supplemented with contextual data. A 
fossil collected without this information has lost much of its 
value and we know little more than that this animal lived and 
died. Researchers must be able to compare new specimens with 
those previously on earth. Oftentimes a new analysis many years 
later shows our earlier understanding was incomplete or 
mistaken. For this reason, it is important to ensure future 
access by preserving these in public institutions.
    Although much of the need for this legislation has been 
driven by the increase in the commercial value of fossils, it 
is important to note that many fossils of enormous scientific 
value do not have huge commercial value. H.R. 554 puts no new 
restrictions on amateur paleontologists like me. Any collecting 
we can legally do today will still be permitted under the 
casual collecting provision in Section 5[a][2].
    Nothing in this bill restricts rock collecting, and this is 
made explicit in Section 12.2. Indeed, the PRPA formally 
recognizes it as a legitimate recreational activity. I have 
talked with people who have expressed concern about the false 
labeling provision of Section 7[b] of the PRPA, and fear that 
people could be prosecuted for inadvertently misidentifying 
fossils. The false labeling offense applies only if one 
knowingly violates the law.
    Some have argued for reversing the existing policy of not 
allowing commercial collecting of fossil on Federal lands with 
the exception of petrified wood, citing a 1987 report from the 
National Academies of Science. The recommendations of this 
report were considered in the DOI report, Fossils on Federal 
and Indian Lands, and it has been implemented to the extent 
possible under existing law.
    In a poll taken of America's major museums, more than 49 
percent of the 1.8 million specimens of dinosaurs and other 
fossil vertebrates in their collections were from public lands. 
Of the overall total, amateurs had donated more than 100,000 
specimens to museums, and significantly less than one percent 
of the specimens came from commercial collectors.
    As detailed in Section 12.2 of the PRPA, this bill will not 
interfere with mining on Federal lands. I would like to 
conclude with telling you about one example of the kind of 
cooperation which exists between Federal agencies, amateur 
paleontologists, and professional paleontologists. Amateur 
paleontologist Kathy Wankel found a tyrannosaurus rex on 
Federal land and reported it to dinosaur paleontologist Jack 
Harner of the Museum of the Rockies. The field study triggered 
by this find is yielding valuable information about this most 
famous of the dinosaurs and the environment in which it lived.
    Just last week a study which used new techniques to recover 
proteins from this specimen provided the first molecular data 
showing the connection between T. rex and birds. The passage of 
H.R. 554 will foster more and more opportunities like this and 
inspire the long-term preservation of these priceless national 
resources. Thank you very much for the opportunity to testify, 
and I would be happy to answer any questions that the committee 
has.
    [The prepared statement of Mr. Vlamis follows:]

  Statement of Ted J. Vlamis, Chairman, Government Affairs Committee, 
                   Society of Vertebrate Paleontology

    I'd like to thank you for the opportunity to testify in favor of 
H.R. 554, the Paleontological Resources Preservation Act. I am an 
amateur paleontologist, and have seen firsthand how the increased 
public interest in paleontology has motivated many Americans to make an 
avocation of this fascinating field of study.
    One of the most gratifying things for me has been the opportunity 
to collaborate with professional scientists--to learn from them, and to 
make my own small contribution to the advancement of scientific 
knowledge. I have had the pleasure in participating in fieldwork with 
the Dinamation International Society, the Universidad Autonoma de 
Mexico, the Shuler Museum of Paleontology at Southern Methodist 
University, and the Ft. Worth Museum of Nature and History. I have been 
an active member of the Society of Vertebrate Paleontology, including 
serving as a member of its Government Affairs Committee since 1996 and 
as Affiliated Societies Liaison since 1997. I have been the Chairman of 
this Committee for the past several years and have been nominated for 
the position of Treasurer of the Society. By having amateurs like me 
serve in significant positions, the SVP has ensured that it reflects 
the interests of both professional and amateur paleontologists.
    The PRPA has been endorsed by the Society of Vertebrate 
Paleontology, an organization of more than 2000 professional and 
amateur paleontologists, and by the American Association of Museums, 
which counts among its membership 11,500 individual museum 
professionals and volunteers, 3100 institutions, and 1700 corporate 
members.
    Because of my personal interest in paleontology, and the nexus 
between paleontology and public policy I have studied the problems of 
illegal collection and theft of fossils from federal lands for the past 
several years. We urgently need stronger penalties for theft and 
destruction of fossils from public lands. Sadly, some of the most 
egregious cases of theft and vandalism have occurred on federal lands 
belonging to all Americans.
    The rapidly increasing commercial value of fossils has created a 
situation where the limited penalties that exist are not sufficient to 
deter illegal collecting. In the Report ``Fossils on Federal and Indian 
Lands'' it was noted that ``the fines currently imposed on fossil 
thieves are usually low compared to the lost resources. For example, 
one man who had stolen fossils from a national park over a period of 
years was fined a total of $50.'' (Babbitt, 2000 p. 29)
    In many cases the theft of fossils is so widespread and occurs so 
rapidly that we do not even know what is being lost. In a study 
commissioned by the Forest Service, it was found that almost one-third 
of the paleontological sites surveyed in the Oglala National Grassland 
showed evidence of unauthorized collecting. In 1999, the National Park 
Service identified 721 documented incidents of paleontological resource 
theft or vandalism, many involving multiple specimens, in the national 
parks between 1995 and 1998. (Babbitt, 2000 p. 28)
    The increased commercial market for fossils worldwide has sometimes 
led to distortion of the fossil record. In some cases fossils have been 
altered in order to inflate their commercial value. And we have lost 
significant specimens from further scientific investigation and 
exhibit, making it harder for people to see and examine for themselves 
the authentic objects in our museums. It is critical that 
scientifically significant fossils from federal lands, i.e. that 
portion of the fossil record that belongs to the American people, 
remain in the public domain so that everyone--children and adults, 
amateur and professional paleontologists may benefit from this 
irreplaceable resource.
    I'd like to share with you a couple case histories that illustrate 
what is happening to this valuable public resource. I'm going to begin 
with the story of three Allosaurus specimens. Allosaurus was a large 
carnivorous dinosaur of the Jurassic period.
    In 1991, the BLM discovered an illegal commercial collection taking 
place on federal land. The BLM contacted the Museum of the Rockies at 
Montana State University--Bozeman and asked them to collect the 
specimen and hold it in the public trust. As a result of this, the most 
complete Allosaurus ever found, which this commercial collector 
intended to sell to a private collector overseas, now has been saved 
for all the people of the United States. As a result of careful 
analysis of injuries sustained by this dinosaur and preserved in the 
bones, this particular specimen has yielded a treasure trove of 
information about how Allosaurus lived. The commercial collector, who 
had attempted to steal this fossil and the information it tells us, was 
never prosecuted.
    Unfortunately, the American people were much less fortunate in the 
case of another Allosaurus find. This Allosaurus was illegally 
collected from BLM land near Fremont Junction, Utah. The collector was 
not prosecuted because the lapse of the statute of limitations. Last 
year the commercial fossil dealer, who purchased the Allosaurus for 
$90,000 and sold it to a Japanese collector for $400,000, plead guilty 
to receipt of stolen property and was sentenced to 1 year probation. 
His company was fined $50,000. A profit of $260,000 is not a deterrent. 
We simply must have stronger penalties and have specific laws 
protecting fossils on federal lands in order to deter this type of 
illegal activity.
    The Fruita Paleontological Area near Grand Junction, Colorado 
became the first management area specially protected by the Bureau of 
Land Management solely because of fossils in 1976. Specimens from this 
area include Allosaurus, Apatosaurus, Camarasaurus, Ceratosaurus, 
Dryosaurus, and Stegosaurus. It has also yielded numerous 
microvertebrate and invertebrate remains and has facilitated 
reconstruction of the ecological community in which these animals 
lived. During a trip to the Fruita Paleontological Area I was able to 
learn much about the important research being done there. 
Unfortunately, I also witnessed the damage that is occurring there 
because of theft and vandalism.
    Figure 1 shows the remains of what was once a largely intact 
allosaur vertebrae. The entire portion of the vertebrae that was 
protruding from the surrounding matrix has been sheared off.
    Figure 2 shows what was probably once a major portion of an 
allosaur skeleton. We will never know what scientific information this 
specimen would have yielded.
    In Figure 3 we see the imprint showing where a Diplodocus femur was 
stolen from Dinosaur Hill, a quarry just a short distance from the FPA.
    I would like to share a little bit of information with you about 
how paleontological research is done and why this legislation is 
essential to ensuring maximal public benefit from this research.
    Many kinds of fossils, including those of most vertebrates 
(backboned animals), are rare for several reasons. Many organisms are 
not readily preserved as fossils because they do not have hard parts. 
Only rather unusual sedimentary rock environments preserve soft parts 
long enough to become fossilized. Also, organisms can only be preserved 
where sediments accumulate at a fairly high rate. Most organic remains 
are not buried fast enough to contribute to the fossil record. 
Vertebrate fossils are much less common than invertebrate and plant 
fossils. Although we are fortunate to have some exceptions, spectacular 
deposits of diverse and complete organisms are rare over the history of 
the earth. The majority of fossil vertebrate species are extremely rare 
or are represented by a single unique specimen. For these reasons the 
chances of any vertebrate becoming a fossil are very small. Thus, 
individual vertebrate fossils are extremely valuable as bearers of 
information about the past. Furthermore, fossils of extinct groups are 
not renewable. More fossils will be discovered and collected, but 
always from a finite supply. More than 99% of all life forms that have 
ever lived on Earth are already extinct and are only potentially known 
by fossils.
    Fossils themselves cannot tell the full story of life on Earth and 
they must be supplemented with contextual data. The rocks in which the 
fossils are found provide information about ancient environments and 
climates, the age of the fossils, position in a historical sequence, 
and their paleogeographic location. Fossil assemblages can also provide 
information about ecological interactions and communities.
    A fossil collected without this information has lost much of its 
value, and we know little more than that this animal lived and died. In 
contrast, when contextual data are collected and studied, we begin to 
understand how the animal lived and its place in the balance of nature. 
As paleontologists and geologists learn more ways to interpret ancient 
environments and ecological communities from fossil assemblages in 
their original context, this information becomes more and more valuable 
and important. These contextual data allow us to bring these animals to 
life for tens of millions of visitors to our museums, to the many young 
children who have hands-on experience with original specimens, and to 
the American public.
    Our understanding of evolutionary processes and the tree of life 
comes primarily from comparing the skeletons from different animals to 
each other. In order to do this researchers must be able to compare new 
specimens with those previously unearthed. Oftentimes a new analysis 
many years later shows our earlier understanding was incomplete or 
mistaken. For example, when Dr. John Ostrom was doing research on 
Deinonychus, a dinosaur similar to the Velociraptor popularized in 
Jurassic Park, he found that a specimen thought to be a carnivorous 
dinosaur was actually the rare early bird Archaeopteryx. Ostrom's 
research was critical in establishing the link between dinosaurs and 
birds that became a proudly recited fact for every young dinosaur 
aficionado. Only when specimens are properly collected and permanently 
preserved in public institutions can researchers access these specimens 
in order to make these comparisons. And when these comparisons and 
interpretations are made education and the general public greatly 
benefit by having access to this new interpretive knowledge through 
media reports, books, and the Internet.
    Although much of the need for this legislation had been driven by 
the increase in the commercial value of fossils, it's important to note 
that many fossils of enormous scientific value do not have as huge 
commercial value. The scientific value of fossils can be determined by 
the Secretary of the Interior based on existing case law and uniform 
regulations for determining the archeological value of archeological 
resources under the Archeological Resources Protection Act.
    In a poll taken of America's major museums, more than 49% of the 
1.8 million specimens of dinosaurs and other fossil vertebrates in 
their collections were from public lands. Of the overall total, 
amateurs had donated more than 100,000 specimens to museums and 
significantly less than 1 % of the specimens came from commercial 
collectors (Stucky and Ware, 1991).
    H.R. 554 puts no new restrictions on amateur paleontologists like 
me. Any collecting that amateur paleontologists and rock collectors can 
legally do today will still be permitted under the PRPA. For example, 
an amateur collector can legally collect common plants and 
invertebrates on BLM and FS land without a permit. This would still be 
allowed under the casual collecting provision in Section 5 (a) (2). 
Collection of vertebrate fossils requires a permit under existing rules 
and regulations. Collecting on NPS lands is by permit only. In sum, 
nothing changes.
    One thing that should be of interest is that although the Forest 
Service has been allowing rock collecting in National Forests, they 
really have no legal authority for doing so as current agency ``organic 
acts,'' do not specifically address this recreational use of public 
lands. Without specific authority this practice may be in jeopardy and 
future administrations could take away this privilege. The problems 
inherent in not having this authorization spelled out clearly were seen 
in the issuance of the Forest Service's 1994 proposed rules which would 
have prohibited amateur rock, mineral and fossil collecting on all 
National Forest system lands. It is estimated that 30,000 to 70,000 
comments were received from amateurs opposed to eliminating amateur 
collecting. The PRPA gives the needed Congressional authorization for 
amateur collecting on public lands. Nothing in this bill restricts rock 
collecting. Section 12 (2) specifically states that ``Nothing in this 
Act shall be construed to...apply to, or require a permit for, amateur 
collecting of a rock, mineral, or invertebrate or plant fossil that is 
not protected under this Act.''
    The paleontological community is strongly in favor of laws 
protecting fossils on public lands, and of prohibiting their collection 
for commercial use. Several years ago, the Society of Vertebrate 
Paleontology (SVP) added a Statement of Ethics to its bylaws to help 
the society and its members handle ethical issues such as those raised 
by increasing commercialization. I summarized the SVP Ethics Statement 
and a subsequent Joint Position Statement by the Paleontological 
Society as follows: ``The SVP Ethics Statement contains several 
principles that are particularly noteworthy for their public policy 
implications. It begins by recognizing that vertebrate fossils are 
usually unique or rare, and that they are part of our natural heritage. 
The Ethics Statement assigns to vertebrate paleontologists the 
responsibility of ensuring that pertinent detailed contextual data are 
recorded when vertebrate fossils are collected and notes that 
collection and preparation should be done by properly trained 
personnel. The importance of proper curation and the assurance of 
access for future researchers are recognized by the Ethics Statements' 
provision that scientifically significant vertebrate specimens should 
be curated and accessioned in institutions charged in perpetuity with 
conserving fossil vertebrates for scientific study and education. The 
Ethics Statement further recognizes the responsibility of 
paleontologists to expeditiously disseminate information to other 
paleontologists and to the general public. Perhaps the most important 
part of the SVP Ethics Statement from a public policy perspective is 
the conclusion that ``The barter, sale, or purchase of scientifically 
significant vertebrate fossils is not condoned unless it brings them 
into, or keeps them within, a public trust'' (SVP, 1994).
    In order to ensure that the SVP's public policy recommendations and 
initiatives regarding fossils on federal lands were also reflective of 
the wider paleontological community, the SVP initiated a dialogue with 
the Paleontological Society. Together these two scientific societies 
include several thousand individuals, representing more than 90% of 
professional paleontologists and a very large proportion of amateur 
paleontologists. This dialogue culminated in 1999 when the two 
societies issued the joint position statement Paleontological Resources 
on U.S. Public Lands. The PS-SVP joint statement advocates public 
policy which, like the SVP Ethics Statement, recognizes that fossils 
are part of our scientific and natural heritage. It goes on to find 
that fossils on public lands belong to all the people of the United 
States and that, as such, they need special protection, and should not 
be collected for commercial purposes. The joint statement concludes 
that the two societies strongly support actions which ``protect fossils 
on public lands as finite natural resources; encourage responsible 
stewardship of fossils for educational, recreational, and scientific 
purposes; promote legitimate access to, and responsible enjoyment of, 
paleontological resources on public lands by the public and amateur 
paleontologists for personal use, and by the professional 
paleontological community, including professional paleontologists from 
outside the U.S.; and bring fossils from public lands into public 
institutions where they are available for purposes of education and 
scientific research'' (PS and SVP, 1999).'' (Summary from Vlamis, 2001) 
The Society of Vertebrate Paleontology has endorsed The Paleontological 
Resources Preservation Act.
    Similarly the American people support the type of stewardship of 
fossils on federal lands which is embodied in H.R. 554. MKTG, INC., a 
market research firm that has conducted over 10,000 studies since its 
founding in 1979, conducted a survey of American public opinion 
regarding fossils. This survey of 300 American adults analyzed public 
responses both to a hypothetical situation involving the discovery of a 
fossil, and to a series of more general questions pertaining to 
fossils. A random calling program was utilized which gave every 
telephone in the U.S. the same probability of being called. The survey 
results have an accuracy rate of +/- 7%. The findings of this survey 
are detailed in Vlamis (2001).
    Several key points that demonstrate public support for the 
principles embodied in H.R. 554. When the hypothetical find is assumed 
to have been made on public land 86.6 percent agree with the statement 
that ``The fossil is part of our heritage, it belongs to everyone in 
the United States'', 80.0 percent with the statement that ``There 
should be a law against my selling the fossil'', 81.0 percent with the 
statement that ``There should be a law against my taking the fossil out 
of the United States'', and 81.0 percent disagree with the statement 
that ``The fossil is mine, finders keepers''. The consistency of 
responses when asked in a variety of different ways is striking.
    In the second part of the survey, 85.3 percent agreed with the 
statement that that ``Fossils of animals with backbones are part of our 
national heritage and should be protected in much the same way that 
archeological remains (human artifacts) are now protected''; and, 88.0 
percent agreed that ``If laws are created to restrict the collection of 
fossils on public lands, the only people who should be allowed to 
collect them are people with appropriate skills for doing so and with a 
permit for that purpose. All the fossils that they find should go into 
museums and universities prepared to protect them'' (Vlamis, 2001). The 
American people want our natural heritage preserved as a national 
treasure.
    I've talked with people who have expressed concern about the false 
labeling provision in Section 7 (b) of the PRPA and fear that people 
could be prosecuted for inadvertently misidentifying fossils. The false 
labeling offense applies only when a false statement is made in 
association with a criminal offense under Section 7 of the PRPA and the 
criminal offense only occurs if one knowingly violates this law. It is 
in the bill so that unscrupulous collectors can't circumvent the law by 
intentionally misidentifying scientifically significant fossils as 
common plant or invertebrate fossils, or by labeling fossils collected 
from federal lands as coming from nearby private land. This is not new 
authority as the agencies have the authority now to make a charge of 
``false labeling,'' and if applicable, would be made in association 
with a charge under theft of federal property at 18 USC 641. The basis 
for this section of the bill is 18 USC 1001.
    Some have argued for reversing the existing policy of not allowing 
commercial collecting of fossils on federal lands with the exception of 
petrified wood, citing a 1987 report from the National Academies of 
Science. The recommendations of this report were considered in the DOI 
Report, Fossils on Federal Lands (Babbitt, 2000), and have been 
implemented to the extent possible under existing law. This policy 
dates back to the 1915 Earl Douglass decision. The decision in this 
case that the dinosaur bones found by Mr. Douglass were not locatable 
minerals within the meaning of mining laws laid the groundwork for the 
establishment of Dinosaur National Park, a national treasure visited by 
thousands of Americans every year. There are sound reasons for 
continuing this long-standing policy.
    Proper stewardship of any public resource should seek to ensure 
that the resource is properly protected from harm, that any use of the 
resource maximizes the value of the use to the public, and that the 
benefits of use of the resource accrue to the entire public. In cases 
where the resource in question is renewable, a market-based sale of 
rights to use of the resource simultaneously benefits the general 
public and the acquirer of these rights. Examples of these types of 
resources include grazing rights, which can be managed such that the 
grazing use does not destroy other important uses of the land, and 
timber rights, which can include a mandate to ensure that reforestation 
is part of the harvesting program.
    For other resources, utilization of the value embodied in the 
resource requires that it be consumed. Extractable minerals and energy 
sources have no intrinsic value when they are lying in the ground; they 
do, however, contain significant value when they are extracted, 
refined, and used in manufacturing or converted into energy. Again, a 
market-based sale of these rights can ensure that these benefits are 
distributed to the public at large.
    Some have proposed that vertebrate fossils on federal public lands 
be treated in an analogous manner to the above--that rights to harvest 
them be sold on some type of market-based basis. Such an approach is 
both impractical and unwise. The parallel with timber and other 
renewable resources is inappropriate because fossils are nonrenewable. 
Similarly, treating fossils like oil, gas, etc. is impractical and ill-
advised because the greatest value of fossils lies not in their 
consumption, but in the information they convey.
    The PRPA will not interfere with mining on federal lands. Section 
12.1 of the PRPA states that ``Nothing in this Act shall be construed 
to ``(1) invalidate, modify, or impose any additional restrictions or 
permitting requirements on any activities permitted at any time under 
the general mining laws, the mineral or geothermal leasing laws, laws 
providing for minerals materials disposal, or laws providing for the 
management or regulation of the activities authorized by the 
aforementioned laws including but not limited to the Federal Land 
Policy Management Act (43 U.S.C.1701 ``1784),the Mining in the Parks 
Act, the Surface Mining Control and Reclamation Act of 1977 (30 U.S.C. 
1201-1358),and the Organic Administration Act (16 U.S.C.478,482,551);''
    I would like to conclude by telling you about one example of the 
kind of cooperation, which exists between federal agencies, amateur 
paleontologists and professional paleontologists. Amateur 
paleontologist Kathy Wankel discovered a Tyrannosaurus rex on federal 
land. She reported this find to dinosaur paleontologist Jack Horner of 
the Museum of the Rockies at Montana State University, Bozeman. The MOR 
was able to collect this fossil and the contextual data and to learn 
much more about this animal known to all schoolchildren. Dr. Horner is 
currently in the ninth year of a field study in the Charles M. Russell 
National Wildlife Refuge in eastern Montana. To date eight 
Tyrannosaurus rex skeletons have been discovered. The field study is 
yielding valuable information about this most famous of the dinosaurs 
and the environment in which it lived. Just last week a paper on this 
specimen was published in the journal Science. This paper used new 
techniques to recover soft tissue from this specimen and to extract 
proteins from this tissue. A comparison of these proteins with those 
found in chickens offers the first molecular evidence for the close 
evolutionary relationship between T. rex and modern birds. Many more 
benefits that are expected to flow from this ongoing research,
    The work of the Museum of the Rockies has made it possible for the 
National Museum of Natural History, Smithsonian Institution, to collect 
one of these specimens. Thus, our National Museum will be able to 
display an actual specimen of this celebrated American dinosaur for the 
first time. The passage of H.R. 554 will foster more and more 
opportunities like this and inspire the long-term preservation of these 
priceless national resources.
    The amateur and professional paleontological communities and the 
general public need the information from fossils found on federal lands 
and they want these fossils to be protected from theft and vandalism.
References:
    Babbitt, B. 2000. Report of the Secretary of the Interior: Fossils 
on Federal and Indian Lands
    PALEONTOLOGICAL SOCIETY AND SOCIETY OF VERTEBRATE PALEONTOLOGY. 
1999. Joint Position Statement by The Paleontological Society and The 
Society of Vertebrate Paleontology on Paleontological Resources on U.S. 
Public Lands
    Society of Vertebrate Paleontology. 1994. Bylaws, Article 9
    Stucky, R.K., and S. Ware. 1991. Questionnaire concerning fossil 
collecting on Federal Lands. DMNH, Denver.
    Vlamis, T.J., 2001, in Proceedings of the 6th Fossil Resource 
Conference Santucci, V.L. and McClelland, L. (eds) Geologic Resources 
Division Technical Report NPS/NRGRD/GRDTR-01/01 September 2001
                               Appendix 1
          society of vertebrate paleontology by-law on ethics
Article 9. Statement of Ethics.
    Several goals for the Society of Vertebrate Paleontology follow 
from its mission statement (Constitution Article 1): to discover, 
conserve, and protect vertebrate fossils and to foster the scientific, 
educational, and personal appreciation and understanding of them by 
amateur, student and professional paleontologists, as well as the 
general public. Fossil vertebrates are usually unique or rare, 
nonrenewable scientific and educational resources that, along with 
their accompanying contextual data, constitute part of our natural 
heritage. They provide data by which the history of vertebrate life on 
earth may be reconstructed and are one of the primary means of studying 
evolutionary patterns and processes a s well as environmental change.
    It is the responsibility of vertebrate paleontologists to strive to 
ensure that vertebrate fossils are collected in a professional manner, 
which includes the detailed recording of pertinent contextual data 
(e.g. geographic, stratigraphic, sedimentologic, taphonomic).
    It is the responsibility of vertebrate paleontologists to assist 
government agencies in the development of management policies and 
regulations pertinent to the collection of vertebrate fossils, and to 
comply with those policies and regulations during and after collection. 
Necessary permits on all lands administered by federal, state, and 
local governments, whether domestic or foreign, must be obtained from 
the appropriate agency(ies) before fossil vertebrates are collected. 
Collecting fossils on private lands must only be done with the 
landowner's consent.
    Fossil vertebrate specimens should be prepared by, or under the 
supervision of, trained personnel.
    Scientifically significant fossil vertebrate specimens, along with 
ancillary data, should be curated and accessioned in the collections of 
repositories charged in perpetuity with conserving fossil vertebrates 
for scientific study and education (e.g. accredited museums, 
universities, colleges, and other educational institutions).
    Information about vertebrate fossils and their accompanying data 
should be disseminated expeditiously to both scientific community and 
interested general public.
    The barter, sale, or purchase of scientifically significant 
vertebrate fossils is not condoned unless it brings them into, or keeps 
them within, a public trust. Any other trade or commerce in 
scientifically significant vertebrate fossils is inconsistent with the 
foregoing, in that it deprives both the public and professionals of 
important specimens, which are part of our natural heritage.
                               Appendix 2
joint position statement by the paleontological society and the society 
of vertebrate paleontology on paleontological resources on u.s. public 
                                 lands
    The Paleontological Society and The Society of Vertebrate 
Paleontology are committed to increasing scientific knowledge, 
educational benefits, and appreciation of the natural world based on 
fossils--for everyone--child or adult, the general public, or amateur 
or professional paleontologists. Fossils are an invaluable part of our 
scientific and natural heritage. They yield detailed information about 
the history of life and of our planet, and provide lessons for the 
modern world and our future.
    Many important fossil localities occur on U.S. public lands and 
belong to all people of the United States, including future 
generations. The Society of Vertebrate Paleontology and The 
Paleontological Society therefore support the development of policies 
and practices that can be used by different federal agencies to 
regulate the collection of fossils on U.S. public lands in an 
appropriate, clear and consistent manner.
    Many fossils are common (for example, many non-vertebrate fossils) 
and should be allowed to be collected--in a responsible way--by any 
amateur or professional paleontologist, thus allowing them to 
experience and benefit from the excitement of discovery, recovery, 
identification and study. In particular, because of the benefits that 
derive from increased public appreciation of fossils, it is important 
that the participation of amateurs in paleontology is not discouraged 
by Federal policies and practices.
    Other fossils are rare (for example, many vertebrate fossils and 
some non-vertebrate fossils), and require special protection, 
especially from destruction by vandalism or commercial exploitation. In 
particular, because of the dangers of overexploitation and the 
potential loss of irreplaceable scientific information, commercial 
collecting of fossil vertebrates on public lands should be prohibited, 
as in current regulations and policies. The commercial collecting of 
other paleontological resources on U.S. public lands should be strictly 
regulated by permit through the appropriate land management agencies. 
Regulations and polices regarding the collection of paleontological 
resources from U.S. public lands should be strictly enforced.
    In this context, the Council of The Paleontological Society and the 
Executive Committee of The Society of Vertebrate Paleontology strongly 
support actions that:
    <bullet>  protect fossils on public lands as finite natural 
resources,
    <bullet>  encourage responsible stewardship of fossils for 
educational, recreational, and scientific purposes,
    <bullet>  promote legitimate access to, and responsible enjoyment 
of, paleontological resources on public lands by the public and amateur 
paleontologists for personal use, and by the professional 
paleontological community, including professional paleontologists from 
outside the U.S.; and
    <bullet>  bring fossils from public lands into public institutions 
where they are available for purposes of education and scientific 
research.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me turn now to Mr. Frohling 
for your comments and testimony.

 STATEMENT OF NATHAN M. FROHLING, DIRECTOR, LOWER CONNECTICUT 
    RIVER PROGRAM, EIGHTMILE PROJECT, THE NATURE CONSERVANCY

    Mr. Frohling. Good morning. Mr. Chairman and members of the 
Subcommittee, thank you for this opportunity to present the 
Nature Conservancy's testimony in support of H.R. 986. The 
Nature Conservancy is an international nonprofit organization 
dedicated to protecting nature and preserving life on the 
planet. The Eightmile River watershed is a high priority for 
us. I have had the privilege to work with the communities of 
the Eightmile for the last nine years, and to serve as an 
active member of the locally led wild and scenic study 
committee.
    It is rare to find entire freshwater ecosystems intact 
throughout the range especially on the east coast but the 
Eightmile is one example. The Eightmile is free flowing. Its 
water quality is good as the best rivers in Connecticut. There 
are no surface water diversions, no dams that regulate flow, no 
point or source of discharges from industries or treatment 
plants. Over 80 percent of the watershed is forested. Less than 
7 percent is developed, and over 30 percent is in permanent 
protection.
    The Eightmile is a haven for biodiversity and ranks in the 
top 5 percent of New England's watersheds for high 
concentrations of rare species. The scenic beauty and 
recreational abundance of opportunity in the Eightmile also 
makes this a highly regarded resource by residents and 
visitors.
    The greatest threat is incremental, unplanned growth, and a 
clear message from Eightmile communities is and has been we 
cherish what we have. We do not want to lose it. The Eightmile 
characterizes where we live and gives special meaning to our 
lives. How can we protect it? Wild and Scenic designation was 
the answer chosen because it provides the best vehicle for 
protection while also strengthening local control over 
decisions affecting the area's future. It provides the 
incentive and wherewithal to accomplish a process of community 
self-determination. Designation also offers special important 
protections and resources not otherwise available.
    The watershed base designation was sought and recognizing 
this would be the best way to protect both the river and its 
landscape. Although only one outstandingly remarkable value is 
needed for eligibility, there were six identified for the 
Eightmile. During the study, a major outreach effort was 
implemented to facilitate citizen input and awareness. This 
included numerous community meetings, events, newsletters, 
brochures, press articles and mailings to all residents and 
riverfront landowners.
    With this community input, a watershed management plan was 
prepared and endorsed as a companion document, as the companion 
document to designation, and as the communities' blueprint for 
protecting the Eightmile's outstanding values. The plan is a 
set of recommendations and relies on existing authorities. It 
is locally implemented at the discretion of the local 
communities.
    The plan's strength stems from the investments citizens and 
towns have made in creating it and in endorsing it, and towns 
have in fact already begun voluntarily to implement it. 
Regarding landowner interest, the study paid close attention to 
protecting them. The bill assures no Federal land condemnation. 
Management plan recommendations were evaluated for potential 
impact on landowners and designed to assure no unreasonable 
burden or hardship.
    The plan assumes flexibilities so that actual measures will 
be responsive to reality on the ground. A clear majority of 
landowners recognize that at the most the plan may entail 
relatively small concessions in exchange for a very large 
benefit, sustaining the outstanding quality of where they live. 
Ultimately votes by town boards and citizens served as the 
direct expression of support and confidence and support is 
widespread.
    Town meetings were held with large citizen turnout and 
produced overwhelming votes in favor of designation and the 
plan. All selectmen, all the land use boards, the locally led 
study committee endorsed designation and the plan. Many civic 
and nonprofit groups have expressed their support as have 
individuals and riverfront landowners. Major newspapers have 
consistently run strong editorial endorsements. The Connecticut 
Legislature and Governor Rell endorsed designation with Public 
Act 518.
    Congressman Courtney and the entire Connecticut delegation 
as you know are sponsoring H.R. 986, and this is a bipartisan 
effort. With 10 years of work toward saving the Eightmile, the 
communities have done their part and are now eager for 
designation which they know is key to completing the protection 
of this nationally significant resource. Thank you for the 
opportunity to testify today for H.R. 986, and I am happy to 
answer any questions.
    [The prepared statement of Mr. Frohling follows:]

   Statement of Nathan M. Frohling, Lower Connecticut River Program 
         Director, The Nature Conservancy, Connecticut Chapter

    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's testimony in strong 
support of H.R. 986, legislation to designate certain segments of the 
Eightmile River in the State of Connecticut as components of the 
National Wild and Scenic Rivers System.
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. The Conservancy has approximately 1,000,000 individual 
members and programs in all 50 states and in over 30 foreign countries. 
To date, we have protected more than 15 million acres in the 50 states 
and over 117 million acres globally.
    As Lower Connecticut River Program Director, I lead The Nature 
Conservancy's efforts to conserve the Eightmile River Watershed. The 
Eightmile's 62-square mile watershed is part of the larger and 
internationally significant ecosystem of the Lower Connecticut River 
region. Both the Eightmile and Lower Connecticut are top priorities for 
The Nature Conservancy. In the late 1990's, The Nature Conservancy and 
University of Connecticut let a joint effort called the ``Eightmile 
River Project'' to study and map the watershed and explore community-
based strategies for protecting it. A primary outcome of this project 
was community interest in pursuing Congressional Wild and Scenic River 
designation for the Eightmile. I testified before Congress on behalf of 
this effort in 2001 and have participated actively over the last 5 1/2 
years as a member of the Eightmile River Wild and Scenic Study 
Committee, serving as Chairman of the Management Subcommittee, as a 
member of the Executive Committee and as Vice Chair of the full 
Committee.
The Eightmile River is a National Treasure
    The Eightmile River is a national treasure because it is one of the 
last and best examples of an intact, near-coastal river system on the 
East Coast of the United States, particularly along the Northeast 
coast. It is uncommon to find an aquatic ecosystem which is highly 
intact throughout its range, particularly at the scale of the Eightmile 
River Watershed, and particularly in the highly populated and developed 
coastal region from Washington D.C. to Boston. From rare species and 
natural communities to a high quality wetland and watercourse system to 
extensive, intact forest habitat, the Eightmile is such an example; it 
is a rare gem of nature.
    The Eightmile is also exemplary in providing a high quality of life 
for its residents and visitors. It is a rural landscape with great 
scenic beauty and offers an abundance of recreational opportunities. It 
offers excellent fishing and boating including power and sail in the 
river's one-mile long Hamburg Cove section. Hiking, sightseeing, 
hunting, and nature observation are among the popular activities in the 
Eightmile at State and Town Forests, Devil's Hopyard State Park, and 
many publicly available nature preserves owned by The Nature 
Conservancy and local land trusts.
    The Eightmile name is based on the distance between its mouth at 
the Connecticut River and Long Island Sound. The river system is 
dominated by the 10 mile East Branch, the 10 mile West Branch, and the 
5 mile main stem. There are major tributaries such as Beaver, Harris, 
and Falls Brook. The towns of East Haddam, Salem and Lyme make up the 
Eightmile Watershed.
Threats to the Eightmile River Watershed:
    The greatest threat to the special attributes of the Eightmile 
River and its watershed is incremental, unplanned growth. Between 1985 
and 2002, the Eightmile towns of East Haddam and Lyme each experienced 
an 11% increase in developed acreage and in Salem, a 23% increase. 
Unmanaged development typically results in landscape and habitat 
fragmentation, the loss of water quality, the loss of important species 
and natural communities, the intrusion of undesirable nuisance species, 
the loss of the cultural landscape--in short, loss of the Watershed's 
outstanding resource values. Change and growth is inevitable; the 
challenge for the Eightmile is whether this growth will be managed to 
protect and sustain its outstanding resources. There are other 
potential threats such as the excessive diversion of water or poorly 
managed resource extraction.
Community Desire: ``Protect What we Have:''
    During the Eightmile River Project conducted in the mid to late 
1990's and the Eightmile River Study conducted since 2001, and in the 
course of numerous meetings and presentations, there has been a clear 
message from the communities of Salem, East Haddam and Lyme: ``we 
cherish what we have, we don't want to lose it, we don't want it to 
change for the worse as so many other places have in Connecticut, the 
Eightmile River and its landscape is what characterizes and gives 
meaning to where we live.'' There has been recognition that without a 
pro-active effort to protect what is special, the special qualities of 
the area would be lost or seriously degraded, whether unintentionally, 
incrementally or directly. The question early on was ``how can we 
realize a collective vision to save this region, especially when we are 
set up to work as independent and often competitive towns?''
Wild & Scenic River Designation the Chosen Strategy:
    Congressional Wild and Scenic River designation was 
enthusiastically chosen as the best strategy for protecting the 
Eightmile River, its Watershed and realizing the community goals 
mentioned above. Highlights of why the Wild and Scenic River 
designation strategy was chosen include:
    <bullet>  The Wild and Scenic River process provides the structure, 
expertise, funding and facilitation needed for the communities to come 
together and collectively identify the issues and goals they have for 
the resource, and to set forth the means for meeting those goals. By 
adding the ``higher purpose'' and honor of national recognition and 
focusing citizens around a common and clear goal, the Wild and Scenic 
process could (and did) serve as a catalyst for local, community-based 
action and self-determination.
    <bullet>  A Wild and Scenic River designation, if achieved, would 
offer important protections not otherwise available locally or through 
the State of Connecticut. Federally funded or permitted water resource 
related projects that would have a direct and adverse impact on the 
river would not be allowed under designation. There are several threats 
to the Eightmile where this may be important including, for example, 
adverse water diversions.
    <bullet>  The Study would (and did) provide a greater level of 
scientific information than could otherwise be achieved, which will be 
useful for future decision-making.
    <bullet>  A Wild and Scenic River study represents the potential to 
bring in needed funds to support the community-based protection process 
that has been identified.
    <bullet>  The Wild and Scenic River designation process would be 
built on local control. The ability to maintain local control over land 
use decisions is key.
    <bullet>  Designation would facilitate long term coordination and 
consensus building among the towns and further heighten public 
awareness and citizen commitment to long term protection.
Watershed Approach:
    It was decided early on to pursue a watershed-based Wild and Scenic 
designation rather than focusing on discrete segments of the river. 
This approach was motivated by the exemplary quality of the watershed 
itself. It also allowed consideration of the important and intricate 
connection between the upland areas of the watershed and Eightmile 
streams and wetlands. Additionally, this approach would be the most 
realistic vehicle for communities to sustain the quality of the 
landscape of the Eightmile region as a whole. The Eightmile experience 
might also serve as a model to other communities interested in working 
together on a regional basis to address issues such as sprawl.
Outstandingly Remarkable Values:
    Six ``Outstandingly Remarkable Values'' were established for the 
Eightmile River system during the Eightmile Wild and Scenic River 
Study. Numerous scientific and technical studies were conducted in 
support of establishing these values. They form the basis for the 
Eightmile River's Eligibility for Wild and Scenic River designation and 
include:
    Watershed Hydrology: The Eightmile River Watershed hydrologic 
regime operates without major impediments or influences--and as such is 
a naturally functioning system. More specifically, there are no surface 
water diversions, no dams which regulate flow, there are no direct 
point source discharges from industry or wastewater treatment plants 
and the level of impervious land cover is low at only 3% watershed-
wide. There are high levels of forest cover coupled with low levels of 
development.
    Water Quality: Water quality and aquatic habitat in the Eightmile 
River Watershed is not only locally exemplary, but as good as the best 
rivers studied in the state. In addition, the two primary threats to 
water quality, point source and non-point source pollution, are almost 
nonexistent. All waterbodies in the watershed evaluated by the state 
fully meet their water quality use goals, and none are considered 
impaired; 92% of the watershed's streams and 99% of the ground water 
meet the state's highest water quality classification criteria. 
Chemical and biological indicators reveal that water quality and 
aquatic habitat are exemplary. Riparian corridors are highly intact and 
continuous and 80% of the watershed is forested and less than 7% 
developed.
    Unique Species and Natural Communities: The combined rarity, 
abundance and diversity of species and natural communities in the 
Eightmile River Watershed is unique and exemplary within Connecticut 
and throughout New England. The Eightmile River Watershed ranks in the 
top 5% of New England's watersheds for having one of the highest 
concentrations of rare species. A total of 155 ``at-risk'' plant and 
animal species occur in the watershed, including 32 vascular plants, 6 
amphibians, 81 birds, 8 fish, 12 invertebrates, 7 reptiles and 9 
mammals. There are 5 globally rare species and 54 occurrences of state-
listed rare plants, eleven of which are also rare for New England. 
There are over 100 occurrences of ``significant'' natural communities 
in the watershed and 18 natural communities were found to have 
exemplary biodiversity. Extensive, native beds of submerged aquatic 
vegetation, the healthy presence of native fresh water mussels and 
other small aquatic organisms such as mayflies, damselflies, 
dragonflies, beetles, snails, etc. are further indicators of overall 
ecosystem integrity.
    Geology: In the Eightmile, a combination of an exceptional bedrock 
assemblage, an atypical local topography and exemplary evidence of 
glacial action creates a distinct local representation of the geology 
of Connecticut.
    The Watershed Ecosystem: This is the ``holy grail'' of the 
outstandingly remarkable values in that the entire Eightmile River 
Watershed ecosystem remains highly intact and as mentioned above, this 
is a rare characteristic. The high quality of the system is also a 
reflection of the quality and summation of its interacting sub-
ecological features. Some of the features noted include: 1) 72% of the 
watershed consists of large, connected roadless blocks of habitat 
(>1000 acres), 2) nutrient and energy cycles critical for plants, 
animals and water quality are intact, 3) over 80% of the watershed is 
forested, 4) the high density of rare species, 5) minimal impacts from 
invasive species, 6) outstanding interior nesting bird habitat 
associated with the large, intact forest, 7) the natural hydrological 
system and flow regime that supports riparian communities dependent on 
periodic flooding and natural scour processes, 8) high water quality, 
etc.
    The Cultural Landscape: This outstanding resource value is a 
reflection of the bucolic, rural landscape and special places created 
by human interaction with the environment. In the Eightmile this 
includes a landscape dominated by scenic views and vistas, historic 
features such as old colonial homes and churches, stone walls, 
cemeteries and the lack of modern development and transportation 
patterns. Lands adjacent to the Eightmile River also have a high 
potential for intact archaeological resources.
What has been Achieved:
Outreach and Community Process:
    During the Wild and Scenic Study, a major outreach effort was 
implemented to assess social needs, facilitate citizen input, clarify 
community goals regarding the Eightmile River Watershed and to inform 
the public about the Wild and Scenic process. Examples include:
    <bullet>  Community Meetings: Numerous meetings held in each of the 
three towns covering the full range of topics from the background and 
history of the project to discussion of the Outstanding Resource Values 
to the watershed management framework. Particular attention was paid to 
feedback on the types of management tools citizens would support.
    <bullet>  Land Use Commissioners Summit: Attended by over 40 local 
land use decision-makers, this was a 4-hour facilitated work session 
which provided critical input into the formation of the management 
plan.
    <bullet>  Community Open House: This event was widely publicized 
and drew nearly 150 people; soliciting feedback from the public was a 
primary objective.
    <bullet>  Newsletters: six ``update'' newsletters were sent to 
riverfront landowners and the Eightmile subscriber list.
    <bullet>  Mailings to all Town Residents: invitations to the 
community forums and community open house, a special newsletter leading 
up to town votes and vote notices were sent to all residents of all the 
towns.
    <bullet>  Letter to 200 Riverfront landowners: This letter included 
a brochure on the Eightmile Wild and Scenic River Study and solicited 
their feedback and input into the Study process.
    <bullet>  Fairs and Events: Local fairs and events were staffed by 
Wild and Scenic representatives; a kick-off event for the Study was 
held at Devil's Hopyard State Park and attended by dignitaries such as 
Senator Dodd and Congressman Rob Simmons.
    <bullet>  Brochures and pamphlets: These were distributed to 
libraries, stores and other locations.
    <bullet>  Press Releases and signage: These were used to inform the 
public of Study progress, opportunities for input and votes regarding 
designation and the management plan.
Recognition that Existing Protection is Strong:
    Careful analysis conducted as part of the Wild and Scenic Study 
revealed that existing protection is strong. Quoting from page 22 of 
the Study Committee Report, ``Currently there are strong protections in 
place for the Eightmile River Watershed. These protections include: 
local, state and federal statutes and regulations that directly protect 
the waterways and adjacent lands, large amounts of conserved land and 
open space, many non-profit and governmental supporting organizations, 
landscape features that do not promote development, and a strong desire 
by local citizens to preserve the resource values of the watershed. 
Together with a locally administered watershed management plan, these 
existing protections are found to meet the suitability criteria for 
designated segments recommended for Wild and Scenic River 
designation.'' The towns, local land trusts, The Nature Conservancy and 
State have permanently protected over 31% of the watershed (over 12,500 
acres) and 25% of all river frontage within 100 feet of the 160 miles 
of river and stream within the watershed. Approximately 3000 acres were 
protected during the period of the Study (2001 to 2006).
Eightmile River Watershed Management Plan:
    A comprehensive watershed management plan was prepared and endorsed 
during the Study. It is the blueprint for enabling the 3 towns to 
collectively realize their vision for protecting the outstanding 
qualities of the Eightmile River Watershed. The content of the 
management plan reflects the many hours of research, analysis, planning 
and most of all--discussions with and input from citizens and town 
boards and commissions--it is the culmination of the Study at the local 
level. The Plan also helps fulfill the suitability criteria for 
designation by providing a management framework that brings key river 
interests together to work toward the ongoing protection of the river 
and watershed. An advisory Coordinating Committee has been set up to 
assist in implementing the management plan including facilitation of 
communication and consensus building. Key management issues addressed 
by the plan include riparian corridor protection, open space 
conservation of key habitats, limiting adverse impervious land cover, 
municipal stormwater management and best management practices for 
stormwater system and stream crossing design.
    The plan is a set of near and long term recommendations--it does 
not create any new authorities and its implementation is done locally 
and at the discretion of the local communities. The power behind the 
plan stems from the investment made by each town in creating it and 
ultimately by its formal endorsement by town boards and citizens. All 
three towns have begun to voluntarily implement the Plan prior to 
achieving designation because of their desire to continue moving toward 
their community goals. Designation remains key however, because 
designation is an important component of the overall framework for 
achieving long term protection and it represents a reward for the 
town's ``doing their part.''
Protection of Landowner Interests:
    Assuring that landowner interests would be respected was a major 
tenant of the Wild and Scenic Study process including development of 
the management plan and designation legislation. At the top of the list 
is that designation would be conditional on assuring that the 
``provisions of section 6(c) of the Wild and Scenic Rivers Act that 
prohibit Federal acquisition of lands by condemnation shall apply to 
the Eightmile River,'' which is the wording of the proposed 
legislation. Secondly, as mentioned above, the management plan is 
developed locally and its implementation is locally led and at the 
discretion of the local communities. Thirdly, the recommendations in 
the management plan were evaluated in terms of their potential impact 
on landowners and adjusted as necessary to assure that if implemented 
they would not pose an unreasonable burden or hardship. Also, the 
management plan was designed to be flexible and anticipate that the 
specifics of potential measures might be adjusted to take into account 
the ``reality on the ground'' at the time of implementation. 
Communication with riverfront landowners was a consistent and important 
part of the conduct of the Study. Ultimately, votes by the town land 
use boards and citizens served as the most direct expression of support 
for the designation and proposed protection measures. In general, as 
indicated through citizen votes, community input, discussions and 
neighbor to neighbor contact, the clear majority of landowners 
recognized that the potential implications of implementing the 
management plan would entail at worst the prospect of making relatively 
small concessions in exchange for the larger benefit of sustaining 
overall neighborhood and community quality.
Strong Support for Designation and Management Plan:
    Consistent with the history of the project and its origins, there 
is overwhelming, widespread support for Eightmile Wild and Scenic River 
designation. In the winter of 2006, the towns of East Haddam, Lyme and 
Salem held town meeting votes so that citizens could vote on whether to 
endorse the Eightmile River Watershed Management Plan and Wild and 
Scenic designation. These votes were attended in large numbers. In 
Salem the First Selectman claimed that it was the largest turnout for a 
town meeting. All of the towns had votes which were strongly in favor 
of endorsement--in total the votes were nearly unanimous. All town 
First Selectmen, land use commissions and boards of selectmen as well 
as the Wild and Scenic Study Committee voted to endorse the Management 
Plan and designation. Prior to and during the course of the Study many 
civic and non-profit groups have expressed their support for the Study 
and/or designation through letters, resolutions and other forms of 
endorsement. Individuals, landowners and river fronting landowners have 
also expressed support. Please see attachment.
    The State of Connecticut Legislature endorsed designation and the 
Management Plan by passing Public Act No. 05-18 ``An Act Concerning 
Designation of the Eightmile River Watershed Within the National Wild 
and Scenic River System'' which was signed into law by Governor Jodi 
Rell at a riverside ceremony.
    The Eightmile designation has been and remains a bipartisan 
endeavor. Republican Rob Simmons introduced the Study Bill in 2001 and 
introduced a designation bill just before the end of the 109th 
Congress. Democratic Congressman Joe Courtney has introduced H.R. 986 
and has the full support of the Connecticut Delegation, both 
republicans and democrats. Senators Dodd and Lieberman have been strong 
supporters since the beginning in 2001.
    Finally the newspapers have followed the Eightmile Project and the 
Wild and Scenic Study. There have been numerous articles about the 
project and strong editorial endorsements for designation. Examples are 
summarized in the attached exhibits.
The Time for Designation is Now!
    With 10 years of work into the effort to save the Eightmile River 
Watershed including the past 5 years during the Wild and Scenic Study, 
the communities have done their part and are anxious to complete this 
final critical step of obtaining Wild and Scenic River designation. 
They see the federal role as an inherent part of the collective multi-
party approach to protecting the resource. In order to continue making 
the commitment of time and resources, local communities need to know 
their federal partner will in fact come through too and allow the full 
partnership to be established. Noting that 2008 is the 40th anniversary 
of the Wild and Scenic Rivers Act, those involved in the Eightmile 
effort would greatly appreciate the honor of being one of the rivers 
who receive designation within the Act's first 40 years!
    Thank you very much for the opportunity to testify in support of 
H.R. 986. I urge the committee's favorable consideration of this 
important legislation. I would be happy to answer any questions from 
Members of the Committee.
                              Attachment:
       sample list of eightmile wild and scenic river supporters
     (through letters, resolutions, or other forms of endorsement):
Town Leaders:
    Lyme Selectmen
    East Haddam Selectmen
    Salem Selectmen
Town Commissions:
    Lyme Conservation and Inland Wetlands Commission
    Lyme Planning and Zoning Commission
    Lyme Open Space Committee
    East Haddam Planning and Zoning Commission
    East Haddam Economic Development Commission
    East Haddam Inland Wetlands and Watercourses Commission
    East Haddam Conservation Commission
    East Haddam Open Space Commission
    East Haddam Historical District Commission
    Salem Planning and Zoning Commission
    Salem Inland Wetlands and Conservation Commission
Community-based Committees:
    Eightmile River Wild and Scenic Study Committee; (2002--2006)
    Eightmile River Wild and Scenic Coordinating Committee; (2006--
present)
    East Haddam Community Planning Group; Deb Matthiason, Project 
Assistant
    Community Civic Organizations:
    Auxiliary of Lyme Fire Company
    Bashan Lake Association, East Haddam
    East Haddam Civic Association
    Federated Garden Club
    First Congregational Church of Lyme
    Friends of Devil's Hopyard
    Jewish Federation of Eastern Connecticut
    Lyme Cemetery Commission
    Lyme Garden Club
    Lyme Library and Lyme Public Library, Inc.
    Lyme Lions Club
    Lyme Public Hall Assoc., Inc.
    New Haven Hiking Club
    Salem Democratic Town Committee
    Salem Historical Society
River Fronting Property Owners:
    Andrew Zemko, Salem
    Anthony Irving, Lyme
    Betsy Woodward, Lyme
    Bill Cuddy, East Haddam
    Charlotte Barringer, Lyme
    David and Anne Bingham, Salem
    Dr. Richard Goodwin, Salem
    Fritz Gahagan, Lyme
    Jack Bodman, Salem
    John and Barbara Kashanski, East Haddam
    Karen Dahle, Lyme
    Marilyn Wilkins, Lyme
    Maureen and Chris VanderStad, East Haddam
    Mike and Faye Richardson, Lyme
    Roger Dill, Lyme
    Sue Hessel, Lyme
    Vivien Blackford, East Haddam
Town Residents:
    Anita Ballek
    Ann M. Kilpatrick, East Haddam
    Betty Cleghone, Lyme Garden Club member
    Janice and Richard Anderson, Lyme
    Leslie Shaffer, Lyme
    Mary Catherwood, Lyme
    Mary Platt, Lyme
    Sebyl Martin, East Haddam
Conservation Organizations:
    American Rivers
    Audubon Connecticut
    Connecticut Botanical Society
    Connecticut River Watershed Council
    East Haddam Land Trust
    Fisheries Advisory Council
    Lyme Land Conservation Trust
    Potapaug Audubon Society
    Salem Land Trust
    Southern New England Chapter, American Fisheries Society
    The Connecticut River Salmon Association
    The Connecticut River Watershed Council
    The Nature Conservancy
    Wind Over Wings

    [NOTE: Additional information submitted for the record by Mr. 
Frohling has been retained in the Commitee's official files.]
                                 ______
                                 
    Mr. Grijalva. Thank you. And testimony on H.R. 1100, 
Commissioner McGrady.

                  STATEMENT OF CHUCK McGRADY, 
                 HENDERSON COUNTY COMMISSIONER

    Mr. McGrady. Thank you, Mr. Chairman. Mr. Chairman and 
members of the Subcommittee, I appreciate being here today. I 
am here to support H.R. 1100, a bill that would authorize the 
boundary expansion of Carl Sandburg Home National Historic 
Site. I have submitted a written statement, and I do not intend 
to simply read from that but just hit the high points if that 
is OK.
    I am primarily here to attest to the broad support that 
H.R. 1100 with respect to the revision of the boundary of the 
Carl Sandburg Home National Historic Site has. I am a county 
commissioner in Henderson County, North Carolina, the area the 
site is in. A Republican I might add. And I am a former council 
member in the village of Flat Rock, which is where the site 
specifically is.
    The county commission, the village of Flat Rock, and for 
that matter a broad range of groups within the community 
support this bill. The chamber of commerce, for example, a 
number of the environmental and community organizations are all 
supportive of the bill.
    The bill tries to do two things I guess. First, protect the 
viewshed of Carl Sandburg Site and its boundary, and second 
potentially provide parking and a visitor's center. The land 
rises up. The bottom portion is sort of a farm, and the upper 
portion is probably the highest point in Flat Rock, and it 
looks out well to the west, and the need here is to protect the 
viewshed.
    In the past several years, we had an opportunity a 
neighboring landowner was quite willing to potentially sell his 
property to the Park Service but because the boundary was what 
the boundary was, the Park Service did not have the ability 
even to talk with that adjoining landowner about the boundary 
extension. This is a good proposal.
    I want to respond to the Ranking Member's question. I guess 
my only little quibble relates to just a drafting issue. In the 
bill it refers to acquiring contiguous land I believe to the 
present boundary. Eight of the tracts that are at issue here 
with respect to the viewscape are all contiguous.
    But on the northern boundary of the site, there is a state 
road. In fact, right across the road is the state playhouse and 
next to that is the village headquarters, and the expectation 
would be that if additional parking and visitor's center were 
added, it would not be actually contiguous but probably 
immediately across the road.
    I would tell you that the Park Service originally came 
forward with a proposal that suggested a much bigger area for 
parking and a visitor's center, and went through a series of 
processes with people like me, public officials in Henderson 
County, and we worked on this, and we came up with a smaller 
footprint with respect to potential parking and a visitor's 
center, and I commend them for that process.
    And because of the process the Park Service used, we now 
have I believe a near consensus within the Henderson County and 
Flat Rock community on this bill, and so I recommend it to you. 
I think the last thing I would say is what we are talking about 
here is willing landowners. These are my constituents. I know 
several of them. They are my neighbors. I live very close to 
this site.
    All of these landowners have agreed to the inclusion of 
their property in the boundary lines, and I think that is a 
really important point to make. And finally again I support 
this bill. I urge your support for it, and I would note in 
passing that Senator Dole has introduced companion legislation 
in the Senate which would do precisely the same thing. So there 
is broad bipartisan support I believe for the bill as 
introduced.
    [The prepared statement of Mr. McGrady follows:]

  Statement of Mr. Charles McGrady, Member of Board of Commissioners, 
 Henderson County, North Carolina, on H.R. 1100, a Bill to revise the 
 boundary of Carl Sandburg Home National Historic Site in the State of 
                             North Carolina

    Mr. Chairman, thank you for the opportunity to appear before your 
subcommittee today to support to H.R. 1100, a bill that would authorize 
the boundary expansion of Carl Sandburg Home National Historic Site, a 
unit of the National Park System. Later in my testimony I will 
recommend one change to the bill.
    My name is Chuck McGrady, and I currently serve as a county 
commissioner in Henderson County, North Carolina, where Carl Sandburg 
Home National Historic Site is located. Prior to becoming a county 
commissioner, I served on the Flat Rock Village Council; the Sandburg 
site is located within the Village of Flat Rock. I previously owned and 
operated a summer camp for boys in the area and serve on a variety of 
community and state-appointed boards. I share this informational 
background as a way to convey my engagement with the community and my 
understanding of the great community support for this bill which would 
authorize the Sandburg site to expand by up to 115 acres.
    The determination of the need for up to 115 additional acres was a 
direct result of the recent public planning process which created the 
General Management Plan for Carl Sandburg Home National Historic Site. 
The General Management Planning process began in 1999 and concluded in 
2003. The four-year process involved a broad spectrum of the community 
including attention to the wishes of the local government, the Village 
of Flat Rock, in regard to the boundary expansion. Park Superintendent 
Connie Backlund and the General Management Planning team were sensitive 
to the wishes of the community, and as a result the General Management 
Plan and this associated boundary expansion are widely supported. In 
particular, the Flat Rock Village Council, Henderson County Board of 
Commissioners, Henderson County Travel and Tourism, Henderson County 
Chamber of Commerce, the North Carolina National Park, Parkway and 
Forests Development Council have gone on record as supporting the 
proposed park expansion. In addition, our local newspaper, the 
Hendersonville Times-News, has written an extensive number of 
editorials supporting the additional acreage for the park.
    The 115 additional acres will serve two important functions related 
to the site. First of all, one hundred and ten (110) acres are to 
protect the top and sides of Big Glassy Mountain, a popular hiking 
destination as well as protect the scenic backdrop to the park's 
pastureland, a primary historic feature of the site. Comments from park 
visitors and others place a very high value on the park's pastoral 
landscape and preserving the associated views across the pastureland. 
Much of the backdrop to the pastureland is the up slopes of Big Glassy 
Mountain and lie outside the park boundaries. If these lands were to be 
subdivided and developed all agree the historic values of the site and 
the visitor experience associated with the site would be greatly 
compromised.
    The top of Big Glassy Mountain is the highest point in the park and 
the top consists of a large granite outcrop with the park boundary 
going directly across this rock face. Visitors to this popular 
mountaintop can frequently be outside the park. The immediate 
foreground of their views is located outside the park boundary. 
Development of this foreground property would have adverse affects on 
what is now a wonderful and expansive viewpoint enjoyed by many.
    In addition to this 110 acres to protect the top of Big Glassy and 
associated scenic views, the remaining three to five (3-5) acres of the 
boundary authorization would be to provide additional visitor parking 
at the site as well as to provide land for a visitor center.
    The current visitor parking is inadequate to accommodate the 
numbers of visitors to the site during much of the spring, summer and 
fall seasons. Frequently during the busy times of the year, visitors 
unable to find a parking space will park along Little River Road, the 
state road which provides access to the parking lot. This can result in 
safety hazards for park visitors and for vehicle traffic using this 
road. Other visitors, unable to find a parking place, will leave never 
having had an opportunity to visit the site. In addition, the park 
currently has no visitor center; however, the potential for exhibits 
and other educational opportunities are impressive. The National Park 
Service acquired the site directly from Mrs. Sandburg in 1968, a year 
after Carl Sandburg's death, and she donated all the family possessions 
to the National Park Service. This forms a museum collection of over 
300,000 items which reflect Sandburg's far-ranging interests including 
President Abraham Lincoln and the Civil War. The visitor center and 
interpretive exhibits would provide critically needed visitor 
orientation, interpretation of the Sandburg story and opportunities for 
the site's growing education program.
    I wish to offer one recommended change to H.R. 1100, and that would 
be to delete the word ``contiguous'' as the way to describe lands that 
could be considered for purchase or donation. The General Management 
Planning process, in concert with the community, devised the 
description of lands that may be considered from willing sellers to be 
lands located west of the Greenville Highway (Highway 225) and south of 
Little River Road. This is the recommended best description to use, and 
gives the park the flexibility to see what may come up on the market 
from a willing seller to address the needs for a visitor center and 
additional parking.
    Mr. Chairman, I appreciated the opportunity to present my 
testimony, and I welcome any questions you or members of the 
subcommittee may have.
                                 ______
                                 

          Recommended Change to Authorization Bill to Expand 
                         Carl Sandburg Home NHS

    The one recommended change to the bill authorizing the boundary 
expansion of Carl Sandburg Home National Historic Site would be to 
delete the phrase ``contiguous to the Carl Sandburg Home National 
Historic Site'' and replace it with the phrase ``located west of the 
Greenville Highway (Highway 225) and south of Little River Road in the 
Village of Flat Rock'' in the section describing acquisition of 
additional land.
    The language makes the bill consistent with the site's General 
Management Plan crafted through a four-year public planning process and 
provides flexibility in acquiring land for the authorized visitor 
center and visitor parking area.
                                 ______
                                 
    Mr. Grijalva. Thank you, Commissioner. Let me call on 
Commissioner Caviezel.

          STATEMENT OF CHRIS CAVIEZEL, COMMISSIONER, 
          KING AND KITTITAS COUNTIES FIRE DISTRICT 51

    Mr. Caviezel. Caviezel.
    Mr. Grijalva. Got it.
    Mr. Caviezel. My name is Chris Caviezel, and I am Chairman 
of the Board of Commissioners for King and Kittitas Counties 
Fire District No. 51, a volunteer fire department serving a 
residential community of Snoqualmie Pass. This unincorporated 
area has 350 full-time residents. In addition, we have a 
wintertime ski area which sees an estimated 20,000 people a day 
during the peak of the season. The Washington State Department 
of Transportation estimates up to 60,000 vehicles will travel 
through our fire district on a busy day.
    Snoqualmie Pass has an enormous amount of snowfall with an 
average of 32 feet of snow each year for the last 10 years. 
This results in avalanches and rockslides on both sides of the 
pass, and additionally adds to the appeal of the area by many 
visitors. These unique demographics challenge local resources 
to the limits.
    Our fire department averages over 300 calls a year and has 
seen a 10 percent annual increase in call volumes. Snoqualmie 
Pass is completely surrounded by Forest Service land. To the 
north and south of us are the Cascade Mountains, and along the 
Interstate 90 corridor Forest Service land extends to the east 
and west of us, well beyond our seven and a half mile response 
area in each direction.
    While our primary mission is to fight fires and provide 
emergency medical services in our local residential setting and 
nearby interstate highway, the impacts of the surrounding 
Forest Service land definitely affect our mission. The Forest 
Service has the primary responsibility for putting out fires on 
their land. However, the nearest Forest Service resources are 
30 minutes away in good weather in the town of North Bend.
    Although Snoqualmie Pass all volunteer fire station is not 
obligated to respond to any fires on Forest Service land, we 
gladly do so. We are usually the ones in the position to get to 
the fire first, giving us a better chance at containing the 
fire before it can get out of hand and present a much larger 
problem.
    It is also important to note that our all volunteer fire 
department must respond quickly to prevent fire from spreading 
onto Forest Service land. The nearest career department is 30 
minutes away, weather cooperating, and during a recent fire we 
have had support come to us from over an hour away.
    Despite our very limited resources, there is tremendous 
need for a new fire station. The current fire station was 
originally built in the 1930s as a maintenance shed for the 
Department of Transportation. The existing building has 
numerous electrical, structural and operational deficiencies. 
One problem of note is that the roof sheds snow in front of the 
apparatus base, especially when the fire station sirens sound 
when we get a call. This can leave up to a four-foot ridge of 
snow and ice in front of our rigs, preventing a response until 
the path is cleared.
    Last year our fire department was contacted by the Forest 
Service to ask if we would be interested in purchasing the land 
where our fire station is currently located. We have long 
recognized the pressing need to build a new fire station. So 
for many years our department has been looking at alternative 
locations. Unfortunately, each and every time it always came 
down to the lack of money for us to proceed.
    Through a series of discussions with the Forest Service, we 
also learned that there is a different parcel of land that they 
would be willing to consider. This other parcel would allow us 
to build a new station with less impact to current operations, 
and this new location due to its location and accessibility 
would definitely serve us better. Also it should be noted that 
the land that we desire is a rarely used parking lot.
    Monies received through fire department levied property 
taxes this year will equate to around $163,000. This money is 
barely enough to sustain current operations, and since 
Snoqualmie Pass is surrounded by Forest Service land and 
because we cannot levy a tax against the U.S. Forest Service, 
we are severely prohibited from expanding our tax base and must 
rely upon outside assistance for continued operation, and 
unlike almost all the other fire departments in the State of 
Washington, most of our customers, about 84 percent, are non 
taxpaying residents. Rather they are people that are driving 
through the area, visiting the ski area or visiting U.S. Forest 
Service land.
    We recognize that the process to convey land without cost 
is not done very often. However, we believe our unique 
circumstances more than justify this to be done. My 
constituents recognize the importance of a top quality fire 
department, and they are supportive of the fire department. A 
conveyance of this land would ease the burden of building a new 
fire station.
    Funding sources for building the fire station are being 
sought through State Representative Bill Hinkle and others. 
Additionally, Fire Chief Matt Cowen and myself will be 
attending a workshop at the end of this month for the purpose 
of fire station design and alternative funding sources to fund 
the cost of building a new fire station. Thank you.
    [The prepared statement of Mr. Caviezel follows:]

   Statement of Chris L. Caviezel, Chairman, Board of Commissioners, 
              King and Kittitas Counties Fire District #51

    My name is Chris Caviezel, I am the Chairman of the Board of 
Commissioners for King and Kittitas Counties Fire District #51, a 
volunteer fire department serving the recreational community of 
Snoqualmie Pass.
    This un-incorporated area has 350 full-time residents. In addition, 
we have a winter-time ski area which sees an estimated 20,000 people a 
day during the peak of the season. The Washington State Department of 
Transportation estimates that up to 60,000 vehicles will travel through 
our fire district on a busy day.
    Snoqualmie Pass has an enormous amount of snowfall with an average 
of 32 feet of snow each year for the last ten years. This results in 
avalanches and rock slides on both sides of the pass and additionally 
adds to the appeal of the area by many visitors.
    These unique demographics challenge local resources to the limits. 
Our Fire Department averages over 300 calls a year and is seeing a 10 
percent annual increase in call volumes.
    Snoqualmie Pass is completely surrounded by Forest Service land. To 
the North and South of us are the Cascade Mountains and along the 
Interstate-90 corridor, Forest Service Land extends to the east and 
west of us, well beyond our 7-1/2 mile response area in each direction.
    While our primary mission is to fight fires and provide emergency 
medical services in our local residential setting and nearby inter-
state highway--the impacts of the surrounding Forest Service Land 
definitely affect our mission. The Forest Service has the primary 
responsibility for putting fires out on their land, however, the 
nearest Forest Service resources are 30 minutes away--in good weather--
in the town of North Bend. And though Snoqualmie Pass's all volunteer 
fire station is not obligated to respond to any fires on Forest Service 
Land, we gladly do so. We are usually the ones in the position to get 
to the fire first, giving us a better chance at containing the fire 
before it can get out of hand and present a much larger problem.
    It is also important to note that our all-volunteer fire department 
must respond quickly to prevent fire from spreading on to Forest 
Service Land. The nearest career department is 30 minutes away, weather 
co-operating, and during a recent fire we have had support come to us 
from over an hour away.
    Despite our very limited resources, there is a tremendous need for 
a new fire station. The current station was originally built in the 
1930's as a maintenance shed for the Department of Transportation, the 
existing building has numerous electrical, structural and operational 
deficiencies. One problem of note is that the roof sheds snow in front 
of the apparatus bays, especially when the fire station siren sounds 
when we get a call. This can leave up to a four foot ridge of snow and 
ice in front of our rigs preventing a response until the path is 
cleared.
    Last year our Fire Department was contacted by the Forest Service 
to ask if we would be interested in purchasing the land where our Fire 
Station is currently located. We have long recognized the pressing need 
to build a new fire station, so for many years our department has been 
looking at alternative locations. Unfortunately, each and every time it 
always came down to the lack of money for us to proceed.
    Through a series of discussions with the Forest Service, we also 
learned that there is a different parcel of land that they would be 
willing to consider. This other parcel would allow us to build a new 
station with less impact to current operations and the new location, 
due to its location and accessibility, would definitely serve us 
better. Also, it should be noted, that the land that we desire is a 
rarely used parking lot.
    Monies received through fire department levied property taxes this 
year will equate to around $163,000. This money is barely enough to 
sustain current operations. And since Snoqualmie Pass is surrounded by 
Forest Service land (and because we cannot levy a tax against the U.S. 
Forest Service) we are severely prohibited from expanding our tax base 
and must rely upon outside assistance for continued operation. And 
unlike almost all of the other fire departments in the State of 
Washington, most of our customers, about 84%, are non-taxing paying 
residents. Rather they are people that are driving through the area, 
visiting the Ski Area, or visiting U.S. Forest Service Land.
    We recognize that the process to convey land, without cost, is not 
done very often. However, we believe our unique circumstances more than 
justify this to be done.
    My constituents recognize the importance of a top quality fire 
department and they are supportive of the Fire Department. A conveyance 
of this land would ease the burden of building a new fire station. 
Funding sources for building the fire station are being sought through 
State Representative Bill Hinkle and others. Additionally, Fire Chief 
Matt Cowan and myself will be attending a workshop at the end of this 
month for the purpose of Fire Station Design and Alternative Funding 
Sources to fund the cost of building a new fire station.
                                 ______
                                 
    Mr. Grijalva. I thank all the witnesses for their 
testimony. Let me begin with a question for Mr. Vlamis. It 
appears that the highest prices for fossils is overseas. That 
being an incentive to ship fossils found in this country out, 
is this one of the reasons in your testimony that you mentioned 
that the price for fossils has risen sharply just in the last 
several years? Is that one?
    Mr. Vlamis. Mr. Chairman, it is a global phenomenon the 
rise in the value of fossils, and so we do see high prices 
being paid by overseas buyers but also by buyers in the United 
States.
    Mr. Grijalva. Let me ask another question. It has to do 
with----
    Mr. Vlamis. But the intent is to ensure that these fossils 
remain in the public trust to be curated in repositories so 
that future access is guaranteed to researchers and to the 
general public because oftentimes you have to reexamine that 
fossil because you found that gee, I was not looking at this 
the right way. And so the intent is to make sure that there is 
access guaranteed both to the public and to future researchers.
    Mr. Grijalva. And maybe just expand a bit on the context 
point that you made in your testimony that was made from a 
scientific standpoint to examine fossils in the context in 
which they were found.
    Mr. Vlamis. Sure. The contextual data oftentimes tell a lot 
about the fossil. So you can find what type deposit was there. 
What was it that killed this particular animal. Was it a flood 
event? Was there a drought? These kinds of things can be 
discovered by looking at the contextual data. So that is why 
those data are very important. Without those data, you do not 
know nearly as much about the fossil.
    Mr. Grijalva. Let me just the last question because it 
seems to be the crux of the discussion or the issue with this 
piece of legislation. Is there a role for private for profit 
collectors, and what should that role be? Two questions. And 
the last one, should private for profit collectors be limited 
to private land?
    Mr. Vlamis. Well I think that the commercial collection of 
fossils on public lands is not really an appropriate use of 
public lands. We certainly would not advocate restricting what 
private landowners choose to do. You know sometimes I have had 
people raise the analogy well you know we allow timber to be 
harvested on Federal lands, why should not the same thing be 
done or they will say we allow mineral extraction, oil and gas 
extraction on Federal lands, why should this not be the case 
for fossils?
    And I think really those analogies kind of break down. With 
timber we are talking about a renewable resource. Fossils are 
by definition a nonrenewable resource. And I think that the 
analogy with mineral extraction, oil and gas exploration really 
does not work either because the value of a mineral is you 
achieve that value by turning it into something.
    You achieve the value of oil and gas by turning it into 
energy, and consuming it, and therefore the marketplace allows 
you to dollarize that and distribute those benefits to all the 
people of the United States. The value of a fossil is in the 
scientific information it has. So if the public is going to 
maximize the value of this resource for everybody, then the way 
to do that is by making sure that the contextual data are 
collected and that that fossil remains available for future 
study, and that way the public maximizes the value of this 
resource.
    Mr. Grijalva. Thank you. On that same vein, let me ask a 
question of Mr. Larson. Following that discussion about private 
collectors for profit, but just in general could you describe 
the process for finding and removing fossil resources from 
private lands? And for instance, can people walk onto private 
lands and keep whatever they find?
    Mr. Larson. In this country the private landowner is the 
steward of those fossils. They own the fossils found on their 
land, and so if they get permission or if they sell a lease or 
you know they have the right to give permission for the removal 
of those fossils. I mean bad people could of course steal from 
private landowners as well.
    Mr. Grijalva. Would the logic follow then that the Federal 
Government as steward of those public lands would indeed be the 
owner who gives permission regarding that process for 
extraction of fossils on public land?
    Mr. Larson. Absolutely. The Federal Government has the 
statutory authority and owns those. The people of the United 
States own those fossils but that also means that they could 
like private landowners give permission to transfer those 
ownership rights to people in certain appropriate conditions.
    Mr. Grijalva. I appreciate that. Mr. Bishop.
    Mr. Bishop. Thank you. Let me start with Mr. Caviezel if I 
could. Could you please tell me structural challenges you have 
with the current building that you are using?
    Mr. Caviezel. Yes. As I mentioned, the building was 
originally built as a maintenance shed for the Department of 
Transportation. When the fire department moved in, basically 
the bay doors had to be reconfigured to allow the fire trucks 
to come into the building. We do not have the adequate 
clearance to be able to safely do that all the time. We kind of 
in some respects moving the engine in and out is a challenge 
much greater than it really needs to be.
    Mr. Bishop. Can you tell me the types of incidents for 
which you are often the first on the scene?
    Mr. Caviezel. Sure. As Congressman Doc Hastings mentioned a 
little bit earlier, about a month ago we had about a 60-car 
pileup that was on Interstate 90. We were the first fire and 
rescue district to get on the scene. We have had some 
structural fires, and basically there is a lot of different 
types of incidents along Interstate 90 due to the weather and 
so forth along the interstate that we have to respond to in 
terms of multi-car pileups and things of that nature.
    Mr. Bishop. Thank you. I appreciate that, and I also 
appreciate your very explicit testimony on the financial 
challenges the district has to try and meet these emergency 
service needs in your particular area, and I appreciate that.
    Mr. Caviezel. And thank you. Just in closing, I wanted to 
point out too this is a picture of the land that we are looking 
at trying to convey.
    Mr. Bishop. It would look very much enhanced with a fire 
station there.
    Mr. Caviezel. Thank you.
    Mr. Bishop. This is one of the problems that we have when 
we are dealing with four bills at the same time, and I will do 
this as quickly as I possibly can. Mr. Larson, as I 
understand--if I am taking questions away from the gentlelady 
from South Dakota just wave your hand and I will shut up. I 
understand approximately 85 percent of your business is dealing 
with museums, selling to museums.
    Mr. Larson. Yes, that is correct. That is our----
    Mr. Bishop. If this bill were to go into effect, perhaps 
limiting the amount of fossils that would be collected, what 
impact would that have on your personal business?
    Mr. Larson. Actually when you limit the number of fossils, 
you raise the price of those fossils. You limit their 
distribution. If this bill were to get into effect, it would be 
a good thing for my business because we have tons of fossils in 
warehouse now, and we have good access to private lands. That 
sort of eliminates a lot of other people who could potentially 
compete with us. But as a scientist, I find it a bad thing and 
especially for the contributions that amateurs make.
    Mr. Bishop. You should probably quit fighting elitism. It 
would help you out in the long run there.
    Mr. Larson. It probably would.
    Mr. Bishop. In your written testimony you say 
paleontology's needs for an unimpeded access is in sharp 
contrast with the prevailing situation in archeology. Can you 
explain very quickly--because I have only got like a minute--
what you mean by that?
    Mr. Larson. In archeology the resources are very limited. 
They are limited to the last in this country approximately 
10,000 years of occupation whereas fossils have been around and 
have been being made for the past three billion years, and in 
terms of vertebrates for the past half a billion years. So we 
have lots and lots of fossils here. Wherever there is 
sedimentary rocks, there is fossils. Literally trillions and 
trillions of fossils in this country.
    Mr. Bishop. I understand that in the 104th Congress there 
was a bill, H.R. 2943, that was a bipartisan bill from then 
Congressman Johnson and Congressman Skeen. I was wondering if 
your organization has been able to see that, and if you have a 
preference to that particular bill.
    Mr. Larson. As a matter of fact, I have copies of it here 
if anyone on the committee is interested, and there always you 
know some problems with some bills but this is I think a very, 
very good attempt at trying to do what the NAS committee had 
recommended.
    Mr. Bishop. I do have some questions for the other three 
witnesses as well. I may have to wait until a second round to 
get some of those in there. Mr. Vlamis, first of all before I 
say anything else I appreciate your comments on timber and 
mineral extraction, and I hope the committee heard those very 
well. I think they should be you know written down in gold and 
put up on the walls so we will remember when we talk about the 
purpose and value of timber and mineral extraction. I think you 
were right on, on that one. Let me just ask one simple 
question. How do you fence a fossil?
    Mr. Vlamis. How do you sell a fossil?
    Mr. Bishop. Yes. If I illegally take a fossil, to whom do I 
sell it?
    Mr. Vlamis. We see those fossils often up at auctions. 
There are auctions that are held by various auction houses. 
Christie's, Butterfields.
    Mr. Bishop. Who buys them though?
    Mr. Vlamis. The highest bidder. No, I mean I am not trying 
to----
    Mr. Bishop. Which are what kinds of people?
    Mr. Vlamis. Sometimes it is museums that buy them. Some----
    Mr. Bishop. I mean I have got like two seconds. I am sorry, 
and I will come back and give you another chance to give me a 
better definition. The allosaurus from Utah, the Japanese 
purchaser, for what purpose did he purchase that?
    Mr. Vlamis. I do not know.
    Mr. Bishop. OK. I am sorry. I will come back.
    Mr. Grijalva. Mr. Shuler, questions?
    Mr. Shuler. Thank you, Mr. Chairman. I would like to extend 
a special thank you to Mr. McGrady for his testimony today, and 
I think it is a perfect example of how the community continues 
to work together in a bipartisan relationship to better 
community and have the involvement in the Carl Sandburg 
Historic Home Site. So it has been really good working with you 
and a lot of the other colleagues throughout our district. We 
have been very excited about having this opportunity, extending 
those boundaries.
    Can you talk a little bit more about just two quick things? 
Also the economic impact that the Carl Sandburg Home has to the 
area, and also you know what types of visitors does the home 
actually bring forth? School kids and other types.
    Mr. McGrady. The site clearly has economic impact although 
it is hard to cut it out from all the other things. In my 
county recreation is very important. Agriculture is too but we 
have a lot of people that visit this area because it is cool, 
and a lot of other places in the south are not, and we have got 
a range of recreational opportunities, cultural opportunities, 
and this is clearly one of them. As I have indicated, right 
across the street from the state playhouse. It has got visitors 
approaching 30,000 I believe right now.
    I think what surprised us actually is the recreational 
component of the site. It was originally preserved because Carl 
Sandburg lived there, and that was expected to be the draw but 
it backs up to Flat Rock, several of the major housing areas, 
and a lot of our residents use the site for recreation because 
of the trails in the area. So it has evolved into something a 
little bit different perhaps than those who were responsible 
for acquiring it back in the late 1960s might have considered.
    Mr. Shuler. Well I can certainly say my first visit to the 
home was in the eighth grade. So I appreciate your work and 
your dedication. Thanks for your testimony today.
    Mr. McGrady. Thank you, Congressman.
    Mr. Shuler. Thank you.
    Mr. Grijalva. Thank you, sir. Ms. Herseth Sandlin, any 
questions?
    Ms. Herseth. Yes. Thank you again, Chairman Grijalva, for 
the hearing, and the testimony which I commend to my fellow 
Subcommittee members of Mr. Larson. Dr. Larson's experience I 
think speaks volumes about the need for clarity within Federal 
regulations, and I think a closer look at the NAS 
recommendations and the focus on the fossils and those who are 
uncovering them and preserving them and using to add to the 
basis of scientific knowledge in addition to some of the 
questions raised throughout this hearing as it relates to the 
focus of this bill on law enforcement. Hopefully we will be 
able to find some compromise here especially with the 
legislation that Dr. Larson has referred to us, now Senator 
Johnson's bill that was introduced in large measure based on 
some of what folks in South Dakota were experiencing.
    I do have a question that I want to start out with, Mr. 
Vlamis, before we come back to the bill 554 and how it may 
differ from what was introduced by now Senator Johnson. I am 
interested in learning more about the casual collecting 
provisions of the legislation, and I certainly appreciate the 
fact that the bill preserves a place for casual collectors and 
enthusiasts to pursue their hobby on Federal lands.
    The collecting is limited to common invertebrate and plant 
paleontological resources. Could you comment at all about how 
hard it is to draw the line in practice, in other words, 
defining the term common, and why the line was drawn at 
invertebrates?
    Mr. Vlamis. Well, vertebrate fossils tend to be more rare 
than invertebrate and plant fossils so that is why the line was 
drawn there. In terms of addressing what is defined as a common 
plant or invertebrate versus a scientifically significant plant 
or invertebrate, we feel that that could be addressed through 
the regulations that are put in place after this bill is 
passed, if it is passed.
    Ms. Herseth. Thank you. And I want to thank the Ranking 
Member for his questions on this bill, and so let me come back 
to you, Mr. Larson. On the issue of casual collecting or the 
sale of fossils found on public land, how does H.R. 554 differ 
from the bill that was introduced back in 1996 I believe? Was 
it introduced in 1996?
    Mr. Larson. In 1996. There are provisions for amateur 
collecting of vertebrate fossils and commercial collecting as 
well.
    Ms. Herseth. And could you elaborate for the record and for 
the committee on just a little bit? I know that you have made 
copies available to us, and we will be doing some of that 
comparison with our committee staff too, but you had mentioned 
at the outset in your testimony that the focus of the 
recommendations that you have been involved in formulating with 
the National Association as well as what is incorporated into 
the 1996 bill. But the focus you say is more on the fossils 
themselves and the folks involved in preserving and collecting 
those fossils versus the folks on law enforcement. For example, 
how did the 1996 bill deal with law enforcement provisions?
    Mr. Larson. It certainly did not increase penalties in the 
way that this bill does. I do not remember the exact provisions 
of the law enforcement but it recognizes the ability of the 
Federal Government through theft regulations and authority 
already that there is plenty of authority for prosecuting 
people if they are really bad people. If they are doing bad 
things.
    But it actually protects some of the people who are 
innocently going at it from the basis of a scientific curiosity 
and helps to promote that type of activity which actually 
increases the number of people out watching fossil sites and 
helps in preserving those fossil sites without the additional 
expense of more law enforcement and more court cases.
    Ms. Herseth. Thank you. And in response to Congressman 
Bishop's question--actually it was Chairman Grijalva's--it 
relates to the work with private landowners. Could you just 
summarize your experience back in 1996 and where you think we 
need to further clarify to avoid the District Court having to 
get involved to do it as it relates to land on Native American 
reservations?
    Mr. Larson. The Bureau of Indian Affairs is sort of a 
different type of situation although now the Bureau of Indian 
Affairs seems to be treating individual allotments and 
individual Indian land as normal individual, they have the 
right to determine their land. However, in certain instances, 
it has to go through the Bureau's legal teams to make sure that 
they are not being cheated, and make sure they get a fair deal.
    Ms. Herseth. Thank you very much, and thank you again, 
Chairman Grijalva.
    Mr. Grijalva. Thank you. Mr. Bishop.
    Mr. Bishop. I know that the Chairman has to be on the Floor 
in just a few minutes so let me do this really fast, and I will 
apologize for that. I wanted to give some of you a little bit 
more time to talk to some of these bills. I appreciate that. 
Let me just lay down a marker for where I think the minority 
will be looking at some of these pieces of legislation.
    Specifically to Congressman Shuler's bill, two quick 
questions if you can give this to me, Mr. McGrady. How much was 
the original homesite of the Sandburg?
    Mr. McGrady. Under 150, 160 acres.
    Mr. Bishop. OK. Now you are up to 250. So you have expanded 
that significantly. Do you have an assessed valuation of this 
property?
    Mr. McGrady. I can give it to you. We just had 
reassessments but it is in the 2 to $3 million range.
    Mr. Bishop. For the 115?
    Mr. McGrady. If all the property was acquired in fee 
simple, but that is not necessarily.
    Mr. Bishop. Two to $3 million. I appreciate that because 
you are a heck of a lot better than the Park Service was in 
trying to estimate what the value of that property was.
    Mr. McGrady. We just had revaluation last month.
    Mr. Bishop. Give the data to the Park Service. Let me do 
this very quickly so we can go on with that. I think from the 
minority side we look at the need for parking as something that 
is essential there and understandable as well as the visitor's 
center. We would be supportive of that whether it is contiguous 
or not. The additional property that you are after is not part 
of the viewshed. You cannot see it from the house itself. You 
have to go up to the ridge to go back at it.
    To be honest if the village of Flat Rock would like to have 
open space, I suggest you do what many western states do and 
bond and buy it, and keep that as open space but to add it to 
the National Park inventory is something I think we would find 
not necessary and overly expensive to that particular price. 
But if you want to make the argument for additional parking and 
for a visitor's center, I think you make a credible 
recommendation, especially when the original Sandburg property 
is about half of what you already have there in the Park 
Service at the same time.
    I apologize for that but I know everyone has a 12 o'clock 
appointment. So do I, and I would have tried to do it more 
deftly than I did. I apologize for that.
    Mr. McGrady. Mr. Chairman, if I can respond to that later I 
will just in a personal letter to the Ranking Member can 
respond to some of the concerns he has.
    Mr. Bishop. I would appreciate that very much.
    Mr. Shuler. [Presiding.] Are there any other questions? At 
this time I would like to thank the panel, and we are 
adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
